<html>
<title> - PROTECTING AMERICA'S COMPETITIVE EDGE ACT (S. 2198): HELPING K-12 STUDENTS LEARN MATH AND SCIENCE BETTER</title>
<body><pre>[Senate Hearing 109-393]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-393
 
   PROTECTING AMERICA'S COMPETITIVE EDGE ACT (S. 2198): HELPING K-12 
                 STUDENTS LEARN MATH AND SCIENCE BETTER

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON EDUCATION AND EARLY CHILDHOOD DEVELOPMENT

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON



EXAMINING S. 2198, TO ENSURE THE UNITED STATES SUCCESSFULLY COMPETES IN 
 THE 21st CENTURY GLOBAL ECONOMY, FOCUSING ON EFFORTS TO IMPROVE MATH 
                  AND SCIENCE AND TECHNOLOGY EDUCATION

                               __________

                             MARCH 1, 2006

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions






                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

26-426                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001

















          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                   MICHAEL B. ENZI, Wyoming, Chairman

JUDD GREGG, New Hampshire            EDWARD M. KENNEDY, Massachusetts
BILL FRIST, Tennessee                CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
PAT ROBERTS, Kansas

               Katherine Brunett McGuire, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

       Subcommittee on Education and Early Childhood Development

                  LAMAR ALEXANDER, Tennessee, Chairman

JUDD GREGG, New Hampshire            CHRISTOPHER J. DODD, Connecticut
RICHARD BURR, North Carolina         TOM HARKIN, Iowa
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
MICHAEL B. ENZI, Wyoming (ex         EDWARD M. KENNEDY, Massachusetts 
officio)                             (ex officio)

                      David Cleary, Staff Director

                James M. Fenton, Minority Staff Director

                                  (ii)












                            C O N T E N T S

                               __________

                               STATEMENTS

                        WEDNESDAY, MARCH 1, 2006

                                                                   Page
Alexander, Hon. Lamar, Chairman, Subcommittee on Education and 
  Early Childhood Development, opening statement.................     1
Enzi, Hon. Michael B., Chairman, Committee on Health, Education, 
  Labor, and Pensions, prepared statement........................     2
Ensign, Hon. John, a U.S. Senator from the State of Nevada, 
  prepared statement.............................................     4
Johnson, Henry, assistant secretary, Office of Elementary and 
  Secondary Education, U.S. Department of Education, Washington, 
  DC; Arden L. Bement, Jr., director, National Science 
  Foundation, Washington, DC; and Hon. James B. Hunt, Jr., Former 
  Governor, State of North Carolina, and Chairman, James B. Hunt, 
  Jr. Institute for Educational Leadership and Policy, Chapel 
  Hill, NC.......................................................     7
    Prepared statements of:
        Mr. Johnson..............................................     8
        Mr. Bement...............................................    13
        Governor Hunt............................................    18
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, prepared statement..............................    32
Rudin, Thomas W., vice president, Government relations, the 
  College Board, New York, NY; Peter O'Donnell, Jr., president, 
  O'Donnell Foundation of Dallas, Dallas, TX; and Joshua Tagore, 
  student, University High School for Science and Engineering, 
  Hartford, CT...................................................    34
    Prepared statements of:
        Mr. Caperton presented by Mr. Rudin......................    36
        Mr. O'Donnell............................................    41
        Mr. Tagore...............................................    54

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Response to Questions of Senator Enzi by Peter O'Donnell, Jr.    68
    Response to Questions of Senator Jeffords by Peter O'Donnell, 
      Jr.........................................................    69
    Response to Questions of Senators Enzi and Jeffords by Arden 
      Bement, Jr.................................................    70
    Response to Question of Senator Enzi by Assistant Secretary 
      Johnson....................................................    74
    Response to Questions of Senators Enzi and Jeffords by Tom 
      Rudin......................................................    75

                                 (iii)

  






   PROTECTING AMERICA'S COMPETITIVE EDGE ACT (S. 2198): HELPING K-12 
                 STUDENTS LEARN MATH AND SCIENCE BETTER

                              ----------                              


                        WEDNESDAY, MARCH 1, 2006

                                       U.S. Senate,
Subcommittee on Education and Early Childhood Development, 
        Committee on Health, Education, Labor and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Lamar 
Alexander (Chairman of the Subcommittee) presiding.
    Present: Senators Alexander, Burr, Ensign, Dodd, Bingaman, 
Kennedy, and Jeffords.

                 Opening Statement of Senator Alexander

    Senator Alexander. Good morning. Excuse me for being a 
little late. The Senate, in its usual burst of efficiency, 
delayed the vote, and we were trying to figure out how to have 
the hearing with the least inconvenience to the witnesses. 
Today's hearing will come to order. This is the Subcommittee on 
Education and Early Childhood Development. We do have a vote 
that has started, but rather than delay things, we will go 
ahead and begin the hearing, and then when Senator Bingaman or 
Senator Isakson or other Senators come, I will turn the Chair 
over to them, I will run over and vote, come back, and then we 
will go ahead.
    We will go in our usual order with the administration 
witnesses on the first panel, and then the other witnesses. If 
it is all right with the witnesses, I am going to invite 
Governor Hunt to come up right after Mr. Bement and Dr. Johnson 
because he needs to leave by 11 o'clock, and that will give him 
a chance to testify. We may have a question or two for him, and 
then he can be excused, and then we will go back to the 
administration witnesses. So that we will follow procedure.
    This is the second in a series of two hearings by this 
subcommittee on the education provisions of the act we call 
``Protecting America's Competitive Edge.'' Another way of 
talking about it would be to say that this is the act that 
incorporates the 20 recommendations of the National Academy of 
Sciences, the National Academy of Engineering, and the 
Institute of Medicine in answer to the question from a number 
of Senators: How do we keep our edge in science and technology 
over the next 10 years in a more competitive world?
    I want to acknowledge and thank the administration for its 
cooperation in the development of this legislation. We had 
extensive homework sessions, which Dr. Bement and others 
attended. The Academy Committee, led by Norm Augustine, 
basically gave up their summers and reviewed hundreds of 
various proposals before coming up with their 20 
recommendations. And I think because of that extensive amount 
of work and because of the interest among Senators on both 
sides of the aisle for a number of years in this general 
subject, we have developed a consensus document. It may not be 
the whole answer. It may be amended as it goes. We have 67 
cosponsors of the PACE Act, the Protecting America's 
Competitive Edge Act, which is the 20 recommendations, some 
with subparts, from the Academies. And it is beginning to make 
its way through the Senate.
    Senator Domenici, on the Energy Committee and Senator 
Bingaman, who are the principal sponsors of the whole act, held 
hearings on the eight provisions that are in the Energy 
Committee. Yesterday we held a hearing in this subcommittee on 
five more of the provisions which have to do with kindergarten 
through the 12th grade teachers.
    Today, we are focusing on students in kindergarten through 
the 12th grade, specifically four provisions that would, first, 
increase the number of students who attend advanced placement 
courses; second, provide grants to States to establish high 
schools that specialize in math and science; third, provide 
opportunities for middle and high school students to have 
internships at national laboratories or at universities; and, 
fourth, create a clearinghouse of math and science materials.
    Not only do we have a consensus document and 67 cosponsors, 
we have a President who put this item high on the agenda, as 
only a President can, in his State of the Union address and 
some significant dollars in the budget that we are considering.
    The goal of those of us who sponsored this legislation is 
to pass all 20 of the recommendations with improvements, as 
they are suggested by other members of the Senate, and to fully 
fund it, which comes to an $8 or $9 billion figure in the first 
year, with about half of that making permanent the research and 
development tax credit.
    So that is a tall order, but if the question is what do we 
need to do to keep our advantage in science and technology in 
order to keep our jobs from going to China, continue to fight 
the war on terror, to have energy independence, and to innovate 
our way out of the health care crisis, then it seems to me that 
we ought to try to do all of the recommendations, not just half 
of them.
    At this point we will include in the record the statement 
of Senator Enzi, Chairman of the full committee. I would also 
like to include the statement of Senator Ensign.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    Thank you, Mr. Chairman, for holding this second in a 
series of hearings on competitiveness. It is good to have 
another distinguished panel of experts with us today to help 
inform our work on this important issue.
    Yesterday's hearing gave us all an opportunity to focus on 
the role our Nation's teachers will play in preparing our 
children to meet the challenges they will face when the time 
comes for them to take their place in the workforce of 
tomorrow. We heard from a number of experts who have had a 
great deal of success in the effort to provide the training our 
math and science teachers will need if they are to keep their 
classroom skills current and get their students excited about 
learning. That will be a key part of the work that must be done 
to ensure our students are the best in the world and they 
receive the training in math and science we will need as a 
Nation if we are to continue to be a leader in the world's 
marketplace.
    Today's hearing will focus on the same question, this time 
from the perspective of our Nation's students and their 
classroom environment. We will have a chance today to look at 
ways we can encourage and promote the natural curiosity our 
children have about fields like math, science, engineering, 
health, technology and the foreign languages we must master to 
ensure our ability to communicate, correspond and understand 
the advances that are being made in other countries in these 
important subjects.
    Over the past 10 years, this country has paid significant 
attention to math and science education, and some reports 
suggest we're on the right track. According to the 2003 Trends 
in International Math and Science Study (TIMSS), 8th graders in 
this country ranked 15th in math achievement among the 45 
participating Nations. In science education, American 8th 
graders ranked 9th. In both instances, those rankings were an 
improvement from the 1995 study.
    We still have a lot of ground to cover. The TIMSS study 
points out that for the period from 1995 to 2003, 4th graders 
in this country did not improve their standing in math 
achievement, and 4th grade science achievement actually 
declined relative to other Nations. Other studies, such as the 
PISA 2003 study, rank the United States even lower in math and 
science skills, behind 25 other Nations.
    Most studies, however, identify the same challenge for our 
country. The Nations leading in math and science achievement 
are quickly becoming our biggest competitors in the 
international economy. Korea, Hong Kong and Japan continue to 
outperform the United States on math and science achievement in 
most studies, as do many Nations in Europe.
    Congress took important steps to help improve our math and 
science education achievement when we passed the bipartisan No 
Child Left Behind Act. Achievement has improved, and the 
accountability embraced by that legislation is paying off. 
Teachers, principals and school support staff are making an 
effort to reduce the achievement gap, and it's working. In 
Wyoming, for example, reading and writing achievement has 
improved statewide and the State high-school completion rate is 
81.5 percent, among the highest in the country.
    We are at a point where policymakers need to look at the 
next step, and figure out how to support an education system 
that will improve math and science outcomes into the future. 
Our ability to develop strong foundations now will pay off for 
years to come as we face stronger competition globally.
    Last month, we heard from Secretary of Education Margaret 
Spellings on the role of education in meeting the challenges of 
global competitiveness. This committee also hosted a roundtable 
discussion on high school success, where participants talked to 
us about building and filling the pipeline so more high school 
students graduate on time prepared for postsecondary education 
and the workplace, and not in need of further remediation.
    One such idea is the expansion of Advanced Placement and 
International Baccalaureate programs. In Wyoming, we've seen an 
almost 17 percent increase in the number of students enrolled 
in AP courses, and a 16.3 percent increase in the number of 
students taking AP tests.
    We look forward to hearing today from experts who will 
share a variety of perspectives with us. Your insights will be 
an invaluable addition to our understanding of how to improve 
our students' abilities and their achievements in math and 
science. I hope you realize how much we appreciate and value 
your attendance and participation.
    I look forward to continuing to work on these issues with 
my colleagues on this committee, so that we might find new and 
better ways to incorporate the concepts we will learn during 
these hearings into a legislative strategy that will ensure our 
long-term competitiveness in the world marketplace for 
generations to come.
    [The prepared statement of Senator Ensign follows:]

                  Prepared Statement of Senator Ensign

    I would like to take this opportunity to thank Senator 
Alexander for holding a hearing on math and science education. 
The past 2 years have seen an unprecedented amount of activity 
and interest in math and science education. First was the 
unveiling of the National Innovation Initiative by the Council 
on Competitiveness. Following that, the National Academies of 
Science released a report titled ``Rising Above the Gathering 
Storm.'' Each of these reports lists specific recommendations 
to Congress that are designed to increase the competitiveness 
and innovativeness of the United States.
    These reports have elicited numerous legislative proposals. 
Senator Lieberman and I introduced the National Innovation Act 
in response to the National Innovation Initiative. Senators 
Alexander, Bingaman, and others introduced three different 
bills that make up the Protecting America's Competitive Edge, 
or PACE, Acts. These proposals offer a myriad of solutions to 
help better prepare our Nation's students in math and science 
education.
    This country has a long-standing history of being one of 
the most inventive and innovative countries in the world. We 
have also fostered competition and attracted scientists, 
engineers and mathematicians from across the world. However, I 
feel that we are losing that competitive edge.
    The purpose of today's hearing is to review math and 
science education and determine what can be done to truly 
protect our competitive edge. It is my belief that we must 
first take stock of what we have. The Government Accountability 
Office took the first big step with their report on Federal 
science, technology, engineering, and mathematics (STEM) 
programs. This report found that the Federal Government 
supports over 207 STEM-related programs. Unfortunately, this 
report did not include programs funded within the Department of 
Defense. I hope to work with Secretary Rumsfeld to get a good 
account of the programs that DOD is currently supporting.
    It is absolutely vital that not only each of us work 
together, but that each Federal Agency work together as well. I 
believe that Dr. Bement said it right in his testimony: ``even 
the most innovative programs, however, will not result in 
improving STEM achievement unless we find ways to scale them up 
and remove impediments to their broad adoption.'' We need to 
focus our efforts and work with each of the agencies that 
support STEM programs to see how they can hold each other 
accountable and produce the most effective results.
    In reviewing the PACE legislation that has been introduced 
by Senators Alexander and Bingaman I can say that I am 
supportive of many of the concepts that are embedded within the 
legislation. It is vital that we get better qualified math and 
science teachers in the classroom, we must work to get students 
excited about taking math and science courses, we must work to 
expand Advanced Placement (AP) programs, and we must find a way 
to get research-based, effective curriculum into the hands of 
teachers. However, I disagree with the manner in which the PACE 
bills realizes these concepts.
    First, I believe that math and science related programs 
need to be housed and supported in agencies that have proven 
track records in providing effective math and science education 
programs, both for teachers and students. The Department of 
Education and the National Science Foundation have strong track 
records and are eager to be held accountable for the programs 
they have. It is unnecessary and unwise to spread these 
programs across agencies that do not have the expertise or 
know-how to get into a classroom and really help our teachers 
and students. I would rather have agencies like the Department 
of Energy do what they know best, and that is to develop and 
implement effective energy policy for this country.
    Second, it is vital that we take stock and learn more about 
each of the programs that the Federal Government currently 
funds before moving forward with comprehensive legislation. It 
would be unfair to us and to taxpayers if we create programs 
that are only duplicating efforts found elsewhere. There are 
numerous Federal programs that have proven track records and 
are similar in purpose to those proposed by the PACE 
legislation. A thorough review of these programs needs to be 
completed to determine where we need to go next. I am hopeful 
that this review will also uncover programs that have outgrown 
their original purpose and no longer serve a national need. If 
such programs are found, then they need to be terminated and 
their funding reallocated to other STEM-related programs.
    Third, it will be necessary to create some new Federal 
programs. It is important that these programs be crafted to 
compliment ongoing action in States, local school districts, 
and the private sector. It is clear from the testimony provided 
to this subcommittee that States, universities, school 
districts, and the private sector have created programs to meet 
the needs of students and teachers in the STEM fields. Congress 
must ensure that we do not hamper these efforts, but enhance 
them. It may be necessary to provide seed money, especially for 
some of the new teacher training programs that are proposed in 
PACE. But, I fail to see a compelling policy reason for the 
Federal Government to support these programs indefinitely. As 
Dr. Rankin said in yesterday's hearing, universities and 
departments need to find ways to include these new programs in 
their budget to support ongoing activities.
    Finally, it is absolutely imperative that we include 
metrics for current programs and any new program we create. 
Effective metrics are the only way for Congress and the public 
to know how these programs are performing and if they are 
fulfilling their purpose. Programs must be required to report 
exactly what they are doing, how well they are performing, and 
long-term effects of their program.
    Mr. Chairman, as this committee moves forward in its 
efforts to increase competitiveness, I hope that it will 
endorse the best parts of all the bills that have been 
introduced. Senator Lieberman and I introduced provisions in 
our bill that will promote and accelerate research and 
development on innovative projects. Also included in this 
legislation is a renewed commitment to better fund basic 
research at the National Science Foundation (NSF). Provisions 
are included that will increase regional economic development 
activity and advanced manufacturing systems. The legislation 
also includes a provision that would permanently extend the 
research tax credit for companies engaging in long-term 
research projects.
    We took a narrow approach when it came to education issues 
as well. We increased the number of graduate fellowships and 
traineeships at NSF. We also authorized funds to expand 
Professional Science Masters Degree programs at universities 
across the country. The Tech Talent expansion program is 
bolstered in this legislation, as is innovation-based 
experiential learning. Also enhanced is the Department of 
Defense's Science Mathematics and Research for Transformation 
(SMART) scholarship program.
    The National Innovation Act took a very narrow approach. We 
were careful to look for effective programs that are already 
funded by the Federal Government and found ways to expand them. 
The legislation also looked outside of the structure of the 
Federal Government to assist the private sector in engaging in 
important research, especially high-risk, high-payoff research.
    Again, I thank Senator Alexander for his leadership on 
these important issues and look forward to working with him in 
the future. I believe that in working together we can find 
solutions that will work best for our country and will truly 
keep the United States competitive.
    Senator Alexander. We have a distinguished panel of 
witnesses to testify. Assistant Secretary Henry Johnson from 
the Department of Education is one of the two administration 
witnesses. I hope in addition to commenting on the PACE Act, he 
will also compare it to the provisions in the President's 
American Competitiveness Initiative.
    Dr. Arden Bement, Director of the National Science 
Foundation, is here. He has broad experience in a great many of 
the areas we are talking about. Dr. Bement, one of the things 
we especially want to consider is whether we are duplicating 
programs: whether you are already doing some things, and other 
parts of the Federal Government are doing some things. These 
are very good and well-thought-out recommendations, and we will 
be interested, especially in your comments about whether we 
ought to build on or amend some things we are already doing, or 
whether there needs to be some new initiatives.
    I will introduce the second panel when we get to it, but 
for now, I think the best thing to do is to begin first with 
Dr. Johnson, then go to Dr. Bement. I have a little machine 
here that goes for 5 minutes. I would appreciate your trying to 
summarize your comments within 5 minutes, which will give the 
Senators time to ask you questions.

  STATEMENTS OF HENRY JOHNSON, ASSISTANT SECRETARY, OFFICE OF 
    ELEMENTARY AND SECONDARY EDUCATION, U.S. DEPARTMENT OF 
  EDUCATION, WASHINGTON, DC.; ARDEN L. BEMENT, JR., DIRECTOR, 
  NATIONAL SCIENCE FOUNDATION, WASHINGTON, DC.; AND JAMES B. 
HUNT, FORMER GOVERNOR OF NORTH CAROLINA, AND CHAIRMAN, JAMES B. 
  HUNT, JR. INSTITUTE FOR EDUCATIONAL LEADERSHIP AND POLICY, 
                        CHAPEL HILL, NC

    Mr. Johnson. Thank you, Chairman Alexander. Is this on? Can 
you hear me?
    You have already heard from the Department earlier. 
Secretary Spellings, I think, addressed you earlier, and Tom 
Luce addressed you yesterday. I want to focus on the impact of 
the President's American Competitiveness Initiative on K-12 
students.
    Senator Alexander. Dr. Johnson, you reminded me of 
something I meant to say that is in my prepared remarks. You 
are exactly correct that this is not just a concern of our 
subcommittee. The entire Committee on Health, Education, Labor, 
and Pensions is interested in competitiveness. It is the number 
one agenda for our Chairman, Mike Enzi, and we have had two 
very good hearings prior to these two hearings chaired by 
Senator Enzi, and at the first one Secretary Spellings came. At 
the second one, we heard from a number of educators and others 
from around the country. So thank you for mentioning that.
    Mr. Johnson. And, again, thanks to you and members of the 
subcommittee. Improving mathematics and science education K-12 
and beyond is critical to this country. For K-12 students, this 
improvement is part of a high-quality education. It opens the 
door to postsecondary education and provides a workforce with 
the skills necessary for success in the 21st century economy. 
And, again, we appreciate the efforts of this subcommittee.
    There has been solid progress in mathematics education in 
this country in the early grades. One example: 4th grade 
performance of students on NAEP from 1990 to 2005 shows that 
the percent of students at or above basic rose from 50 percent 
to 80 percent. The percent of students at or above proficiency 
almost tripled, from 13 to 36 percent. For 8th grade students, 
the improvement was not as impressive, but still in the right 
direction.
    For the same time period, the percent of students at or 
above basic climbed from 52 percent to 69 percent, and the 
percent of students at or above proficient doubled from 15 to 
30. Good improvement, but not where we need to be.
    Even with this improvement at the elementary level, still 
too many students hit the wall, so to speak, once they get to 
middle and high school, and I am going to make this brief, 
Senator.
    Looking at NAEP long-term trend data, using the skills 
``moderately complex mathematics procedures and reasoning,'' 
performance was unchanged from 1999 to 2004. And PISA ranked 
student performance in this country in math 24th out of 29 
member States. We are, in fact, sending better prepared 
students to the secondary schools, but we are not seeing the 
return at the secondary level. And we have got some idea where 
the problem starts.
    In one example, 82 percent of middle school and high school 
students tested below proficient in Algebra I on a California 
standardized test. And using, again, a longitudinal study from 
the U.S. Department of Education, it shows that algebra is the 
``gateway'' course for higher mathematics and postsecondary.
    Because of these data, the President reached the conclusion 
that something needs to be done, the same conclusion this 
committee reached. The time to act is now.
    The administration drafted a 2007 budget proposal to 
improve K-12 mathematics and science. In this proposal are 
several complementary activities, and I will briefly mention 
them: improving elementary school math to ensure all students 
are ready for algebra in middle school; providing extra support 
for middle school students who are below grade level in 
mathematics; increasing the availability of challenging 
college-level mathematics and science courses in high school; 
and support for a wide range of locally determined high school 
reforms.
    The Secretary has initiated a National Mathematics Panel, 
and very soon that panel will start its deliberations, and we 
expect and hope that the panel will identify essential 
mathematic concepts. Essentially, we are looking to see if 
there is an analog in mathematics for what we found in the 
research regarding reading, the components of a comprehensive 
reading program.
    We want the panel to help us identify effective 
instructional methods, and the President is proposing $10 
million in the 2007 budget to begin implementing the 
recommendations of the panel.
    I see my time will be up pretty quickly. I will be happy to 
go into more detail about the components of the American 
Competitiveness Initiative after the other speakers have a 
chance to speak. Thank you.
    [The prepared statement of Mr. Johnson follows:]
                  Prepared Statement of Henry Johnson
    Good morning, Mr. Chairman and members of the subcommittee. Thank 
you for this opportunity to testify about President Bush's efforts to 
improve math and science education through his American Competitiveness 
Initiative. Teaching and learning essential concepts of mathematics and 
the sciences are a critical part of a high-quality education. They help 
open the door to postsecondary education--especially for our poor and 
minority students--and help to ensure that our future workforce has the 
skills needed to benefit from the increased competitiveness of the 
global economy of the 21st century. For all of these reasons, I 
appreciate the efforts of this subcommittee to bring attention to the 
need to improve instruction in math and science in our elementary and 
secondary schools.
    I know you have already heard from Secretary Spellings and 
Assistant Secretary Tom Luce, so I will do my best to take a little 
different perspective and focus on our K-12 students, where they are 
now in terms of math and science achievement, where we need to go, and 
how we can get there.
                   solid progress in the early grades
    I want to begin by pointing out that in some ways, this new 
emphasis on math and science education is surprising. After all, we 
have solid evidence that the math achievement of younger American 
students has been improving steadily for the past 15 years. For 
example, the percentage of 4th graders performing at or above the Basic 
level on the National Assessment of Educational Progress (NAEP) rose 
from 50 percent to 80 percent from 1990 to 2005. Over the same period, 
the percentage of 4th graders performing at or above the Proficient 
level almost tripled, from 13 percent to 36 percent.
    The story is similar, though not quite as impressive, for 8th grade 
scores on the NAEP. The percentage of 8th graders scoring at or above 
the Basic level climbed from 52 percent in 1990 to 69 percent in 2005, 
while the percentage of 8th graders at or above the Proficient level 
doubled from 15 percent to 30 percent.
    These numbers sound pretty good, and we have not been shy about 
highlighting this progress as evidence that the standards-based 
accountability required by the No Child Left Behind Act is working to 
improve our Nation's educational performance.
      but too many students hit the wall in middle and high school
    Unfortunately, we also have strong evidence that we are not getting 
the job done in the higher grades, in late middle school and 
particularly at the high school level. I know that many of you are 
familiar with this data, so I will mention just two examples. First, 
the Long-Term Trend NAEP results show that the performance of 17-year-
olds on ``moderately complex mathematical procedures and reasoning'' 
did not change from 1999 to 2004. Second, this underperformance has 
widened the gap in mathematics achievement between U.S. students and 
those of other countries. According to the 2003 Program for 
International Student Assessment, American students ranked 24th out of 
29 members of the Organization for Economic Cooperation and Development 
in mathematics literacy and problem solving.
    Data suggests that low achievement in high school math starts when 
students do not obtain the skills necessary to take and pass algebra. 
In 2004, for example, 82 percent of middle- and high-school students in 
California tested below the proficient level in Algebra I on the 
California Standarized Test. These results are particularly alarming in 
light of longitudinal studies conducted by the Department showing that 
Algebra is a critical ``gateway'' course on the path to postsecondary 
education.
                the american competitiveness initiative
    President Bush looked at this data and reached the same conclusion 
as this subcommittee: the time for action is now. This is why his 2007 
budget proposed an American Competitiveness Initiative (ACI) that 
includes several proposals designed to significantly improve 
mathematics and science education in grades K-12.
    The ACI would fund several complementary activities intended to (1) 
strengthen math instruction beginning in the earliest grades to ensure 
that all students are ready for Algebra in middle school, (2) provide 
extra support to middle school students who are below grade level in 
math achievement, and (3) increase the availability of challenging, 
college-level math and science courses to high school students through 
Advanced Placement and International Baccalaureate programs. In 
addition, the ACI would support a wide range of locally determined high 
school reforms aimed at ensuring that every student not only graduates 
from high school, but graduates with the skills necessary to succeed in 
either college or the workforce.
    To kick off this effort, Secretary Spellings will move quickly this 
year to create a National Mathematics Panel, which will work to 
identify essential mathematics content and effective instructional 
methods. This Panel, modeled after the success of the National Reading 
Panel in identifying the research-based reading instruction that 
informed President Bush's Reading First Initiative, will lay the 
groundwork for establishing a solid research base of math instruction 
to guide reforms at the Federal, State, and local levels. The 
Department is proposing to spend $10 million in fiscal year 2007 to 
begin implementing the Panel's recommendations for improving math 
instruction in our K-12 classrooms.
    The Panel's recommendations also would guide implementation of the 
President's Math Now for Elementary School Students Initiative, which 
would provide $125 million in competitive grants to partnerships 
promoting instructional principles and promising practices aimed at 
ensuring that all students in grades K-6 master the algebraic concepts 
that they will need to take and pass Algebra in middle school.
    Grantees would target their efforts to elementary or middle schools 
with significant numbers of students who are at risk of not meeting 
adequate yearly progress requirements in mathematics under the title 
program. Funds could be used for professional development in 
mathematics instruction, the adoption of research-based instruction and 
promising practices, and enhanced assessments designed to pinpoint 
where students need help. In particular, these activities would provide 
significant resources to ensure that teachers with sufficient content 
knowledge teach students who need the most help.
    We also are asking for $125 million for a companion proposal, Math 
Now for Middle School Students, designed to throw a lifeline to middle 
school students who are below grade level in mathematics. This program 
would award competitive grants to partnerships serving one or more 
middle schools for activities such as diagnosing the deficiencies of 
students who tested below the proficient level on State math 
assessments, implementing research-based interventions involving 
intensive and systematic instruction, continuous progress monitoring, 
and professional development.
    In addition to Math Now, the ACI includes new incentives to 
encourage qualified math and science teachers to work in high-poverty 
schools. The proposed Adjunct Teacher Corps would use $25 million to 
promote arrangements under which experienced professionals with 
subject-matter expertise, particularly in math and science, would teach 
in secondary schools. Such arrangements could include part-time 
instruction, teaching while on leave from their regular jobs, or 
providing instruction online.
                      expanding advanced placement
    Another highlight of the American Competitiveness Initiative that I 
want to briefly mention is a $90 million expansion of the Department's 
Advanced Placement program. This proposal, which is consistent with a 
key provision in the PACE-Education Act, would train up to 70,000 
teachers over the next 5 years to teach math, science, and critical 
foreign languages in AP and International Baccalaureate programs.
    We believe that the Advanced Placement program offers a proven, 
scalable approach to raising expectations and increasing rigor in 
America's high schools, particularly those with high concentrations of 
low-income students that typically do not offer such curricula.
                           high school reform
    Another piece of the 2007 Education Agenda, consistent with the 
goals of ACI, is the President's High School Reform proposal, which 
would provide $1.5 billion to support a wide range of locally 
determined interventions aimed at ensuring that a high school diploma 
becomes a ticket to success for all graduates, whether they enter the 
workforce or go on to higher education. This proposal also would 
require States to assess students in reading or language arts and math, 
at two additional grades in high school. NCLB currently requires 
assessments in these subjects for just one high school grade. These 
additional assessments would help increase accountability at the high 
school level and, in particular, would help teachers and principals 
target interventions to those students at greatest risk of not meeting 
challenging State academic standards and not completing high school. 
This is critical for reducing the roughly 1 million high school 
students who drop out each year, at great cost to our economy and 
society.
                    aci builds on existing programs
    The President's American Competitiveness Initiative proposes 
innovative, cost-effective ways to improve math and science instruction 
in America's public schools that would build on earlier efforts in this 
area by Congress and the administration. For example, for fiscal year 
2006, Congress provided first-time funding of $99 million for the 
Teacher Incentive Fund, a program proposed by President Bush to provide 
financial incentives to help improve achievement in our highest-poverty 
schools, including achievement in math and science. And Congress 
recently made permanent the loan forgiveness provisions of the Higher 
Education Act, which help bring more individuals with math and science 
backgrounds into the teaching profession by offering up to $17,500 in 
loan forgiveness for highly qualified math and science teachers serving 
low-income communities.
    The Department also administers the Mathematics and Science 
Partnerships program, which provides State formula grants to help 
States and localities improve student academic achievement in 
mathematics and science. The program promotes strong teaching skills 
for elementary and secondary school teachers, including integrating 
teaching methods based on scientifically based research and technology 
into the curriculum.
    In a broader sense, as you heard yesterday from Assistant Secretary 
Luce, the entire No Child Left Behind enterprise, with its emphasis on 
assessments, accountability for results, school improvement under title 
I and ensuring that all teachers are highly qualified in the subjects 
they teach, provides a strong push to State and local efforts to 
improve achievement in the core curricula, including math and science.
                               conclusion
    In conclusion, I believe the President's American Competitiveness 
Initiative, along with the PACE-Education Act, sends an important 
message to the American people, and especially to parents. No Child 
Left Behind reforms are taking hold and student achievement is rising, 
but we need to raise the bar again if we are to prepare our children 
for the jobs of the 21st century and benefit from increased global 
competitiveness. The ACI will help us reach that goal, and I urge the 
members of this subcommittee to give the President's proposal careful 
consideration as you move forward in your efforts to improve math and 
science education in grades K-12.
    Thank you, and I will be happy to answer any questions.

    Senator Alexander. Senator Bingaman.
    Senator Bingaman. Mr. Bement, why don't you go right ahead. 
I think people will be coming and going while we do this vote 
over on the Senate floor, but if you would go ahead, that would 
be helpful.
    Mr. Bement. I would be delighted. Thank you. I appreciate 
the opportunity to testify before you on a topic of great 
importance to me personally and----
    Senator Bingaman. Is your microphone on?
    Mr. Bement. I can speak louder. It is on. And the topic is 
the State of mathematics, science, and technology education in 
our elementary and secondary schools.
    As you are well aware, the National Science Foundation has 
been selected to play a major role in the President's American 
Competitiveness Initiative. One of the cornerstones of our 
involvement is preparing the Nation's scientific, 
technological, engineering, and mathematics workforce for the 
21st century while improving the quality of math and science 
education in America's schools.
    In line with the administration's focus on this vital 
national priority and in partnership with the Department of 
Education, NSF will invest $104 million in a new effort named 
Discovery Research K-12 that aims to strengthen K-12 science, 
technology, engineering, and mathematics education. We will 
refocus our efforts on a vital cluster of research in three 
well-defined grand challenges: first, developing effective 
science and mathematics assessments for K-12; second, improving 
science teaching and learning in the elementary grades; and, 
third, introducing cutting-edge discoveries into K-12 
classrooms.
    We will also increase funding for the Graduate Teaching 
Fellowships in K-12 education--better known as GK-12--by nearly 
10 percent to $56 million, supporting an estimated 1,000 
graduate fellows. By pairing graduate students and K-12 
teachers in the classroom, this program has been particularly 
successful in encouraging effective partnerships between 
institutions of higher education and local school districts. 
This is a win-win program.
    In our budget request, NSF proposes a reorganization of the 
Education and Human Resources Directorate so that we can more 
effectively focus NSF's contributions to improving STEM 
education--in other words, getting more bang for the buck--to 
include greater emphasis on effective evaluation of the 
programs we fund. The American Competitiveness Initiative 
provides a framework for research agencies that support STEM 
education programs to work more collaboratively, with a greater 
attention to evaluating the efficacy of these programs. And I 
am proud to be a member of Secretary Spellings Competitiveness 
Council.
    Last week, the National Science Board released its biennial 
report, ``Science and Engineering Indicators.'' It provides a 
summary of the scope and quality of various facets of that 
enterprise and provides a wealth of information for 
policymakers.
    One of the striking trends in the overview chapter is 
documentation of the pace of the increasing 
internationalization of science and technology. Graph after 
graph show the worldwide growth of investments in research and 
development, the increase in international scientific 
publications, and the expanding production of science and 
engineering degrees in Europe and Asia.
    On the plus side, the U.S. share of the world's high-
technology manufacturing grew from 25 percent in 1990 to nearly 
40 percent in 2003. But a larger question is whether we are 
training new entrants into the high-tech workforce with the 
skills that are needed for these jobs.
    ``Science and Engineering Indicators'' devotes an entire 
chapter to elementary and secondary education in mathematics 
and science. While there is some good news on this front, 
clearly there is also room for improvement.
    For example, between 17 percent and 28 percent of public 
high school math and science teachers lack full certification 
in their teaching field. College graduates who become teachers 
tend to take fewer rigorous academic courses in high school, 
scored lower on college entrance exams, and graduated from less 
selective colleges.
    A number of programs at NSF are aimed at improving various 
aspects of K-12 education. Within our Division of Elementary, 
Secondary and Informal Education, we have programs that range 
from new curricula, new pedagogical techniques, better ways to 
train K-12 teachers, educational activities that take place out 
of the classroom, and the application of new technologies to 
education.
    In my written testimony, I have commented on several 
proposals in the PACE bill that would establish programs at 
NSF. A number of other programs that would be established in 
the PACE legislation, although not as NSF, are reflective of 
the types of activities NSF has supported over the years.
    In light of the American competitiveness strategy to 
evaluate ongoing Federal formal and informal education 
programs, I feel that implementing any additional program that 
overlap those at NSF should await a review of our existing 
programs. This will allow us to determine where the greatest 
promise is for making a national impact on education.
    In conclusion, I look forward to working with the committee 
to help identify and better develop the pipeline for future 
leaders in math and science, and I would be happy to answer 
your questions. Thank you.
    [The prepared statement of Mr. Bement follows:]
               Prepared Statement of Arden L. Bement, Jr.
    Chairman Alexander, Ranking Member Dodd, and members of the 
committee, I appreciate the opportunity to testify before you on a 
topic of great importance to me personally and to the Nation's future--
the state of mathematics, science, and technology education in our 
elementary and secondary schools.
    As you are well aware, the National Science Foundation has been 
selected to play a major role in the President's American 
Competitiveness Initiative. One of the cornerstones of our involvement 
is preparing the Nation's scientific, technological, engineering, and 
mathematics workforce for the 21st Century while improving the quality 
of math and science education in America's schools.
    NSF's investments in research and education--in discovery, 
learning, and innovation--have a longstanding and proven track record 
of boosting the Nation's economic vitality and competitive strength. 
Today's youngsters face a world of increasing global competition. We 
depend on the excellence of U.S. schools and universities to provide 
them with the wherewithal to meet this challenge and to make their own 
contributions to America's future. We need to build strong research 
foundations and foster innovation in K-12 science and mathematics 
education.
    In line with the Administration's focus on this vital national 
priority, and in partnership with the Department of Education, NSF will 
invest $104 million in a new effort named Discovery Research K-12 that 
aims to strengthen K-12 science, technology, engineering and 
mathematics education. We will refocus our efforts on a vital cluster 
of research in three well-defined grand challenges:

    <bullet> Developing effective science and mathematics assessments 
for K-12;
    <bullet> Improving science teaching and learning in the elementary 
grades;
    <bullet> Introducing cutting-edge discoveries into K-12 classrooms.

    We will also increase funding for the Graduate Teaching Fellowships 
in K-12 Education--better known as GK-12--by nearly 10 percent to $56 
million, supporting an estimated 1,000 graduate fellows. By pairing 
graduate students and K-12 teachers in the classroom, this program has 
been particularly successful in encouraging effective partnerships 
between institutions of higher education and local school districts.
    In our budget request NSF proposes a reorganization of the 
Education and Human Resources Directorate so that we can more 
effectively focus NSF's contributions to improving science, technology, 
engineering and mathematics (STEM) education to include greater 
emphasis on effective evaluation of the programs we fund. The American 
Competitiveness Initiative provides a framework for research agencies 
that support STEM education programs to work more collaboratively and 
with a greater attention to evaluating the efficacy of these programs.
    Last week the National Science Board released its biennial report, 
Science and Engineering Indicators. This document is a compilation of 
up-to-date quantitative data on the U.S. scientific and engineering 
research and education enterprise. It provides a summary of the scope 
and quality of various facets of that enterprise and provides a wealth 
of information for policymakers.
    One of the striking trends in the overview chapter is documentation 
of the pace of the increasing internationalization of science and 
technology. Graph after graph show the worldwide growth of investments 
in research and development, the increase in international scientific 
publications, and the expanding production of science and engineering 
degrees in Europe and Asia,
    On the plus side, the U.S. share of the world's high technology 
manufacturing (aerospace, pharmaceuticals, office and computing 
equipment, communications equipment, and scientific instruments) grew 
from 25 percent in 1990 to nearly 40 percent in 2003. But a larger 
question is whether we are training new entrants into the high tech 
workforce with the skills they will need for these jobs.
    The Science and Engineering Indicators devotes an entire chapter to 
elementary and secondary education in mathematics and science. While 
there is clearly some good news on this front, we have room for 
improvement.
    For example, between 17 percent and 28 percent of public high 
school math and science teachers lack full certification in their 
teaching field. College graduates who become teachers tend to take 
fewer rigorous academic courses in high school, scored lower on college 
entrance exams, and graduated from less selective colleges.
    A number of programs at NSF are aimed at improving various aspects 
of K-12 education. Within our Division of Elementary, Secondary and 
Informal Education we have programs that support a range of activities, 
including the development of new curricula, new pedagogical techniques, 
better ways to train K-12 teachers, educational activities that take 
place out of the classroom, and the application of new technologies to 
education.
    In addition, we have numerous programs within our Research and 
Related Activities Directorates targeted at improving K-12 education. 
Examples of these include:

    <bullet> The aforementioned GK-12 fellowship program which provides 
support for graduate students to provide science and engineering 
expertise in elementary and secondary schools;
    <bullet> Research Experiences for Teachers, which provide hands-on 
research opportunities for K-12 teachers working with NSF Grantees;
    <bullet> Science of Learning Centers;
    <bullet> Geoscience Teacher Training designed to improve the 
quality of geoscience instruction at middle and high school levels;
    <bullet> Centers for Ocean Science Education Excellence (COSEE) to 
promote ocean education as an exciting vehicle to interest students in 
science and enhance science education.

    Even the most innovative programs, however, will not result in 
improving STEM achievement unless we find ways to scale them up and 
remove impediments to their broad adoption. That is where NSF's 
coordination with the Department of Education is important. I have met 
personally with Secretary Margaret Spellings and I believe we have a 
shared sense of mission to identify and implement high quality programs 
that will result in improvements in student performance. When three 
quarters of American colleges find it necessary to offer courses in 
remedial mathematics and 22 percent of entering freshman take these 
courses, it is clear that our high schools are not doing the job they 
should be doing.
    Let me turn for a moment to address several of the provisions in S. 
2198 that are directed at NSF, including section 132, NSF scholarships 
for mathematics and science teachers. This section would authorize NSF 
to award merit-based scholarships of up to $20,000 per year to students 
majoring in mathematics, science or engineering who also pursue teacher 
certification.
    This program very closely parallels the existing Robert Noyce 
Scholarship program at NSF, except that the Noyce program makes awards 
to institutions rather than individuals. The grantee institutions are 
then responsible for administering the scholarship program. The benefit 
of this approach is that it places the management of the scholarship 
program--selecting recipients, setting course requirements, monitoring 
progress, counseling students, assisting with placement, ensuring 
compliance with post graduation requirements, and so forth--in the 
hands of the college or university.
    When we established the Noyce Scholarship program we felt that it 
would be inefficient, if not impossible, to duplicate that management 
structure at NSF. Estimates were that it would cost up to one-third of 
the scholarship funding for administration purposes, should we choose 
to run the program at NSF. By comparison, the Noyce Scholarship program 
is administered by the recipient institutions for a 10 percent 
overhead. For these reasons we feel that the current Noyce scholarship 
program is preferable to the program proposed in the PACE-Education 
bill.
    A second provision in the PACE-Education bill specific to NSF is 
section 141, which would establish NSF fellowships for mathematics and 
science teachers. This program would provide up to $10,000 annually for 
4 years to support for certified math, engineering or science teachers 
who teach in their specialty areas in high-need school districts. 
Teachers with a Master's degree in science or mathematics education 
could receive 5 years' support for undertaking additional leadership 
responsibilities such as mentoring.
    Incentives to attract and retain high-quality science, mathematics 
and engineering teachers in the K-12 education system should be 
encouraged.
    Fellowships for mathematics and science could help achieve these 
goals, but we should examine this proposal in terms of potential cost-
effectiveness. As a hypothetical example, if we applied $100 million a 
year (a very large program by NSF standards), we would support 10,000 
teachers annually. In 5 years, we would have placed the equivalent of 
approximately four Fellowship teachers in each of the Nation's school 
districts. Ironically, the average length of a career for math and 
science teachers is about 5 years. The challenge is clearly not just 
one of recruitment of trained math and science teachers, but also their 
retention.
    It is not the case that because we cannot do everything, we should 
do nothing. Because resources are limited, however, we must be very 
judicious in identifying and supporting programs that will have the 
greatest impact, all the while recognizing that many of the decisions 
on taking steps to improve math and science education will be made by 
local school districts.
    A number of other programs that would be established in the PACE 
legislation, although not at NSF, are reflective of the types of 
activities NSF has supported over the years. We have, for example, 
ongoing programs such as the Centers for Learning and Teaching; the 
Mathematics and Science Partnerships Teacher Institutes; Early Career 
Awards; and incentives for high-risk/high-payoff research projects. In 
light of the ACI provision to evaluate ongoing programs, I feel that 
implementing any programs that replicate those at NSF should await a 
review of existing programs in order to determine where the greatest 
promise for making a national impact lies.
    Finally, Mr. Chairman, let me extend my thanks to you for your 
leadership examining opportunities to improve innovation and 
competitiveness in America. I look forward to working with you and the 
committee to help identify, and better develop, the pipeline of future 
leaders in math and science. S. 2198 is being reviewed by the 
administration, and we would appreciate the opportunity to provide 
views on the bill's provisions prior to further consideration by the 
committee. I would be happy to answer any questions that you may have.

    Senator Burr. Senator Bingaman, it is my understanding that 
at this time we are going to deviate from the plan to 
accommodate the schedule of a witness on the second panel. 
Governor Hunt, if I could call you up, we will call up James B. 
Hunt, representing the Institute for Educational Leadership and 
Policy from Chapel Hill, NC, the former Governor of North 
Carolina.
    Governor, it is delightful to have you here to have your 
expertise in education, your perspective on a unique facility 
that we have in North Carolina tied to the university system, 
but that specializes in high school excellence in science and 
math. You are recognized for your testimony.
    Governor Hunt. Well, thank you very much, Senator Burr.
    Senator Burr. Governor, push that button and make sure that 
mike is on, please.
    Governor Hunt. Is it on now? The light was on. Maybe I 
better get to another one.
    Is this one on? All right. Senator Burr, thank you very 
much for--that is all right; I can just be on top of it here--
your kind comments, and I want to say how delighted I am as a 
North Carolinian to have you on this committee. North Carolina 
has needed a member of this committee, and you will serve very 
well, and I want to be of any assistance that I can, and my 
institute does.
    Let me say there has been a lot of discussion already about 
competitiveness issues here, and Jeff Bingaman and I, Senator 
Bingaman and I have served on some of those committees and 
groups over the years. But the greatest threat--I come from a 
State that has lost a lot of low-paying jobs. Senator, you know 
it as well or better than I do, and we could give the numbers 
of textile jobs, furniture jobs, many of them in your former 
congressional district.
    Now, we regret that we have lost those jobs, but the 
greatest threat to America is not that we have lost a lot of 
low-paying jobs. It is the fact that we are about to lose a lot 
of high-paying, high-skill jobs.
    I am on the board of a company. I was at a board of 
directors yesterday, a software company that has mostly hired 
software people in the United States and North America, but is 
now beginning to do so in India and China. I asked them at a 
board meeting, I said, ``How good are those software 
engineers?'' They said, ``They are every bit as good as the 
ones we produce in the United States, and we pay them one-fifth 
what we have to pay in the United States.''
    So we really are in a situation where this competitiveness 
thing is very serious. And the way I like to talk about it is 
to talk about the economic strength and the security of 
America. That is literally what is at stake here folks in terms 
of our economy.
    It means that to have that, to preserve that strength, we 
have got to have the best educated, most highly skilled workers 
in the world in America, and we have to keep getting better all 
the time because all the rest of them are getting better and 
are a real competitive threat to us. And this is especially 
true, of course, in math and science and technology.
    Twenty-five years ago, in North Carolina--we were concerned 
about these issues even then--we started the North Carolina 
School of Science and Mathematics. This is a residential 
school, 650 students on the campus in Durham, 350 get their 
teaching by distance learning. It has been highly successful. 
Seventeen States have copied it.
    Senator Jeffords, I am delighted to see you, sir. What a 
great leader you have been on education.
    In the last 3 years, this school produced 33 Siemens 
Westinghouse Prize winners. This is the most highly respected 
competition in America. It is judged by Nobel Prize winners. 
Thirty-three winners from the School of Science and Math in 
North Carolina in the last 3 years.
    Seventy-five percent of the graduates work in science and 
mathematics, and many of them are starting up new companies 
that are competing nationwide.
    One of the things it does, in addition to excellent 
education for these students, is to train teachers. They bring 
them in during the summer from all over the State. They help 
develop curricula that is better in mathematics and in science.
    So we have done some good things there. I could talk about 
other things. But I want to say to members of this committee 
today. We have so far to go--a huge way to go. And the 
competition is about to clean our clock. We cannot be too 
serious about this, in my opinion.
    I heard Secretary Johnson talking about the improvements we 
have made, and we have. North Carolina in the 1990s made more 
gains on NAEP scores in math and reading than any State in 
America because we worked with the business community and 
worked with the legislature and made a lot of progress. But 
recent reports have shown us where we are internationally.
    A recent report on 30 countries and the Organization for 
Economic Cooperation and Development showed that of those 30 
countries--you have probably heard these figures--the United 
States is 15th in reading, 18th in science, 24th in math. Of 
the G-8 countries, the eight countries, we are 7th in 10th 
grade mathematics.
    Now, those are the facts, folks. We are not competitive 
today, and we have tried, we have done a lot of things. Senator 
Alexander--I remember him pushing to pay teachers more for 
better teaching, and he did, the first State to do it. We have 
done a lot of things like that in other States now.
    But we have got so far to go, and let me give you an 
example of why this bill is so important. In the last 5 years 
in North Carolina, a pretty good State university system, we 
produced three physics teachers. We are not doing it. And we 
are not alone. This is typical of the country. We are not 
producing those teachers, and they are not teaching our 
students.
    So I want to say to you today that we have got to take 
drastic steps. You all think a lot up here about national 
security. I want to tell you, nothing is more important to our 
national security than having an excellent education system and 
being first in the world in education and then with our 
economy.
    I support every provision in this bill, especially those 
having to do with producing 10,000 new teachers and paying 
supplements to those folks who will teach math and science in 
the poor schools.
    Now, finally, Mr. Chairman and members of this committee, I 
want to say a couple of things that may not fall easily on your 
ears, but I think you need to hear them and I think everybody 
in this Congress needs to hear it.
    We have historically said education is a local issue, it is 
a matter for Wilson County or Forsyth County. It is a State 
issue, and it will remain that way to a large extent. But we 
are at the point today where, if we are going to maintain our 
economic strength and the security of America, education is 
going to have to be far more a national matter.
    And I want to suggest to you, Mr. Chairman--in fact, here 
is a way to look at it. It is not Tennessee, or Davidson 
County, North Carolina, against China. It is not Tennessee or 
North Carolina or Vermont or New Mexico, or whatever, against 
China. It is America against China. Of course, we want to 
cooperate as much as we can, but we are in competition. It is 
America. And America has got to be concerned about how we are 
doing.
    I want to give you two suggestions. First of all, I want to 
urge that we continue the No Child Left Behind Act. We need to 
do some fixing of it, but it has been good for this country, 
and it has meant that we learn more and we are concerned more 
about all of America's children. And I support it, but we need 
to make some changes.
    Second, I hope that you will enact all of President Bush's 
recommendations in his State of the Union address. They are 
good and they are needed.
    But then I want to suggest that you, the Congress, ask the 
academies, who have done such wonderful work on this bill, ask 
them to develop American standards in science and mathematics 
that we can invite the States to put in place, both standards 
and develop assessments of those standards, that the Congress 
can invite and encourage States to put in place. And I would 
suggest that you provide some significant economic incentives 
for them to put those American standards in place so that we 
can compete.
    And I think there are ways to do this. I think, you know, 
Governors have worked on this a lot. We have made some 
progress--not nearly enough. I have been watching this thing 
for 30 years, Mr. Chairman, and I have worked my head off on it 
for 30 years. But we are not where we have got to be, and 
America has got to step up. No longer can this just be 
something that Governors and legislators and school boards are 
working on. This Congress has got to take this on. This ought 
to be the biggest issue for Congress in the years to come.
    The final thing I want to suggest is this: You have got 
something in this bill that I love, and that is, pay more money 
to math/science teachers. I tried to get a bill through the 
North Carolina Legislature one time to pay a supplement to 
math/science teachers. I got it through one House, and I 
couldn't get it through the other one to save my life. How many 
States have done it? Any? I don't know if any are doing it. And 
there are people who fight against it. We have got to do it.
    I would urge that you not only pass this, I would raise 
that $10,000 supplement to $20,000. We have some places around 
the country that have tried to put more money to get people to 
go into poor schools. It takes about $20,000, or more, to get a 
teacher to go into a poor school and teach. So I would suggest 
that you raise that to $20,000, or as soon as you can, and I 
think the Congress is the way to break this logjam. You can do 
it from Washington. We cannot do it in the States, I don't 
think. But if the Congress would say it is essential to our 
future, our economic strength and our national security to 
provide more math/science teachers and to pay them more money 
and you provide the money, we can do it. Why do you need to 
provide the money? Because we are putting money into trying to 
get Dells to come to North Carolina and to do a lot of things 
at the State level that we just have to do because we have got 
to compete with the world.
    But, folks, I think this is the right thing to do. I am 
delighted that you are pursuing this. I want to thank every one 
of you individually for your interest in it and your work on 
it. I will be delighted to help in any way that I can, and I 
will be delighted to work with Governors as we get them behind 
this. I think they will support this idea. But I am very proud 
of this bill, and I hope you will pass it and enlarge it.
    [The prepared statement of Governor Hunt follows:]

             Prepared Statement of Hon. James B. Hunt, Jr.

    Mr. Chairman, Senator Dodd, members of the committee, it is 
an honor to be here today to discuss America's competitiveness 
in the 21st century global economy--and the role science and 
math play in meeting those challenges.
    The United States faces a competitive challenge not only 
from foreign companies but from foreign workers. Across the 
United States, many corporate executives are saying there 
aren't enough Americans with the skills to fill job openings. 
Just last week, the vice president of human resources for the 
world's largest privately held software company--which is 
located in the Triangle--stated he needs employees with 
graduate degrees in math, statistics and computer science. It 
has become alarmingly clear we are falling short when it comes 
to producing the talent companies like this need--and preparing 
students for the pursuit of these degrees. We are paying the 
cost.
    Alan Greenspan was right when he said, ``the United States 
has achieved its economic [and political] standing in the world 
based largely on the entrepreneurial spirit and high skill 
level of its citizens.'' But, a practical question still 
remains. Will workers in the United States have the skills 
necessary to compete with workers in China, India and South 
Korea in the 21st Century? I'm talking about intellectual 
capital: Creativity, Innovation, and Entrepreneurship.
    Americans can--and must--compete in today's global economy 
but it will take strong leadership and a bold new emphasis on 
K-16 education. It will take a renewed commitment to bring 
students to a higher level of competence--not only in math and 
science curriculum but also in creativity, innovation and 
entrepreneurship. It will take a significant investment in 
human capital for each and every U.S. citizen in order to 
maintain our competitive and comparative advantage. Senate bill 
S. 2198 is a good first step in achieving a new level of 
creativity and innovation among our Nation's students to enable 
them to successfully compete.
    I have had the opportunity to travel the world on numerous 
trade missions to China, India, and South Korea and other 
developing Nations. What I have witnessed on these trade 
missions has opened my eyes to the challenges that exist for 
our Nation. Countries around the globe are educating students 
to compete in the knowledge-based economy. These workers can do 
the same work as U.S. workers from anywhere in the world--for 
less than a fifth of the cost. This presents us with a real 
challenge. There must be a sense of urgency not only among our 
political leaders but among all Americans. There is no greater 
time to forge ahead with bold initiatives to educate our 
citizens if they are to be prepared to compete globally.
    According to a 2004 report by the National Center for 
Education Statistics, of the 30 countries composing the 
Organization for Economic Cooperation and Development, the 
United States ranks 15th in reading, 18th in science, and 24th 
in mathematics. In addition, the United States ranks 7th out of 
the G-8 countries in 10th grade mathematics. We don't have to 
look far to see what could be considered a contributing factor. 
According to the latest poll conducted by Public Agenda, 
parents don't see the urgency of science and math. There is a 
clear disconnect here. Policymakers and employers clearly see 
this slip as a threat to the Nation's economy. But, if our 
parents don't understand the importance, we can't expect our 
students to. America can do better. For the sake of our 
Nation's economy, and the quality of life for our citizens, we 
must.
    For several decades, North Carolina has proven to be a 
national leader not only in education reform, but also in 
preparing students for the changing economy. During my four 
terms as governor, North Carolina set the goal of being first 
in the Nation in terms of the quality of its education system. 
We demonstrated strong political leadership and consistently 
communicated with citizens the need to improve education in 
terms of its connection to the economy. And, we partnered with 
the business community to achieve a clear understanding of the 
skills necessary for employment in the changing economy and to 
gain their assistance in driving education reform.
    In addition, we focused on supporting our teachers to 
improve instruction and increase recruitment and retention 
rates. We also established high standards for our teachers, 
administrators and students and created assessments to evaluate 
those standards. Collectively, these efforts resulted in North 
Carolina students achieving the largest gains in math and 
reading achievement in the Nation on NAEP testing between 1990-
2002.
    Despite all of our efforts to improve education, it wasn't 
enough. North Carolina, much like the Nation as a whole, has 
faced a period of dramatic economic transition. Jobs in our 
agriculture and manufacturing sectors dramatically declined. 
Within a 10 year period, our State lost more than 180,000 
manufacturing jobs alone.
    Nearly 50 years ago, the vision of policymakers and 
business and education leaders led to an investment in 21st 
century industries. This included biotechnology, 
telecommunications and computing. Today, that vision is 
Research Triangle Park--a public-private research planned 
research park that houses some 136 companies and employees 
nearly 38,000 people.
    These visionaries understood that proper education and 
training of North Carolina residents would be critical to 
establish a workforce capable of taking advantage of these 
growing industries and job opportunities. Through the years, 
North Carolina sustained that bold commitment to support math, 
science and technology education.
    One example of our commitment to science and mathematics 
education is the North Carolina School of Science and 
Mathematics (NCSSM). The school opened in 1980 as the first 
school of its kind--a public, residential high school where 
students study a specialized curriculum focused on science and 
mathematics. NCSSM teaches science, mathematics and technology 
using practical applications along with integrated teaching 
methods. The curriculum is inquiry based--focusing on engaging 
students in mathematics and science through applications that 
relate to specific real life applications and employment 
opportunities. The school has nearly 650 students and teaches 
another 380 students across the State using distance learning, 
or online virtual courses. NCSSM administrators and teachers 
also work with teachers in rural areas to help them improve 
their instructional methodology.
    NCSSM has forged partnerships with a number of businesses 
including IBM, which has provided $2 million to help enhance 
instructional technology and teach 21st century skills. The 
results have been exceptional. NCSSM has produced 33 Siemens 
Westinghouse prize winners--the Nation's premier high school 
science competition judged by Nobel Prize winners--in the last 
3 years. More than 75 percent of NCSSM graduates are working in 
the science and technology field and making significant 
contributions.
    The school has become both a national and international 
model. In 1988, the school became a founding member of the 76 
member National Consortium for Specialized Secondary School of 
Mathematics, Science and Technology. Recently, the Minister of 
Singapore visited the school. He was so impressed that he hopes 
to replicate a similar initiative in his country. The NCSSM has 
become an international model because the faculty, 
administration and students have created a curriculum that 
integrates science, math and technology into practical 
applications and makes learning engaging and connects it to 
real world applications.
    In its report recommending the establishment of the North 
Carolina School of Science and Mathematics, the Planning 
Committee Commission wrote, ``The most compelling reason for 
doing so is that creative excellence in science and mathematics 
is a worthy goal in itself. The facts are, however, that 
excellence also underlies such practical needs as more and 
better jobs, better living conditions, development of new and 
abundant sources of energy and other advances--all of which are 
of great significance to North Carolina and the Nation.''
    Let me remind you this was written nearly 30 years ago. 
What could easily be viewed as foresight then, should be common 
sense now. North Carolina as a State, and we as a Nation, face 
even greater challenges today. For example, UNC System 
President Erskine Bowles recently said, ``In the past 4 years, 
the UNC System has turned out only three physics teachers.'' It 
is imperative to cultivate creativity and excellence--
particularly in science and mathematics--if we are to continue 
to be the world's economic leader. In addition to the School of 
Science and Mathematics, we have vigorously pursued 
opportunities to improve math and science achievement in North 
Carolina to promote economic prosperity.
    The North Carolina Mathematics and Science Network was 
established to strengthen the quality and size of the teaching 
base and the number of students that graduate from North 
Carolina high schools prepared to pursue careers requiring 
mathematics and science skills. The Network provides high-
quality, professional development opportunities for teachers 
and recruits students to mathematics and science careers 
through pre-college programs.
    Another initiative, The North Carolina Board of Science and 
Technology, encourages, promotes, and supports scientific 
engineering, and industrial research applications. The Board 
investigates new areas of emerging science and technology, 
conducts studies on the competitiveness of State industry, and 
works with the governor and the General Assembly to put into 
place the infrastructure to support the next generation of 
North Carolina science and technology firms.
    In addition, the North Carolina Science, Mathematics, and 
Technology Education Center, endowed by the Burroughs-Wellcome 
Fund, was established to help North Carolina achieve a 
scientifically literate workforce and improve science and math 
instruction by fostering research based and comprehensive 
programs of instruction. The Center also supports educational 
initiatives and resources to ensure academic success in 
science, math and technology for all North Carolina students. 
The James B. Hunt, Jr. Institute for Educational Leadership and 
Policy, which I chair, and the center are currently involved in 
planning a Science Technology Engineering and Mathematics 
(STEM) Summit. This is our effort to bring together educators 
and key policymakers to help determine what next steps we need 
to take to not only catch up, but get ahead of the game.
    These initiatives are a good start to advancing science, 
math, and technology education progress. But I'm here to tell 
you we must do much more. I believe that the recommendations 
set forth in Senate bill S. 2198 are bold steps to support and 
advance innovation, creativity and entrepreneurship in our 
Nation.
    In order to achieve creative excellence in science and 
mathematics, it is necessary to recruit, retain and support 
teachers. It is a well documented fact that the single most 
important element in a student's academic success is that 
student's teacher. A 1999 study by the American Educational 
Research Association found that 27 percent of math teachers and 
18 percent of science teachers were not certified in their 
field. A similar study found that 45 percent of biology 
students, 61 percent of chemistry students and 63 percent of 
physics students from 1987 to 1999 were taught by teachers not 
holding a major or certification in that subject. This is an 
injustice to our students--and our educational system.
    I strongly support Senate bill S. 2198's recommendation to 
recruit and provide scholarships for 10,000 science and math 
teachers. I particularly support the provision to provide 
bonuses to participating teachers in underserved schools. We 
must invest in our teachers if we hope to improve the education 
progress of our students.
    Recruiting and retaining teachers is only the beginning. It 
is critical to provide teachers with professional development 
and enrichment opportunities. I helped establish the National 
Board for Professional Teaching Standards for that very 
purpose. The goal is to advance the quality of teaching and 
learning by maintaining high standards, providing certification 
for teachers who meet these standards, and by capitalizing on 
the expertise of National Board Certified Teachers.
    The recommendation of Senate bill S. 2198 to strengthen the 
training and education of 250,000 teachers is critical to 
provide teachers with the ongoing development they need to be 
successful. It is imperative that we start treating our 
teachers as professionals. They have the responsibility to help 
shape the minds that will run our corporations and influence 
education policy of their own in the future. They are one of 
our Nation's most vital resources. We should treat them that 
way.
    In addition to supporting K-12 education progress and 
teacher recruitment, retention and professional development, we 
must focus on enhancing our institutions of higher education. I 
strongly support Senate bill S. 2198 provisions to support and 
enhance institutions of higher education through increased 
scholarships, fellowships, Federal tax credits, and visa 
processes.
    American higher education has long been the envy of the 
world. For decades, students have come from across the globe in 
search of this education. Decades ago, they also stayed and 
contributed to our workforce. We can no longer depend on that. 
Now, developing countries around the world are creating first-
rate higher education systems. As a result, more students are 
choosing to stay and contribute at, or closer to, home.
    All of these things are important. But, equally important 
is the education our students receive at our colleges and 
universities--especially our future teachers. They must be 
prepared to take their place in our workforce to help America 
remain strong. Their preparation--here in America--must be the 
best the world has to offer. It is our obligation to make sure 
that happens.
    Thank you for the opportunity to testify today on what has 
become, in my opinion, a national crisis of global proportions. 
I will be happy to answer your questions.

    Senator Alexander. Governor Hunt, do you have another 5 or 
10 minutes for a round?
    Governor Hunt. I do, yes, sir.
    Senator Alexander. Why don't we go to Senator Bingaman 
first and then Senator Burr and then Senator Jeffords.
    Senator Bingaman. Well, thank you very much, Mr. Chairman, 
and, Governor, thank you for all your leadership on education 
issues. Ever since I came to Washington, you are the go-to 
person as far as actually making progress in a State. And I 
admire greatly what you have been able to do, what you were 
able to do in North Carolina, and what you have been able to do 
nationally. But you are right, we have got a long way to go, 
and my concern, frankly--and I am going to get into this with 
our other witnesses. My concern is that the prescription that 
we have come up with--I mean, I commend the President for 
putting this on the national agenda, as he did in his State of 
the Union speech. And Senator Alexander and Senator Domenici 
and I urged him to do that, and he was planning to do it 
anyway, I believe. But at any rate, he did it, which is great.
    I don't see in the budget that has been submitted to the 
Congress the kind of follow-through that I think is required in 
order to actually make substantial progress. I mean, this is a 
big undertaking if we are going to be doing the kinds of things 
that we all think need to be done here.
    I think that, you know, we can have a lot of discussion 
around here about exactly how the programs are designed and 
which agency is responsible for what and all of that. But 
sooner or later, it comes down to how much are you willing to 
commit by way of resources to see some things change.
    Governor Hunt. Absolutely.
    Senator Bingaman. And that is where we all fall short. And, 
of course, we have got a budgetary bind that we have gotten 
ourselves into, so we do not have enough money here in 
Washington. We have got big deficits. We have got inadequate 
revenue. And so it is very hard--I mean, you know, you feel 
like you are favoring a particular area of the budget if you do 
not cut it too much. That is sort of the mentality around here. 
And so we are not able to do what we need to do. I don't know 
if that is just sort of a lament on my part, but if you have 
any comments, I would be anxious to hear them.
    Governor Hunt. I do, Senator. I wish we could go out, I 
wish this committee would go out and do a survey of the people 
of America and ask if they want Congress to put more money into 
education. You know what it will come out to be? About 70 or 80 
percent will say yes. I guarantee it. They want us to do it. 
They understand it and they want us to do it.
    Now, I know you have got problems, and I know we have put a 
lot into Iraq, and we have been trying to do the right thing 
for our country and for the world there. That is going to be 
phasing out. Let's take the money we have been putting in Iraq 
and start putting it in education, gradually. As that phases 
down, phase this up.
    And, by the way, if you have to borrow some money to put it 
into education--you borrowed it for other things. Borrow it for 
this if you have to.
    Now, I am a balanced budget man. I got the constitutional 
amendment through to require it in North Carolina, although we 
have always had it. But this is so important. This is as 
important as waging a war. In fact, it is the big competition 
among countries and is going to determine who is going to have 
both the wealth and the jobs and the power in the future.
    Senator Bingaman. Thank you, Mr. Chairman.
    Senator Alexander. Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    Again, Governor, thank you for your willingness to be here. 
More importantly, thank you for your passion for education. 
North Carolina has been the beneficiary of that, and we do have 
a unique facility in the North Carolina School of Science and 
Math, affiliated with the university system, which is an 
unusual model and not necessarily that part of it did others 
follow around the country.
    Let me ask you, how important do you believe that there is 
that higher education component to the School of Science and 
Math and what effect that might have on the success of the high 
school component?
    Governor Hunt. Oh, it is absolutely essential. We have to 
treat these together, Senator. Higher education must prepare 
the teachers--and prepare them to a high level, by the way. I 
often like to say to folks in higher education, Listen, you 
cannot leave it up to the dean of education. The chancellor, or 
the president of the university, or whatever you call them, has 
got to take this seriously and work with the dean and make sure 
that education in arts and sciences are working together so 
that our teachers learn to high standards and they understand 
the subject matter and they are masters of the pedagogy and all 
of that. And, of course, they then have to do a lot of the 
professional development work with teachers. We have got 
studies that say it is not just a matter of how much you pay 
teachers, it is how well you continue to develop them 
professionally and work with them after they get in so that the 
experience is fulfilling and they do not get burned out and 
they want to continue.
    And, by the way, the North Carolina Center for the 
Advancement of Teaching up in Cullowhee that you have been to 
is a great thing, sort of an Aspen for teachers. They go there 
and they get renewed and revitalized, and they want to continue 
teaching instead of quitting as they had intended to do.
    But higher education and K-12 have to work hand in glove in 
this.
    Senator Burr. Governor, one of the realities across the 
country is that less than 50 percent of the teachers who teach 
math in K-12 have a major or a minor in the subject.
    Governor Hunt. Right.
    Senator Burr. And I think all of us believe that your 
express goal is, in fact, the right one and that we should put 
a greater emphasis behind this.
    How long will it take for us to get into the system, the 
national system, a sufficient number of teachers who have the 
academic major to successfully go in and teach math and 
science?
    Governor Hunt. Why don't you do what this Congress did and 
America did when John Kennedy said we are going to put a man on 
the moon--what did he say? In 10 years? How long was it? I 
cannot remember. Let's take 10 years.
    Why doesn't this Congress say, with the leadership of this 
committee and this subcommittee, in 10 years no child in 
America will be taught math or science by an unqualified 
teacher? I would like for it to be 5 years, but, you know, 
let's set a goal for America, and then let's get to work 
producing those teachers, doing the things we need to do to 
keep them in the classroom, which involves a lot of things, 
including money, seeing that they are paid well, seeing that we 
continue the professional development work, and you all keep 
looking at what it is going to take in terms of salary.
    And, by the way, we can do some additional things. IBM has 
a wonderful program now in which their retirees who are in math 
and science, they will pay them after they retire--they keep 
their benefits, and then they will pay them extra to be 
teachers. This is a wonderful thing to do. There are many ways 
we can do things like that.
    But what I am saying is I hope the Congress for America 
will set a goal, and a tough goal, and you all find out what it 
is going to take to make that goal happen, and then put the 
resources in, put the mandates in. This is something we can do. 
We have acted like we cannot do this in America. We can do 
this, if we set the goal, and if we work hard, and if we make 
it a number one priority.
    Senator Burr. Governor, I agree with you it can be done. I 
want to thank you for your continued support for No Child Left 
Behind. We have our differences in Washington, but I think it 
would be putting our head in the sand to not also admit we have 
our own problems in North Carolina and every State across the 
country with educators who believe that No Child Left Behind is 
a national program that should not exist, that it is too 
involved in K-12 local education. There are some days I think 
that if they would spend as much time trying to figure out how 
to make it work as they spend trying to figure out why it will 
not work, we would have a tremendous class of graduates versus 
the low expectations that we have got today.
    In exercising the same opportunity that Jeff Bingaman did, 
let me also say that I think everything that we have talked 
about is a component to success. The one thing that we have yet 
to debate in this country that I think we have to debate is 
where we set our expectations. Our children do not read from us 
the hunger to compete at the same level, especially that Asian 
children do. I think it is one thing to raise a generation that 
believes winning is not the only thing in life, but competition 
is something that they are going to be faced with, this 
generation, my children are going to be faced with. They will 
compete for jobs against individuals they will never meet, who 
likely do not live in this country, for a job that can be 
placed anywhere. And they will likely have three or four 
careers in their life, not just jobs but different careers. The 
challenge is for this generation. Their ability to meet it will 
truly be determined by what we as a Nation set the expectations 
for their success and the success of this country.
    So I think even though we talk about qualified teachers and 
we talk about investment and we talk about what we can do in 
the classroom, if we cannot raise their expectations, what we 
provide for all will go unused by some. And that would be a 
huge mistake.
    Again, I thank you.
    Senator Alexander. Senator Jeffords.
    Senator Jeffords. Since the late 1950s, we have all talked 
about the importance of strengthening math and science 
education from kindergarten through to college graduates. We 
have enacted a number of Federal initiatives. However, 50 years 
later we are still talking about how this Nation needs to 
rethink math and science education.
    I would like to have your thoughts as to the reasons you 
believe we have not been completely successful at all at 
previous efforts. Is it the lack of funding, or are these 
barriers in the educational delivery system?
    Governor Hunt. Senator, I think the main thing is there is 
so much competition for people who are good in math and science 
in America. You know, you come out as--first of all, we are not 
preparing enough in our colleges and universities, and we have 
not found ways to bring them in from the outside, like we would 
bring in an adjunct professor, you know, into higher education. 
We have got to be more flexible in getting the good people.
    But there is so much competition for them now. The Research 
Triangle in North Carolina would snap them up just like this, 
and the one developing in Winston-Salem North Carolina. And you 
have got things like that in your States.
    And it is tough. You know, it is a lot easier to maybe get 
a degree in some of these other areas, and it may be easier to 
teach in some of them.
    Whatever the reasons--and then, of course, at the same time 
this has become so much more important in the world, you know, 
the way the world is developing with technology and the way the 
competition is coming along.
    So I don't want us to think we haven't done some good 
things. We have done a lot of good things. Our children know 
more about math and science. Our teachers that are in there are 
probably better teachers. But the world is going so fast and 
the competition is so tough, so that we have just got to do a 
whole lot more than we have ever done before.
    And I want to say, Senator Jeffords, of all the people in 
this town who have given great leadership, who have had their 
heart in it, body and soul to it throughout their career, you 
are one of the greatest, and I am one of your greater admirers, 
as you know.
    Senator Jeffords. Well, I appreciate those comments very 
much. In fact, I am leaving the Senate and going back to the 
University of Vermont to do what I think needs to be done, and 
that is to get our educational system in operation the way it 
must be. So I appreciate what you have done, and thank you for 
your comments.
    Governor Hunt. Thank you.
    Senator Alexander. We have been joined by the ranking 
Democrat on our subcommittee, Senator Dodd, who is one of the 
strongest supporters of the PACE Act. I have a couple of 
questions for Governor Hunt, and Senator Dodd does, and then we 
will go back to Dr. Bement and Dr. Johnson.
    Governor Hunt, you know I am one of your big fans in 
education. We did not worry about competing with China when I 
was Governor and you were Governor. We worried about competing 
with North Carolina. And I can vividly remember bringing our 
Speaker of the House, Ned McWherter, later our Governor, over 
to North Carolina more than 20 years ago to see your new 
Science and Math School, which, as I remember, cost about $10 
million a year--maybe it was 5--at that time. We were trying to 
consider what to do.
    We elected not to try to do that because of the cost, and 
instead we created Governor's schools, which are now in their 
20th year, and are summer institutes, primarily for students. 
We have a Governor's school for math and science at the 
University of Tennessee, for 4 weeks, and it has had a 
phenomenal effect. As the students come in, they not only 
learn, but when they go back to their schools, they are heroes 
and heroines, and they transform attitudes.
    So my question is, now looking over the 20 years of the 
Science and Math School and the recommendation of the PACE 
Committee, that each State be given some funds to do this, if 
they wish, and in Tennessee Governor Bredesen said he might 
like to do it, what is your advice for Governors and for us as 
we look ahead?
    For example, is spending that much time and attention on 
such a small number of students worth the dollars, or would it 
be better if it were institutes that attracted more? How could 
it be better related to teaching? Twenty years ago, we did not 
have the online opportunities we have today, so what would be 
the three or four things that you would suggest that someone 
creating a residential math and science school consider as we 
look ahead?
    Governor Hunt. Senator, I think having one that is truly 
excellent, that shows the world what excellence is, is a good 
idea. As I said, 17 States copied North Carolina. I saw the one 
in Oklahoma recently.
    Senator Alexander. What is the cost now? Do you remember?
    Governor Hunt. I am not sure exactly what the cost is. You 
know, it goes up. But it is a regular school. It gets the 
regular school funding.
    Senator Alexander. Right.
    Governor Hunt. Then it has some additional funding, and we 
raise a lot of private funds. But you need examples of 
excellence in our society.
    In fact, I remember going to regular high school in Durham 
and going into a science class, and the science teacher went to 
great lengths to show me what his students were doing and 
saying, ``We are just as good as the School of Math and Science 
over there.'' So this competition thing really works.
    But I would also recommend that pretty good size school 
systems have their own schools of math and science. You know, 
we have schools that specialize in different things. Obviously, 
we want every student in America to learn math and science, but 
we have got to have some place where we take students as far as 
they can go, and this is another thing I would want to say to 
this committee. Listen, folks, the folks who are going to do 
the breakthrough work, who are going to do the basic research, 
which means discovering new knowledge that man never knew 
before, that then leads to new products and services and 
energies, those are going to come from the brightest minds. We 
have got to figure out a way that we can start focusing on 
creativity and innovation at the same time we are trying to 
bring all of our students up to a certain level.
    This is one area--and some of our teachers are saying this 
to us. We need a little more flexibility in how we can teach, 
you know, so we can develop creativity.
    So I would say we want to improve math and science 
education. Every student needs to learn the basic things they 
need to know there. Then we need to have--I think in every 
school district, we need to have a special school where those 
who are even more interested and have greater aptitude can go. 
And then I would think every State ought to have one--or at 
least many States should.
    Senator Alexander. May I ask you one other question? And 
then do you have time for questions from Senator Dodd and 
Senator Kennedy?
    Governor Hunt. Yes, sir, absolutely I do.
    Senator Alexander. OK. Here is my other question. You have 
done a lot of work on recognizing outstanding teaching, which 
we both know is a big challenge. I was at a conference this 
past week sponsored by the Aspen Institute. There are 400 ideas 
about what to do to improve education. It all boils down to 
parents and teachers in every discussion, and since we do not 
know what to do about a better parents law, we end up with 
teachers.
    In every discussion we had about teachers, all of the ideas 
that we came up with sort of faded because, after a few years, 
very good teachers had no way of being paid more for being a 
good teacher.
    Now, you have made some comment about the so-called 
differential pay, as we call it, but what else can we do here 
to create incentives or introduce the idea in this country that 
an outstanding teacher deserves a financial reward? Have we 
made any progress in the last 20 years in developing a 
consensus about how to do that? If I am on the school board in 
Wilmington or the school board in Jackson, TN, or Springfield, 
MA, am I going to have to fight World War III in order to 
recognize a teacher who has been there for 7 years by paying 
that teacher $15,000 or $20,000 more a year? What comment do 
you have?
    Governor Hunt. Mr. Chairman, you started working on this a 
long time ago, and I remember it. In North Carolina--let's take 
Wilmington, NC--if you are in a school where the school makes a 
year's progress--Dr. Henry Johnson helped get this underway 
when he was in North Carolina. The school makes a year's 
progress, the teacher gets a $600 bonus. I believe it is $750. 
If you make 110 percent progress, more than a year, you get 
another bonus. And we are developing a system whereby if all 
the children--you know, under No Child Left Behind--do it, you 
get still a third bonus.
    This is not big money, but it is important money. You are 
rewarding success. You are rewarding the teacher teaching so 
successfully that the students are learning.
    Now, the Teaching Commission under Lou Gerstner, which I 
have been serving on along with a lot of other leaders in the 
country, has been working with States all over the country to 
develop approaches to this. I think this is not something you 
all should mandate from here because we really don't know how 
to do it quite yet. But we are developing ways to do it. We 
need to measure student learning, and if student learning is 
outstanding, pay the teachers more money.
    I have found teachers are entrepreneurs. When we started 
this system, they said, oh, the teachers won't keep the money, 
they will give it to somebody. No. They need the money and they 
keep the money.
    So I would encourage you all to encourage that as much as 
you can. But, in addition to that, of course, we have got to 
give them the kind of support they need to have, and I wouldn't 
want to leave this town today and go to New York City for a 
Carnegie Foundation Board meeting without saying that we 
started the National Board for Professional Teaching Standards 
over 20 years ago. I am looking at members of this committee 
who got that underway, Senator Dodd and Senator Kennedy in 
particular at that time, and many others. You were the 
Secretary of Education, Mr. Chairman, and you supported that 
idea. Not everybody did. We have got about 50,000 nationally 
board-certified teachers now. One-fourth of them are in our 
State of North Carolina, and they are one of the reasons that 
in the 1990s our NAEP gains were more than any State in 
America. So I thank you for that, and I hope you will continue 
to support it.
    Senator Alexander. Thank you.
    Senator Dodd.
    Senator Dodd. Well, thank you, Mr. Chairman, and, Governor, 
good to see you again. It is wonderful of you to be here. I 
cannot imagine a good conversation about education and not have 
you be a part of it, so thank you immensely for all the things 
you have done over the years.
    One of the reasons I got so interested in this subject 
matter and the sense of urgency about it was a quote--and I 
want to read it, because it was in this summary of the ``Rising 
Storm'' report here, ``Rising above the Gathering Storm.'' And 
I want you to address it, if you would, because it speaks to 
this issue that I think people do not understand. I think 
people have this sort of notion that when World War II started, 
we had several years, in fact, some time to get ready and to 
build up and then react to things. And one of the things I 
found startling in this report was the warning issued by the 
authors of this report over the abruptness with which this 
change can occur.
    I think there is a sense that somehow we will get this 
right in time, and I will just read this quote. It says, 
``Although many people assume the United States will always be 
a world leader in science and technology, this may not continue 
to be the case inasmuch as great minds and ideas exist 
throughout the world. We fear the abruptness with which a lead 
in science and technology can be lost, and the difficulty of 
recovering a lead once lost, if indeed it can be regained at 
all.''
    Now, I wonder if you might just comment on that particular 
notion about the abruptness of the change that can occur in the 
world we are living in, number one.
    No. 2, you made a recommendation which I find very exciting 
here, and that is the notion that Congress should ask the 
National Academy to set standards in math and science and then 
incentivize the States to adopt and develop those standards in 
math and science. I wonder if you might develop that thought a 
little bit.
    And, thirdly, could you expand on the comment you made that 
was not in your prepared remarks, about the global nature of 
education. I have lived in a two-room schoolhouse in 
Connecticut for the last 25 years. It was the successor 
schoolhouse to where Nathan Hale taught in the little town I 
live in. He taught in a one-room schoolhouse and that 
schoolhouse got too small. They then built a two-room 
schoolhouse. And basically children growing up in the 1850s in 
that schoolhouse competed with children from across the river, 
and down the road--New Haven and Hartford. Obviously in the 
20th century, it was children in Connecticut competing with 
children in New York or Massachusetts, maybe North Carolina. 
The 21st century obviously is a very different place, and yet 
we are still basically structurally addressing K-12 education 
as if the educational system involved the house I live in 
today, the schoolhouse built in 1853.
    And so I wonder if you might develop further what we could 
to become much more engaged as a national legislative body in 
the K-12 education process.
    Governor Hunt. Senator, with regard to the latter statement 
or issue, I think it is a matter of saying America has got to 
take on this challenge as a Nation. And it is so crucial that 
the people in this--listen, there was a time when if you really 
wanted to do something about education, all you did was run for 
the school board. My wife was on it. Or run for Governor or run 
for the legislature. And that is where we decided education. 
And that is still going to be a big part of it. Locals and the 
States are going to run the schools, primarily. But these 
standards that enable us to compete have now got to be 
national. I want to call them ``American standards.'' Let's not 
say ``national.'' Let's say ``American standards.''
    We have got to have an American effort behind it. We do not 
ask, we will send Canada to fight a war in Iraq, although 
plenty of folks in my Presbyterian church are going, some of 
them for the third time. But that is an American effort. We are 
in that kind of a contest, folks. It is every bit as important 
and tough as a military competition. Maybe tougher. And that is 
why we have got to have an American effort.
    With regard to the abruptness, I think they are exactly 
right. Listen to the academies. They have got this right. And 
let's follow their advice. It is happening already. I said 
before some of you came in here, I was at a board meeting of a 
company yesterday where their software engineers--they are 
beginning to use some in China and India. I asked a board 
meeting, ``How good are they?'' I thought they would say, 
``Well, you know, they are not too good, but we do not pay them 
as much.'' They said, ``They are every bit as good as the ones 
we have in America, and we pay them one-fifth as much.''
    Now, where do you think the jobs are going to go? And it 
has happened suddenly, and they are getting better and better.
    I have spoken to those kids on campuses in China and in 
other countries around the world. They are bright, they are 
excited, thankful to get to learn, and working their heads off. 
And it has happened very abruptly, and it is going to happen 
faster.
    One American leader told me they are fixing to clean--a 
business leader, ``They are fixing to clean our clock.'' And 
that is really true.
    The other matter about the national standards, listen, I do 
not want to enforce those right now, although, you know, I want 
it to happen. But let's go about it in the right way, 
especially with math and science, and ask the academies to 
develop standards, develop the ways to measure, the 
assessments, and then let's encourage the States to do it. And 
the States, if they know that if you have got these high 
standards you are going to get those new companies coming in, 
get those new jobs--and business will work with us on this--I 
think you will see it happen. But you all need to push it.
    Senator Dodd. Thank you.
    Senator Alexander. Senator Kennedy.
    Senator Kennedy. Thank you so much, Governor, for being 
here. It is always inspirational to listen to you, as many of 
us have over a long period of time. So many have benefitted 
from your lifetime of dedication and commitment to education. 
It has been an extraordinary life of public service that you 
have had, and we are very, very grateful to you for sharing 
your time today with the committee.
    I want to specifically sort of talk about the concept of P-
16 councils, and what you have done along those lines in North 
Carolina to bring together the business community, Government, 
colleges and school districts. This cooperation is a key 
element in terms of the development of education in your State, 
and I wanted to underline a point that you made. If the United 
States is going to be the number one economy, we have to be the 
most innovative economy. And to be an innovative economy, we 
have to do what you have suggested, and it is a matter of 
national security as well. This is all related to national 
security, to having the best technology that is going to be 
available with the best-trained workers and, best-led 
companies. This is a challenging time, and I think an important 
point was made as I was listening to the chairman and Senator 
Dodd. It's critical to get that sense of urgency out there 
among the American people. It is important, because, on the one 
hand, still education decisions are going to be made by the 
school board in Pocatello, but on the other hand their students 
are going to be competing with people in Shanghai and Beijing 
and others. So that relationship you have described is 
essential to ensuring our ability to compete, and I look 
forward to reading more carefully about how that can be done 
and done so it can have the broadest kind of support, both 
politically and nationwide.
    But what is the magic that you have had in North Carolina? 
We have a successful business community in my State and they've 
been instrumental in putting in place our States education 
reform efforts. Massachusetts is first in the Nation for 4th 
grade and 8th grade on the NAEP reading test. But reforms in 
Massachusetts were put in place really before the No Child Left 
Behind Act, and then when the No Child came in, the State was 
really on top of it. They knew what that was about, and we have 
got a ways still to go. But we have seen reductions in 
achievement gaps that have been really impressive.
    Governor, tell us about how you were able to get each of 
these groups together and what a difference that has made, 
because that is very unique. Some places have had the business 
community involved. As I mentioned the business community in 
Massachusetts was very involved in getting education reforms 
implemented. I think they would welcome the opportunity to 
build even stronger partnerships on these issues.
    But what has been the mark of the success of that rather 
unique partnership? I had the chance to go down to North 
Carolina and listen to some people down there a couple of years 
ago. But what is the magic of bringing that together?
    Governor Hunt. Well, Senator, we thank you for coming on 
that occasion, and thank you so much for all your leadership.
    The key to it is to talk to people about things they care 
about the most. Traditionally in the States, it has been jobs, 
and it still is. But it is also America's security, our 
military security, being safe. It is our health care. It is all 
of these things.
    As Governor for 16 years, four terms, I found that when I 
partnered with the business community, with the business 
leaders, with the IBMs and the GlaxoSmithKlines and all those, 
and all the others--the banks and all the rest--first, I found 
they wanted a partner. They understood. They are the consumers 
of what we are turning out. They are the ones who were having 
to compete around the world. And I found that they are ready to 
step up. If they are asked, they will do it.
    I want to call your attention because I have been with them 
recently, the U.S. Chamber of Commerce now has something new 
called the Business Education Network, BEN. I was talking to 
Tom Donohue about it a week ago. And I have been urging the 
U.S. Chamber to get aboard and to get involved in this. We have 
had CED and a lot of others have been working on it. The U.S. 
Chamber is getting into this now. And I would urge you all here 
to work with the business community and with the academies, 
with all levels, higher education, K-12, early childhood--all 
of this has to be done--to build this kind of commitment to an 
America that is the leading place in the world and will 
continue to be for innovation. That is our key. It is--you 
know, we have got to be thinking of new things, and if somebody 
steals it or whatever, we come up with something new again, 
more, it just continues to happen from bright minds. But we 
have also got to be thinking about how do we teach creativity. 
I want every child to get up to grade level, but I want a lot 
of these kids to be so bright that they will come up with those 
new discoveries which will mean the new technologies and new 
products and new businesses, and we have got to continue to do 
that. But it is all about education, and thank you so much for 
the leadership that all of you at this table and on this 
committee have given.
    And I would urge--I would leave you with this challenge. I 
know Members of Congress like to be on the Finance Committee, 
and I know partly why. I understand about Armed Services, and 
all the rest of these things. Going forward, this Health, 
Education, Labor, and Pensions Committee needs to be the most 
important committee in Congress. The new commitments in America 
need to be in education more than anything else, including 
health care, by the way. And I would just urge every one of you 
here--I am looking at real leaders. I know who all of you are. 
I would hope that you would do the pushing and pulling your 
partners in, get the business community to pull in folks that 
maybe do not understand it, just coming from you or educators. 
Build that kind of powerful partnership for education, then for 
economic strength, and national security. And I thank you very 
much for letting me come.
    Senator Alexander. Thank you, Governor Hunt, and thank you 
for staying.
    Before you leave, Senator Dodd and Senator Kennedy were not 
here when you said what you thought about the PACE report and 
the provisions in it, and I wonder if you could speak on it 
again in a sentence or two.
    Governor Hunt. I support it 100 percent, especially the 
part about training 10,000 new teachers and paying supplements, 
more money to math and science teachers. We have not been able 
to crack that at the State or local level. If you all put the 
money in, we will get it done.
    Thank you very much.
    Senator Alexander. Thank you, Governor Hunt.
    Now, let me ask, Dr. Bement and Dr. Johnson, how is your 
schedule. Have you got a few more minutes for us? Let me invite 
you to come back and let me ask the other three witnesses to 
come back who have not yet testified. I understand we may have 
votes at about noon. What I thought I would do is ask the other 
three witnesses to take their seats at the table along with 
you, let us hear a summary of their testimony, and then let all 
the Senators have a chance to ask all of you questions. Would 
that be acceptable to you? Thank you. However, at this time I 
would ask that the statement of Senator Kennedy be included in 
the record.
    [The prepared statement of Senator Kennedy follows:]

                 Prepared Statement of Senator Kennedy

    I commend Senator Alexander for convening this second of 
two hearings on the critical issue of improving math and 
science education in this country. I commend him and Senators 
Bingaman and Mikulski for their bipartisan work on the PACE 
Act, and I look forward to working with Chairman Enzi and the 
rest of the committee on these critical issues.
    We're grateful to Henry Johnson from the Department of 
Education and Arden Bement from the National Science Foundation 
for being here today, as well as Governor Hunt, who has so 
generously made the trip from North Carolina.
    We know that globalization is creating immense new 
challenges for our country, our economy, and our everyday 
lives. Report after report shows that America is losing its 
competitive edge in education. It is unacceptable that American 
students rank 28th out of 40 countries--tied with Latvia--on a 
test of applied math skills. We've fallen from 3rd to 15th in 
the industrialized world in the production of scientists and 
engineers. Between 1985 and 2002, the number of math, science, 
and engineering graduates in China nearly quadrupled, while the 
number of U.S. graduates in these fields grew by only 3 
percent. Other Nations are gaining on us because they give 
higher priority to education.
    To reverse these trends and put America back on the right 
track, we must inspire a renaissance in math and science 
education. But we won't succeed if our focus is on math and 
science alone. We must also ensure a strong educational 
foundation for every individual. We must make sure that 
children are prepared for the challenges they face at every 
grade level, and see that their learning in elementary and 
secondary school is aligned with the demands of college and the 
21st century economy. We must make sure as well that cost is 
never a barrier to getting a college degree.
    The PACE Act includes many important proposals for 
improving math and science education, and I commend my 
colleagues on the committee for their leadership. The response 
to the legislation shows the level of broad bipartisan support 
for addressing this critical need. And as today's witnesses 
will demonstrate, these efforts are already taking root in many 
places at the local and State level.
    I also welcome the President's commitment to improving math 
and science education to keep America competitive. But if we 
are to succeed, our solutions have to rise to the challenge. 
The President's proposals do not go far enough. It is not 
enough to tinker at the edges, or to help already talented 
students advance to the next level. A $380 million investment 
in math and science programs is meaningless in a budget that 
cuts overall education by $2.1 billion.
    We should do more to increase access to rigorous AP courses 
for low-income children, as the President has proposed. Senator 
Bingaman has been a leader in the Senate on this issue for many 
years and I've been a strong supporter of his efforts. But the 
reality is that many students in high poverty schools lack the 
basic educational foundation to succeed in those courses. One 
in three 8th graders attends a school that doesn't even offer 
algebra--a ``gatekeeper'' course for advanced AP science and 
math courses. So we must take a more comprehensive approach. We 
must address the entire school curriculum with that level of 
commitment if we're to succeed.
    The international TIMSS study found that one-third of 
American 4th graders and one-fifth of American 8th graders 
cannot perform basic math functions. We can't get ahead as a 
Nation if our children don't have those critical skills. We 
must do more to help struggling students.
    The President's Math Now Initiative is modeled after the 
Reading First program, and we have seen problems in 
implementing this program at the local level. We've heard from 
schools across America that say they were pressured into 
abandoning their reading curriculum, even when it was based in 
research. Several of us have asked GAO to investigate the 
implementation of Reading First, and the Department of 
Education Inspector General is investigating financial 
conflicts of interest in the program. There's a role for the 
Federal Government to play in helping students get ahead in 
reading and math--but narrowing the school curriculum in these 
subjects isn't the right approach.
    The President's proposals also come at the expense of other 
programs critical to our children's success. For the second 
year in a row, the President has proposed eliminating funding 
for the Education Technology program, which helps strengthen K-
12 math education and prepare students for the jobs of the 21st 
century. He has also proposed cutting funds for innovative 
teacher training programs at the National Science Foundation. 
Robbing Peter to pay Paul is not a strategy for success in 
today's education world.
    Over 60 percent of new jobs today require some 
postsecondary education, compared to only 15 percent 50 years 
ago. By 2009, 6 million jobs will go unfilled because our youth 
will not be qualified to hold them. To keep America 
competitive, we need more students with degrees in math, 
science, and critical-need foreign languages.
    But first and foremost, we must see that every talented 
student can afford a college degree.
    Half a century ago, we responded to the challenge of 
Sputnik, by enacting the National Defense Education Act, which 
doubled the Federal investment in education, and led to our 
dominance in the arms race and the global economy. This week I 
am introducing a New National Defense Education Act to help 
this generation meet the modern international challenge.
    The bill seeks to modernize the American education system, 
from pre-kindergarten through higher education, and arm 
students with the 21st century knowledge and skills.
    The bill helps States meet national and international 
benchmarks and provides grants to States to create P-16 
Preparedness Councils to align student learning with the 
demands of college, the 21st century workforce, and our Armed 
Forces. It invests in math, science, and critical-need foreign 
language teachers for schools in need. It guarantees students 
that if they work hard and get into college, cost will not be a 
barrier to a degree.
    College and graduate school would be tuition-free for low- 
or moderate-income students who study science, math, 
engineering, technology, or a critical-need language. Funding 
would be doubled for NSF education programs, new investments 
would be made in math, science, engineering and technology 
textbooks and laboratories for high-need schools.
    We can't keep America competitive unless we invest in a 
strong education for everyone, from birth through adulthood. I 
look forward to hearing from our witnesses today. I know that 
together we can fulfill the promise of every child and every 
student in America. The Nation's future depends on it.
    Senator Alexander. Let me introduce the three other 
witnesses and ask you to come forward and take your seats.
    Tom Rudin is the vice president for Governmental Affairs 
for College Board. We were looking forward to having President 
Gaston Caperton, whom we all know, but he got the flu and 
couldn't come today. Please give him our best and we are sorry 
to miss him.
    Also, Joshua Tagore, an outstanding student at the 
University High School for Science and Engineering in Hartford, 
CT, is here. And we are delighted he is here.
    And Peter O'Donnell is here, who is a member of the 
National Academy's Committee that produced ``The Gathering 
Storm,'' and his work in Dallas is one reason for the inclusion 
in ``The Gathering Storm'' report of the advanced placement 
recommendations.
    So why don't we begin with Mr. Rudin, then go to Mr. 
O'Donnell, and then Joshua Tagore. And if you can summarize 
your thoughts in 5 minutes or even a little less, that will 
leave the Senators more time to ask you questions.
    Again, Dr. Bement and Dr. Johnson, thank you for your 
patience.

 STATEMENTS OF THOMAS W. RUDIN, VICE PRESIDENT FOR GOVERNMENT 
 RELATIONS, THE COLLEGE BOARD, NEW YORK, NY; PETER O'DONNELL, 
JR., PRESIDENT, O'DONNELL FOUNDATION OF DALLAS, DALLAS, TX; AND 
JOSHUA TAGORE, STUDENT, UNIVERSITY HIGH SCHOOL FOR SCIENCE AND 
                   ENGINEERING, HARTFORD, CT

    Mr. Rudin. Thank you very much, Mr. Chairman. Is this on? I 
believe it is. My boss, President Caperton, sends his regrets 
and regards and wishes he could be here. He appreciates this 
opportunity and wants to assure you that his absence had 
nothing to do with the Fat Tuesday celebrations from last 
night.
    [Laughter.]
    He really does have the flu, regrettably.
    We are thrilled at the College Board with this new 
legislation, and particularly the provisions that have to do 
with the Advanced Placement Program. The Advanced Placement 
Program, as you know, is a national program of 38 college-level 
courses offered in high school. This year, about 1.3 million 
students will take about 2.3 million AP courses and exams in 
schools all across the country, and AP has really become a 
driver for the kind of education reform, the kind of rigor that 
you all are looking for in the PACE legislation. So we are 
thrilled to see that it is prominent in the bill, and we are 
thrilled to be part of the process of hopefully working with 
you at all levels to both get the bill passed and to implement 
the Advanced Placement components of that legislation.
    The AP Program is really about three things, and I will 
just highlight those briefly and hopefully save time for 
questions.
    First of all, it is about excellence and high standards. As 
you know, AP is college-level work offered at high school. It 
sets a high standard, but students who achieve in the AP 
courses leave high school ready to excel in college, in work, 
and especially in math and science areas. Let me just highlight 
one statistic that illustrates this point.
    You have heard about the TIMSS studies and how we compare 
on a global level in these international assessments. We are 
next to last in advanced mathematics among all countries in the 
world. But among AP students in the U.S. who score a 3, 4, or 
5--that is a passing grade on the AP exam--those students are 
first in the world in advanced mathematics, and AP students who 
score a 1 or 2 on the AP exam, that does not get you college 
credit, but it is still an achievement. They are second in the 
world in advanced mathematics. So AP represents high standards 
and high rigor.
    The second thing about AP is it is a commitment to equity. 
We are trying to open the door to AP, and we are not just 
saying let's open the door and hope more kids take these 
courses. We know a lot more kids can take these courses and 
excel in them, and let me give you two examples.
    This past year, 107,000 students in the country got a 3, 4, 
or 5 on the AP calculus exam. But through some analysis and 
research we have done that correlates achievement on the PSAT 
with success in AP calculus, we can identify and we have 
identified by name 500,000 additional students who could excel 
in these AP calculus courses. Senator Alexander, for example, 
in Tennessee, 1,100 kids got a 3, 4, or 5 in AP calculus last 
year, but we know the names of another 8,000 kids in Tennessee 
who could take and pass the AP calculus exam if they were just 
given a chance. But oftentimes the course is not offered. 
Oftentimes students are not encouraged to take these rigorous 
courses. So if you are looking for a ``quick win,'' get these 
courses offered in all American high schools and open access to 
them. You will have hundreds of thousands of students 
throughout the country taking and succeeding in rigorous math, 
science, and world languages courses.
    And, finally, AP is a program that already has an existing 
infrastructure in place. If you fund the AP Program as outlined 
in the PACE bill, you do not have to create new teacher 
training programs. Your colleges and universities already 
institutes, 1, 2, 3-week summer institutes for AP teachers. 
That infrastructure is in place. If you fund this program, 
there are already 130,000 trained AP teachers out there. The 
President is calling for 70,000 more, and we need them, but we 
have the infrastructure in place to train them.
    And, finally, the opportunity exists already to offer these 
AP exams that are graded by 6,000 teachers every year who come 
together in a central location, spend 2 weeks grading AP exams, 
and giving feedback to the students. The infrastructure exists. 
Every dollar you put into AP will go directly to the students 
and teachers.
    And so we strongly urge support for the legislation. We 
would love to be part of the team that moves this out into the 
schools and districts and makes it work, and we are ready to 
help you in any way we can. And we leave you with a final 
thought that many people see AP as just for the elite kids or 
so-called select group of kids. Our experience is that AP is 
for the prepared student with a high-quality teacher. It is not 
for the elite student. It is for really anybody who is prepared 
to enter these fields.
    Thank you very much.
    [The prepared statement of Mr. Caperton follows:]
                 Prepared Statement of Gaston Caperton
   anchoring mathematics and science education reform in an expanded 
                       advanced placement program
                              introduction
    The College Board is a national not-for-profit association of more 
than 5,000 member schools, colleges and universities, with a 
challenging mission: To connect students to college success. One of the 
College Board's most ambitious and important teaching and learning 
programs is the Advanced Placement Program (AP). As a set of 38 
college-level courses taught in high school, AP has become the most 
influential general education program in the country, and it represents 
the highest standard of academic excellence in our Nation's schools. 
The Advanced Placement Program is a collaborative effort between 
motivated students, dedicated teachers, expert college professors, and 
committed high schools, colleges, and universities. Ninety percent of 
the colleges and universities in the United States, as well as colleges 
and universities in 30 other countries, have an AP policy granting 
incoming students credit, placement or both on the basis of their AP 
Exam grades. Many of these institutions grant up to a full year of 
college credit (sophomore standing) to students who earn a sufficient 
number of qualifying AP grades. Since its inception in 1955, the AP 
Program has allowed millions of students to take college-level courses 
and exams, and to earn college credit or placement while still in high 
school.
    This committee is considering legislation that includes a 
significant role for AP in improving the quality of science and 
mathematics education in our Nation's schools--with the ultimate goal 
of increasing dramatically the number of high school graduates who 
enter college with the desire and ability to succeed in science, 
technology, engineering and mathematics (STEM) fields. I commend 
Senators Domenici, Alexander, Bingaman and Mikulski for their 
leadership in introducing the PACE Act, and I applaud the more than 60 
co-sponsors for their support of this important national initiative. 
The College Board strongly urges committee approval of this 
legislation. We especially believe that support for an expanded AP math 
and science program in this Nation will contribute to raising standards 
and achievement in all of our high schools. The AP Program benefits 
both the students who take AP courses and those who do not take AP by 
promoting more rigorous standards and higher quality teaching in all 
classes. As such, a significant investment in the expansion of AP math 
and science programs will have a profound effect on the overall quality 
of math and science education in our Nation's schools, colleges and 
universities.
    AP is a 50-year-old, time-tested program with an existing 
infrastructure of tens of thousands of teachers and a network of 
hundreds of training sites across the country. Funds invested in this 
program will not need to be dedicated to creating a new system for 
teacher professional development, course development, or the 
administration and scoring of assessments. That system already exists 
as a result of our efforts over the past 50 years, and as a result of 
the involvement of thousands of schools, colleges and universities in 
the operation of the AP Program. Thus, new Federal dollars invested in 
AP can go directly into the teacher training and student preparation 
and support that you envision, and that can ensure the success of this 
initiative.
                             the ap program
    Let me say a few words about the AP Program generally, and then 
focus specifically on AP mathematics and science courses. The 
principles and values of the AP Program can be stated quite simply:
    <bullet> AP supports academic excellence. AP represents a 
commitment to high standards, hard work, and enriched academic 
experiences for students, teachers and schools.
    <bullet> AP is about equity. The AP Program should be open to all 
students, and we believe that every student should have access to AP 
courses and should be given the support he or she needs to succeed in 
these challenging courses.
    <bullet> AP can drive school-wide academic reform. Schools that use 
AP as an anchor for setting high standards and raising expectations for 
all students see significant returns not just in terms of AP 
participation but in terms of increasing the overall quality and 
intensity of their academic programs.
    Across the Nation, every State and most school districts are 
exploring ways to raise standards and ensure that all students take 
challenging courses in science and mathematics that prepare them for 
success in college and work. AP is recognized as a powerful tool for 
increasing academic rigor, improving teacher quality, and creating a 
culture of excellence in high schools. Where AP Programs flourish, 
schools and districts use the AP Program to support a cohesive school 
culture that promotes both rigor and college-going aspirations. 
Students who take AP courses assume the intellectual responsibility of 
thinking for themselves, and they learn how to engage the world 
critically and analytically--both inside and outside of the classroom. 
This is an invaluable experience for students as they prepare for 
college or work upon graduation from high school. Moreover, schools in 
which AP is widely offered--and accessible to all students--experience 
the diffusion of higher standards throughout the entire school 
curriculum.
    Superintendents and principals recognize the value of AP as 
leverage to increase opportunity and achievement for all students. One 
principal from Lincolnshire, Illinois, cited the role of AP as a driver 
for improving all students' readiness for college and work:
    AP is helping more of our students develop the skills and 
confidence they need to succeed. Most of our graduates who have 
participated in the program report being exceptionally well prepared 
for the challenges of college. Feedback like this reinforces our 
commitment to expanding college-level opportunities for all of our 
students.\1\
---------------------------------------------------------------------------
    \1\ Dan Galloway, Principal, Adlai E. Stevenson High School, 
Lincolnshire, Illinois, as cited in the 2001 AP Yearbook, College 
Board.
---------------------------------------------------------------------------
    The Federal AP Incentive Program (APIP), which currently provides 
$32 million in Federal funding for AP expansion, mostly to increase AP 
access and success among underrepresented students, is working. Since 
its inception in 2000, more than 100 grants to States and districts 
have resulted in programs that have touched the lives of students 
throughout the Nation and promoted a college-going culture, encouraging 
more of our Nation's students to set high goals for themselves. The 
Advanced Placement Program's official Equity Policy Statement calls for 
``schools to make every effort to ensure that their AP classes reflect 
the diversity of their student population.'' From 2000 to 2005, the 
total number of students in the Nation with AP Exam grades of 3, 4 or 5 
(``passing'' grades that earn college credit) has grown from 494,000 to 
742,000. Among African-American students, the number of AP Exams with 
grades of 3, 4 or 5 has grown from 18,000 to 30,000; among Latino 
students, the number of AP Exams with grades of 3, 4 or 5 has grown 
from 63,000 to 110,500.
    This growth in AP is important to students, parents, schools, and 
districts--and to the Federal Government--for a number of reasons:
    First, the most important predictor of college success for a 
student is not his or her high school GPA, his or her SAT score, or his 
or her extracurricular activities. Rather, it is the quality and rigor 
of his or her high school courses. Research shows that students who 
take more rigorous courses, such as Algebra II, trigonometry and AP 
Calculus, are the most likely to enroll in and complete college. 
Additionally, AP is a powerful predictor of college success. By 
providing students with the opportunity to enroll in challenging 
courses during high school, it is more likely that these students will 
have the confidence and motivation to set and achieve high standards 
for themselves and will be encouraged to enroll and succeed in college.
    Second, students who take AP can earn college credit, which can 
save parents money spent on tuition and fees. In Tennessee, for 
example, students who take a semester's worth of AP and earn college 
credit on the exams can save $3,000-$5,000 in tuition and fees in the 
State's public colleges and universities, and much more at private 
institutions. By enrolling in AP classes during high school, students 
are able to academically prepare themselves for college, and take 
advantage of financial savings for their future.
    Third, schools, districts and even State departments of education 
value the impact of AP. Students who complete AP courses are not only 
prepared for the rigors of college, they are extremely well prepared 
for the assessments required by NCLB. It is the College Board's 
experience that the rigorous work required in AP helps students master 
subject matter and prepares them for any type of assessment challenge 
they might face, including State accountability tests and college 
entrance exams.
    Most AP participants are 11th and 12th grade students, but the 
proportion of lower-grade examinees has been growing. In the latest 
school year, 44 percent of the AP examinees were 12th graders and 38 
percent were 11th graders, while lower-grade and other examinees 
accounted for 17 percent of all examinees. This latter group, comprised 
mostly of 10th graders, has grown from 11 percent in 2000. With regard 
to numbers of exams, 12th graders are more likely to take multiple 
exams, accounting for 52 percent of total exams in the 2005 school 
year, but this dominance has been steadily decreasing as other grades 
have been growing at a faster pace. The strong presence of 10th graders 
setting, and often achieving, high standards for themselves reinforces 
the idea that implementation of AP enhances a rigorous school culture.
                   ap mathematics and science courses
    I share your belief, which is reflected in the PACE Act, that 
increasing rigorous math and science education in the U.S. will 
significantly boost our high school graduates' math and science 
proficiency--and also increase the number of students who enter college 
ready to succeed in science, technology, engineering and mathematics 
(STEM) career paths. And we urgently need to create those opportunities 
for our students. Today, only 32 percent of American undergraduates are 
earning degrees in science and engineering, compared to 66 percent of 
undergraduates in Japan, 59 percent in China and 36 percent in Germany. 
In 2004, China graduated 600,000 engineers, India graduated 350,000, 
and the United States graduated 70,000.\2\
---------------------------------------------------------------------------
    \2\ Committee on Science, Engineering and Public Policy. Rising 
Above the Gathering Storm: Energizing and Employing America for a 
Brighter Economic Future. National Academies Press, 2006. This report 
notes that America appears to be on a ``losing path'' today with regard 
to our future competitiveness and standard of living.
---------------------------------------------------------------------------
    The AP Program is an important tool in this Nation's efforts to 
increase our economic competitiveness. AP math and science students are 
much more likely than other students to major in STEM disciplines than 
students whose first exposure to college-level math and science courses 
is in college. For example:
    <bullet> Sixteen percent of students who take AP Chemistry go on to 
major in chemistry in college. By way of contrast, only 3-4 percent of 
students who take general chemistry instead of AP chemistry major in 
that field in college.
    <bullet> More than 25 percent of students who take AP Calculus go 
on to major in mathematics in colleges, and 40 percent of students who 
take AP physics major in physics in college.
    Further, research indicates that AP math and science courses 
prepare American students to achieve a level of proficiency that 
exceeds that of students from all other Nations. For example, in the 
most recent TIMSS assessments, U.S. Calculus students ranked #15 (out 
of 16 countries) in the international advanced mathematics assessment. 
But AP Calculus students who scored a 3 or better on the AP Calculus 
Exam ranked first in the world. Even AP Calculus students who scored a 
1 or 2 on the AP Calculus Exam--below the ``passing'' score--were 
ranked second in the world. AP Physics students, as compared to other 
U.S. physics students and physics students internationally, were also 
at the top of the ranking.
    Most significantly, there are many, many more U.S. students who can 
succeed in AP math and science courses--if they are simply given the 
chance. This year in the United States, we anticipate that more than 
100,000 students will earn a grade of 3 or above on the AP Calculus 
Exam--the grade typically required for college credit. But in a 
national analysis of the math proficiency of students enrolled in U.S. 
high schools during the 2005-06 academic year, we can identify, by name 
and school, an additional 500,000 students who have the same academic 
backgrounds and likelihood of success in AP Calculus as the 100,000 
students who currently are fortunate enough to have an AP Calculus 
course available. If we look at Biology, we see an even larger gap; we 
expect that about 74,000 students will earn exam grades of 3 or higher 
on the AP Biology Exam this year, whereas we know that at least 640,000 
additional U.S. students have the academic skills that would enable 
them to succeed in AP Biology if they only had a course available to 
them and the encouragement to take on this challenge. There are 
literally hundreds of thousands of high school students in the United 
States who are prepared and ready to succeed in rigorous high school 
courses such as AP Calculus, AP Biology, AP Physics and AP Chemistry. 
In many cases, the only thing preventing them from learning at this 
higher level is the lack of an AP teacher in their school or the lack 
of adequate encouragement and support to take the AP course.
    It is important to note that participation in AP increases the 
likelihood that students will graduate from college within 4 years. 
Strong correlations exist between taking AP math and science (and all 
other AP subjects) and college completion. Sixty-one percent of 
students who have taken two AP courses in high school graduate from 
college in 4 years or less. Forty-five percent of students who have 
taken one AP course graduate from college in 4 years or less. Only 29 
percent of students who have not taken an AP course will graduate in 4 
years or less.
    One concern that I have heard expressed about increasing the 
investment in AP is the notion that this takes funding away from other 
education programs. It is our belief that we need much more funding for 
all education programs if this Nation is to maintain our position of 
leadership in terms of economic competitiveness in the 21st century. 
The education piece of the pie needs to get larger, not smaller. 
Fortunately, the PACE Act is actually designed to do much more than 
launch new AP courses in U.S. schools. In fact, it is designed to 
provide States with resources for increasing the rigor and quality of 
their math and science programs in grades 6-11, using AP as a 12th 
grade anchor from which their schools can implement a curriculum that 
sequentially prepares students for the rigor of AP and college. The 
high standards embodied in 12th grade AP courses are just one piece of 
the proposed legislation, which also provides funding for professional 
development and student preparation in the math and science courses 
taught in grades 6-11. By anchoring the 6-12 math and science programs 
in a 12th grade AP math or science course, each grade level will foster 
a set of higher expectations and higher learning than is currently 
required and delivered in most U.S. schools. Moreover, the PACE Act is 
explicit in calling for increased access to AP math and science courses 
among students from all socioeconomic backgrounds. We share your equity 
commitment, and we believe that traditionally underrepresented students 
have the greatest need for access to rigorous course work in math, 
science, foreign language and culture and many other areas. If we are 
to maintain our position in the world, access to rigorous college-
preparatory experiences in the STEM fields must be open to all 
students.
    The College Board believes AP has tremendous potential to drive 
reform in a powerful way in all of our Nation's schools. No single 
program can have as strong an impact on overall student and teacher 
quality as AP. AP is not for the elite, it is for the prepared. Your 
support for expanded AP math and science courses and exams will prepare 
many more students for the opportunity to succeed in STEM fields in 
college and work. We respectfully urge your strong support for the PACE 
legislation.

    Senator Alexander. Mr. O'Donnell.
    Mr. O'Donnell. Thank you, Mr. Chairman. I have been invited 
to testify about improving student performance in mathematics 
and science as called for in the National Academy ``Gathering 
Storm'' report, and I am pleased to do so. I will focus on the 
Advanced Placement Incentive Programs which are the subject of 
the National Academy report, as well as the PACE legislation, 
and the President's American Competitiveness Initiative.
    Advanced Placement is an excellent program that works to 
improve academic performance. Incentives work to accelerate the 
growth of Advanced Placement, especially among minorities. I 
will show you data to demonstrate that.
    The Advanced Placement Incentive Program succeeds because 
of three fundamental concepts: the high standards of Advanced 
Placement, which is built on a strong curriculum, rigorous 
national exams, and measurable results; emphasis on excellent 
teacher training; and financial incentives for teachers and 
students. Incentives are key to the success of our program. 
They provide extra pay for extra work and are paid by private 
donors. The incentives are listed on page 1 of the handout at 
your desk. I trust you all have that.
    For the past 15 years, the O'Donnell Foundation has 
supported AP incentives programs in math, science, and English 
in Texas with the goal of preparing students to enter college 
and earn a degree. Our program, which is voluntary and open to 
all, is in 198 high schools. We are now in 60 districts.
    I want to begin by showing you data beginning in 1995 for 
10 public high schools in Dallas, which is the 12th largest 
school district in the country and has a 93-percent minority 
enrollment. Page 2 of your handout shows that passing scores in 
AP math, science, and English in Dallas have increased 7.6 
times in 10 years. Passing scores on only math and science 
exams increased almost 10 times.
    Page 4 shows that minority passing scores on AP math, 
science, and English exams have increased 17.8 times, and page 
5--I particularly want you to look at that--shows that minority 
scores on only math and science exams have increased 33 times 
in 10 years.
    When measured per thousand juniors and seniors, the 
minority students in Dallas pass at a rate nearly 3 times that 
of minority students in the United States.
    As you have just heard from Tom Rudin, AP enables students 
to successfully compete internationally in math and science. 
Page 7 shows that our AP calculus students scored higher than 
students in every other country in the TIMSS math problems, 
compared to the U.S. as a whole, which was second from the 
bottom. Our AP physics students scored above all but one 
country, whereas the U.S. was the very bottom.
    The big payoff for AP students is a high rate of graduation 
for college. I invite your close attention to the chart on page 
8, which shows the 6-year graduation rate from Texas public 
universities by ethnic group and based on whether or not they 
passed an AP exam in the core academic subjects. You can see 
the startling difference between taking and passing AP and not, 
and it is true for all ethnic groups.
    Very significant, lifetime earnings for a person with a 
bachelor's degree are over $2 million. A college degree 
effectively ends poverty for that person. We have developed 
several implementation features. First is a nonprofit 
organization that manages the program statewide, and that is 
part of our national committee recommendation. This has allowed 
us to scale up quickly while maintaining quality. Second are 
the master teachers who implement the program in their 
districts. Third is a three-way contract between the school 
district, a private donor, and statewide organization. This not 
only shares the financial burden, it lets the school know that 
the local community is supportive of the AP program. We now 
have 52 private partners in Texas. I think that could be a 
model for each State and gets you not only the cost sharing but 
the partnership you want.
    The next step was to build on the success of Advanced 
Placement by training pre-AP math and science teachers for 
grades 6 through 11 and a program we call ``Laying the 
Foundation.'' This program provides the curriculum, benchmarks, 
and training teachers need to begin preparing students in the 
6th grade to master AP courses in grades 11 and 12. In Texas 
today, we are training nearly 7,000 pre-AP teachers.
    If you could give me just one of those books?
    We have a separate book. This is biology. And we have one 
for each grade, 6, 7, 8, 9, and 10 for English, math, and 
science, and it has what the teachers need--in many cases, 
there are appropriate textbooks. We have what the teachers need 
to begin to teach these students to a high level, and these 
courses are aligned with the National Academy standards, the 
College Board standards, and in our case, the Texas Assessment 
of Knowledge and Skills.
    When fully deployed, pre-AP will provide an enormous boost 
for all students by giving them an early start and putting a 
focus on the important goal of graduating both from high school 
and from college.
    In conclusion, AP works to improve student performance in 
math and science. Incentives work to accelerate the growth of 
AP, especially for minorities, and we have the data to 
demonstrate that. I believe the Senate can enact this 
legislation with confidence that the programs will be 
implemented and that they will work.
    Thank you very much.
    Senator Alexander. Thank you, and thank for being a pioneer 
in this area.
    [The prepared statement of Mr. O'Donnell follows:]
               Prepared Statement of Peter O'Donnell, Jr.
    Mr. Chairman and members of the committee, thank you for this 
opportunity to appear before you on behalf of the National Academies' 
Committee on Prospering in the Global Economy of the 21st Century. As 
you know, our effort was sponsored by the National Academy of Sciences, 
National Academy of Engineering and Institute of Medicine.
    During my testimony, I will focus on the challenges that we are 
facing in K through 12 education. The committee believes the education 
issue is the most critical challenge the United States is facing if our 
children and grandchildren are to inherit ever-greater opportunities 
for high-quality, high-paying jobs. Our solution and recommendations to 
respond to the Nation's challenge in K-12 science, mathematics, 
engineering, and technology education are the committee's top priority.
    In examining the issue of K-12 science and mathematics education, 
the committee found the following:

    <bullet> Fewer than one-third of U.S. 4th grade and 8th grade 
students performed at or above a level called ``proficient'' in 
mathematics; ``proficiency'' was considered the ability to exhibit 
competence with challenging subject matter. Alarmingly, about one-third 
of the 4th graders and one-fifth of the 8th graders lacked the 
competence to perform even basic mathematical computations.\1\
---------------------------------------------------------------------------
    \1\ National Center for Education Statistics. (2006), ``The 
Nation's Report Card: Mathematics 2005.'' (http://nces.ed.gov/
nationsreportcard/pdf/main2005/2006453.pdf).
---------------------------------------------------------------------------
    <bullet> In 1995 (the most recent data available), U.S. 12th 
graders performed below the international average for 21 countries on a 
test of general knowledge in mathematics and science.\2\
---------------------------------------------------------------------------
    \2\ National Center for Education Statistics (1999), Highlights 
from TIMSS (http://nces.ed.gov/pubs99/1999081.pdf).
---------------------------------------------------------------------------
    <bullet> U.S. 15-year-olds ranked 24th out of 40 countries that 
participated in a 2003 administration of the Program for International 
Student Assessment (PISA) examination, which assessed students' ability 
to apply mathematical concepts to real-world problems.\3\
---------------------------------------------------------------------------
    \3\ National Center for Education Statistics (2005), 
``International Outcomes of Learning in Mathematics Literacy and 
Problem Solving: PISA 2003 Results from the U.S. Perspective,'' pp. 15 
& 29 (http://nces.ed.gov/pubs2005/2005003.pdf).
---------------------------------------------------------------------------
    <bullet> According to a recent survey, 86 percent of U.S. voters 
believe that the United States must increase the number of workers with 
a background in science and mathematics or America's ability to compete 
in the global economy will be diminished.\4\
---------------------------------------------------------------------------
    \4\ The Business Roundtable 2006. ``Innovation and U.S. 
Competitiveness: Addressing the Talent Gap. Public Opinion Research.'' 
January 12. Available at: (http://www.businessroundtable.org/pdf/
20060112Two-pager.pdf).
---------------------------------------------------------------------------
    <bullet> American youth spend more time watching television \5\ 
than in school.\6\
---------------------------------------------------------------------------
    \5\ American Academy of Pediatrics. ``Television--How it Affects 
Children.'' Available at: (http://www.aap.org/pubed/
ZZZGF8VOQ7C.htm?&sub--cat=1). The American Academy of Pediatrics 
reports that ``Children in the United States watch about 4 hours of TV 
every day"; this works out to be 1,460 hours per year.
    \6\ National Center for Education Statistics 2005. The Condition of 
Education. Table 26-2 Average Number of Instructional Hours Per Year 
Spent in Public School, By Age or Grade of Student and Country: 2000 
and 2001. Available at: (http://nces.ed.gov/programs/coe/2005/section4/
table.asp?tableID=284). NCES reports that in 2000 U.S. 15 year-olds 
spent 990 hours in school, during the same year 4th graders spent 1,040 
hours.
---------------------------------------------------------------------------
    <bullet> Because the United States does not have a set of national 
curricula, changing K-12 education is challenging, given that there are 
almost 15,000 school systems in the United States and the average 
district has only about 6 schools.\7\
---------------------------------------------------------------------------
    \7\ National Center for Education Statistics (2006), ``Public 
Elementary and Secondary Students, Staff, Schools, and School 
Districts: School Year 2003-04''. (http://nces.ed.gov/pubs2006/
2006307.pdf).

    Yesterday, Roy Vagelos, another member of the National Academies 
Committee, discussed the committee's actions related to improving the 
quality of America's K-12 science and mathematics teachers. This 
includes recruiting 10,000 of America's brightest students to the 
teaching profession and strengthening the skills of 250,000 current 
teachers through training and education programs.
    These recommendations will provide public schools in the U.S. with 
outstanding math and science teachers on a scale equal to the size of 
the problem. The recommendations are based on six concepts:

    1. High standards;
    2. Measurable results;
    3. Integrated curriculum for math and science for grades 6-12;
    4. Quality teacher training that is based on content;
    5. Incentives to teachers and students based on academic results;
    6. Implementation vehicle in each State to manage the programs to 
ensure quality control and accountability.

    There is general agreement that these six concepts will strengthen 
education, especially in math and science.
    Today, I will focus on the actions we recommend that are designed 
to improve opportunities for students to learn and master advanced 
mathematics and science. This includes the Advanced Placement Incentive 
Program and developing rigorous, but voluntary, national K-12 science 
and math curricula. In addition, I will briefly discuss two other 
activities the committee believed was useful to expand--statewide 
specialty high schools and inquiry-based learning through summer 
internships and research opportunities for students.
    The top program that the committee proposes for students involves 
enlarging the pipeline of students who are prepared to enter college 
and graduate with a degree in science, engineering, or mathematics by 
increasing the number of students who pass AP and IB science and 
mathematics courses. The proposed program would create opportunities 
and incentives for middle school and high school students to pursue 
advanced work in science and mathematics. The committee recommends that 
the number of students who take at least one AP or IB mathematics or 
science exam should be increased from 380,000 in 2004 to 1.5 million by 
2010.
    The committee also recommends setting a goal of tripling the number 
of students who pass those tests from 230,000 in 2004 to 700,000 by 
2010. Students would receive incentives to both take and pass the exam 
including a rebate of 50 percent of their examination fee and a $100 
mini-scholarship for each passing score on an AP or IB science or 
mathematics examination.
    The reason we are encouraging more students to participate in AP/IB 
courses is because research has shown that those students who take AP/
IB courses are twice as likely to enter and complete college as those 
who do not.
    There is an AP incentive program in the Dallas public schools. It 
is based on the highly successful Advanced Placement program of the 
College Board which offers college-level courses taught in high school 
by high school teachers. Students who score a 3, 4 or 5 on AP exams are 
eligible for credit at most colleges and universities in the United 
States. For all students, especially minority students, AP is an 
educational coin that cannot be devalued. A ``3'' on an AP exam in 
typical high schools across America is just as good as ``3'' on an AP 
exam at The Boston Latin School. AP has a proven track record with high 
standards and measurable results.
    New concepts were added in Dallas to strengthen the College Board's 
AP program:

    <bullet> Financial incentives for teachers and students based on 
exam results.
    <bullet> Master AP teachers who teach at least one AP course and 
help mentor the new AP teachers in their school.
    <bullet> Teacher training that is high quality, content-based and 
specifically designed for AP success. The College Board's excellent 
summer institutes for teachers are essential to the success of AP 
teachers.
    <bullet> More time on task for students, including tutoring outside 
school hours and prep sessions on Saturdays.
    <bullet> Professional management of the program by a nonprofit 
statewide organization run by outstanding AP teachers.
    <bullet> The program is voluntary and open to all teachers and 
students.

    The academic focus of the AP Incentive Program is the seventh AP 
math and science course: calculus, statistics, computer science, 
biology, chemistry, physics and environmental science. AP English 
Language and English Literature are also included. The incentives are 
shown in (Exhibit 1).
    In 1995, the O'Donnell Foundation began an AP incentive program in 
10 high schools in the Dallas Independent School District (DISD). This 
district of 158,000 students has a 93 percent minority enrollment and 
82 percent of the students are economically disadvantaged. 
Nevertheless, students are achieving outstanding AP results.
    Thirty-three percent of the junior and senior students in the 
Dallas incentive schools take at least one AP exam in math, science or 
English. This is over 2 times greater than the national average. (See 
Exhibit 2).
    In 2005, students took 3,567 exams, an increase of 9.4 times since 
the year before the program began in 1995. (See Exhibit 3).
    While the number of candidates and exams taken are important, the 
real measure of AP success is the number of passing scores. Passing 
scores on AP exams in math, science and English have increased 7.6 
times during the 10 years of the program. (Exhibit 4).
    Success among minority students is even more dramatic. Since the 
inception of the Dallas AP incentive program, the number of African-
American and Hispanic students passing AP exams in college-level math 
and science and English has increased nearly 18 times, from 29 in 1995 
to 517 in 2005. (See Exhibit 5).
    To compare one school to another or to a State or to the U.S., 
results can be measured per 1,000 juniors and seniors. Today Dallas 
minority students pass nearly three times as many AP exams in math, 
science and English as minority students in the United States. (See 
Exhibit 6).
    Female students have increased their passing scores in AP math, 
science and English by 8.4 times in 10 years. (See Exhibit 7).
    Data from the Dallas model demonstrates that AP works for all types 
of students. The success rate of minority and female students is 
especially encouraging as they will be a very important part of our 
future workforce.
    The Dallas AP incentive model is a partnership between the local 
school district and the private sector, with private donations 
supporting teacher training, as well as teacher and student incentives. 
At about the same time that the Dallas incentive program began, the 
State of Texas authorized and funded the Texas AP Incentive Program 
which provides State funded incentives for teacher training ($450 a 
year per teacher) and exam stipends of $30 per student. The State 
incentive program, also, has seen impressive gains in AP participation. 
Passing scores on AP math, science and English are up 3 times in Texas. 
(See Exhibit 8).
    Results for minority students in the same subjects are up 4.8 times 
under the State funded incentive program in Texas. (See Exhibit 9).
    It is very important to note that AP enables U.S. students to 
successfully compete internationally in math and science. Our AP 
calculus student score higher than students in every other country on 
the TIMSS test math problems, whereas the U.S. was second from the 
bottom. Our AP physics students scored above all but one country, 
whereas the U.S. was the very bottom. (See Exhibit 10).
    Also important to our country's future is the high rate at which AP 
students earn college degrees. In Texas public universities, the 6 year 
graduation rate for AP Anglo students is 72 percent, compared to 30 
percent for those who did not pass an AP exam. AP Hispanic students 
have a 6 year graduation rate of 62 percent, compared to 15 percent for 
those who did not pass AP exams. And 60 percent of African-American 
students graduate in 6 years, while only 17 percent of those who did 
not pass AP graduate in that time. (See Exhibit 11).
    Consider that lifetime earnings for a person with a bachelor's 
degree are over $2 million. This will end poverty for that person. It 
is especially important for minorities.
    With these encouraging results from both private and State AP 
incentive programs, Texas has taken the next steps to accelerate AP 
success.
    (1) Private donors created a non-profit organization, Advanced 
Placement Strategies, Inc. (APS) to implement AP incentive programs on 
a broad scale. APS is run by master AP teachers. They manage programs 
in the schools and are also responsible to the private donors for 
managing their financial support. APS is proving to be a successful 
implementation vehicle for expanding AP in Texas. It operates in 69 
school districts in Texas, in 198 high schools and 308 middle schools. 
APS is currently training nearly 7,800 AP and pre-AP teachers. APS 
operates by three-way partnerships among the school district, a private 
donor in the local community and APS.
    The Gathering Storm report states that implementation of the AP-IB 
and pre-AP-IB recommendations in each State ``would require the 
creation of a non-profit organization staffed by talented master 
teachers who would help local schools manage the program and enforce 
high standards.''
    (2) Recognizing that education should begin in the 6th grade to 
enlarge the pipeline of AP students, APS developed a series of 
teachers' guides, called ``Laying the Foundation,'' for each grade, 6 
through 11, in pre-AP math and science. The guides are designed to help 
teach the content and analytical skills that students need to master 
beginning in the 6th grade in order to be successful in AP math and 
science in the 11th and 12th grades. Pre-AP teachers are required to 
complete an intensive training course. Beginning in the spring of 2006, 
end-of-course tests modeled on the national AP exam, will be available 
to measure student progress in each of the benchmarks that are 
essential to good understanding of AP concepts. (See Exhibit 12).
    The National Academy report recommends training 80,000 teachers 
currently in the classrooms to be outstanding pre-AP and IB teachers of 
math and science. This is critical given the disturbing number of 
teachers who teach outside their own field of study. According to the 
National Center for Education Statistics in 1999-2000, 69 percent of 
mathematics teachers and 93 percent of physical science teachers in 
grades 5-8 had no major or certification in mathematics or science. 
When fully deployed, pre-AP will provide an enormous boost for all 
students giving them an early start and putting a focus on the 
important goal of graduating both from high school and from college.
    In summary, Advanced Placement is a program that works to improve 
academic performance. Incentives work to accelerate the growth of AP, 
especially among minorities. We have the data to prove it. I believe 
that the Senate can support these concepts with the confidence that 
they will work.
    Of particular interest to the National Academy Committee is the 
ability of programs such as the University of California College Prep 
Program to reach currently underserved areas or populations of students 
with specific learning needs through online access to teachers and 
tutors.
    The committee is pleased that this proposed action is part of the 
President's American Competitiveness Initiative.
    The committee also proposes that high-quality teaching be fostered 
with world-class curricula, standards, and assessments of student 
learning. Here, the committee recommends that the Department of 
Education convene a national panel to collect, evaluate, and develop 
rigorous K-12 materials that would be available free of charge as a 
voluntary national curriculum.
    The model for this recommendation is Project Lead the Way (PLTW)--a 
national program with partners in public schools, colleges and 
universities, and the private sector. PLTW is now offered in 45 States 
and the District of Columbia. The project has developed a 4-year 
sequence of courses that, when combined with college preparatory 
mathematics and science, introduces students to the scope, rigor, and 
discipline of engineering technology. PLTW also has developed a middle 
school technology curriculum, Gateway to Technology. Students 
participating in PLTW courses are better prepared for college 
engineering programs than those exposed only to the more traditional 
curricula. Comprehensive teacher education is a critical component of 
PLTW, and the curriculum uses cutting-edge technology and software that 
require specialized education. Continuing education supports teachers 
as they implement the program and provides for continuous improvement 
of skills.
    The committee also proposed expansion of two additional approaches 
to improving K-12 science and mathematics education that are already in 
use-statewide specialty schools and inquiry-based learning.
    Statewide specialty high schools are an effective way to increase 
student achievement in science and mathematics by providing an 
intensive learning experience for high-performing students. These 
schools immerse students in high-quality science and mathematics 
education, serve as testing grounds for curricula and materials, 
provide in-classroom educational opportunities for K-12 teachers, and 
have the resources and staff for summer programs to introduce students 
to science and mathematics.
    One model for this program is the North Carolina School of Science 
and Mathematics (NCSSM), which opened in 1980. NCSSM enrolls juniors 
and seniors from most of North Carolina's 100 counties. NCSSM's unique 
living and learning experience made it the model for 16 similar schools 
around the world. It is the first school of its kind in the Nation--a 
public, residential high school where students study a specialized 
science and mathematics curriculum. At NCSSM, teachers come for a 
``sabbatical year'', and the school has a structure and the personnel 
it needs to offer summer institutes for outstanding students.
    Inquiry-based learning such as summer research programs stimulate 
student interest and achievement in science, mathematics, and 
technology should be encouraged--particularly those designed to 
stimulate low-income and minority student participation. These programs 
frequently involve several institutions or public--private 
partnerships.
    The PACE legislation package is harmonious with our committee's 
recommendations and proposed actions for educating a new workforce and 
leadership in science and engineering. We are particularly pleased that 
the PACE-Education bill's Advanced Placement and International 
Baccalaureate's program authorizes the Secretary of Education to award 
grants to nonprofit entities to work with local school districts to 
provide training to teachers to teach Advanced Placement or 
International baccalaureate (AP/IB) and pre-AP/IB programs and that it 
also had the goal of increasing the number of students who take pre-AB/
IB and AP/IB courses and who pass the AP/IB exams in mathematics and 
science.
    By taking the actions proposed in the National Academies Gathering 
Storm report, we believe that excellent teachers and increasing numbers 
of students meeting high academic standards will become the academic 
reality. When this happens, the United States will be better positioned 
to compete as a country for high-quality, high-paying jobs for all 
Americans.
    Thank you for providing me with this opportunity to testify before 
the committee. I would be pleased to answer any questions you have 
about the report.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Alexander. Senator Dodd is going to introduce our 
next witness.
    Senator Dodd. Mr. Chairman, if we get this right, I want 
you to meet the future. He is the youngest panel member we have 
here today, but I had a chance to meet Josh a few weeks ago 
when I held a hearing on this very subject matter at the 
University High School in Hartford, CT. The University of 
Hartford has developed a program, a magnet school, 
concentrating on math and science and engineering. Walter 
Harrison is the President of that university, and in 
conjunction with the public school system in Hartford, has 
attracted students to come who have a strong interest in these 
areas. Josh was one of the witnesses that day.
    He is actually a stellar child and has a perfect record in 
almost everything, except that he is a Yankees fan.
    [Laughter.]
    I hope today maybe I will be able to persuade him at some 
point in the questioning to think that the Red Sox are a better 
team. We are divided constituencies in Connecticut. You can 
divide the State right down the middle, Yankees fans and Red 
Sox fans.
    Josh, thanks for coming today, and let me just briefly tell 
folks a little bit about you.
    I told you where Josh goes to school, and prior to 
attending the University High School at the University of 
Hartford, Joshua attended a Hartford magnet school, where he 
developed a love for mathematics and science, winning honors in 
physical science and biology in two statewide and citywide 
science fairs. He participated in the Connecticut pre-
engineering program, a summer program, and was honored as the 
valedictorian of his class. His experience at the University 
High School has afforded him an extensive exposure to the 
fields of science, math and engineering. He recently took part 
in an independent study summer internship program at Trinity 
College--this is a sophomore in high school, I remind you--a 
noncurriculum experience facilitated by his principal, Dr. 
Betty Colli, who is a remarkable woman and does a fantastic 
job.
    He is currently considering careers in biomedical 
engineering, neurosurgery or cardiology. In his spare time, 
Josh enjoys reading and writing, swimming and biking, and his 
favorite baseball team, regrettably, is the Yankees.
    If you want to know what can happen, in one small place, in 
the city of Hartford, CT, with a university working with a 
city, you'll want to listen to this. This could be the future 
if we get it right, and so, Josh, I thank you for coming today 
to give us a glimpse of what the 21st century could look like 
for America if we pay attention to people like you.
    Mr. Tagore. Thank you, Senator Dodd.
    Good morning, Senator Alexander, Senator Dodd, esteemed 
members of the Subcommittee on Education and Early Childhood 
Development. I am Joshua Tagore from the University High School 
of Science and Engineering in Hartford, CT. It is an honor to 
meet you all and to represent the University High School of 
Science and Engineering, along with my vice principal, Dr. 
Lefkoff. I am proud to be part of the effort to help make our 
country more competitive in the fields of science and 
mathematics. I am here to testify on S. 2198, the Protecting 
America's Competitive Edge (PACE) Act.
    Let me begin with a bit of personal background. I attended 
parochial schools and mainstream public schools through the 6th 
grade. At the end of the 6th grade, my parents and I made the 
difficult decision to leave the Avon Public Schools, one of the 
finest school systems in Connecticut. I enrolled at the 
Hartford Magnet Middle School to take advantage of the benefits 
of the magnet school's unique approach to education.
    During my time at the Hartford Magnet Middle School, I 
gained a stronger love for mathematics and science, two of the 
school's areas of specialty. While in middle school, I 
participated in two statewide science fairs, and the citywide 
science fair. My participation in the city and the State 
science fairs helped to fuel my love for math and science.
    Upon leaving middle school, my parents wanted me to attend 
a school that could accommodate my growing interest in math and 
science. My pursuit for knowledge in these fields was met when 
I enrolled at the University High School of Science and 
Engineering.
    I am currently a sophomore at the University High School, a 
high school affiliated with the University of Hartford. Since 
being accepted to the school almost 2 years ago, I have gained 
an extraordinary amount of knowledge, and can say that I have 
participated in classes that the typical high school sophomore 
does not get the opportunity to experience. Some of the 
opportunities that were made available to me include course 
work in physics and engineering as a freshman, and advanced 
placement biology as a sophomore, which is a course designated 
for juniors and seniors in high school.
    The class schedule was designed to be similar to that of a 
college student. We take all honors courses, and are offered 
four possible math-based courses as freshmen, algebra, 
geometry, algebra II, integrated math, as well as physics and 
engineering.
    Another benefit of being enrolled in this extraordinary 
learning environment is being surrounded by teachers who have a 
tremendous amount of insight, experience and knowledge about 
what they teach. Students are challenged to think analytically 
and pursue learning vigorously.
    The most recent benefit of my magnet school experience was 
an independent study summer internship at Trinity College. This 
incredible experience was birthed in a most unusual manner. 
Almost every week students are exposed to career professionals 
in the areas of science, mathematics, technology and 
engineering. It was through one of these weekly presentations 
last school year that I learned of a summer research program on 
the campus of Trinity College. After expressing a strong 
interest in the program to my principal, Dr. Betty Colli, she 
made arrangements for me to participate in the internship. This 
gave me the opportunity to work in a college-style laboratory 
as an intern among college students who were in their junior 
and senior years.
    In the summer of 2005, my fellow researchers and I studied 
an area of the brain called the hippocampus, which is 
responsible for learning and memory. As a result of 
participating in this internship, I gained an extensive amount 
of knowledge on how the brain functions. I leaned how the brain 
sends signals, how those signals are received, and how the 
signals make a person perform an activity.
    In addition to gaining extensive knowledge about the brain, 
I became very familiar with the research environment on a 
college campus, thanks to the guidance of my research 
colleagues and our professor. From these individuals I learned 
that before you enter college you must establish a good work 
ethic, which entails acquiring effective time management 
skills, showing up for whatever you are doing on time, and that 
you must be proved to be dependable in a fashion that benefits 
all of your fellow colleagues.
    This summer experience made a tremendous impact upon my 
life. Not only did I learn about the brain and the proper work 
ethic, but I also gained firsthand experience on what could 
possibly become my future career interests. As a direct 
consequence of my magnet school experience, I am currently 
considering career interests in the fields of biomedical 
engineering, neurosurgery or cardiology. I have learned how 
mathematics and all three areas of science--physics, chemistry 
and biology--are related, and play an important role in our 
everyday lives.
    Current enrollment at the University High School since its 
establishment 2 years ago, is 200 students. Sixty four percent 
of them are boys, while 36 percent are girls. Two hundred 
students at University High School in Hartford is a start, not 
a final destination. I believe that if more high school 
students are exposed to this kind of unique learning experience 
as a routine part of their high school careers, as I was in my 
freshman year, we could help to shape a Nation of young adults, 
gaining interest in careers involving math and science. In this 
new millennium, the future of our country depends on it.
    Thanks for your attention, and again, it has been an honor.
    [The prepared statement of Mr. Tagore follows:]
                 Prepared Statement of Joshua R. Tagore
    Good morning Senator Alexander, Senator Dodd, esteemed Members of 
the Subcommittee on Education and Early Childhood Development. I am 
Joshua Tagore from the University High School of Science and 
Engineering, in Hartford, Connecticut. First and foremost, it is an 
honor to meet you all, and to represent the University High School of 
Science and Engineering. I am proud to be part of the effort to help 
make our country more competitive in the fields of science and 
mathematics. I am here to testify on S. 2198--the Protecting America's 
Competitive Edge (PACE) Act.
    Let me begin with a bit of personal background. I attended 
parochial schools and mainstream public schools through the 6th grade. 
At the end of the 6th grade, my parents and I made the difficult 
decision to leave the Avon Public Schools--one of the finest school 
systems in Connecticut. I enrolled at the Hartford Magnet Middle School 
to take advantage of the benefits of the magnet school's unique 
approach to education. I spent 7th and 8th grade under the guidance of 
principal, Delores Bolton, and a strong and dedicated staff of teachers 
of the very highest caliber. During my time at the Hartford Magnet 
Middle School, I gained a stronger love for mathematics and science--
two of the school's areas of specialty. While in middle school, I 
participated in two statewide science fairs and the citywide science 
fair. My participation in the city and the State science fairs helped 
to fuel my love for math and science. I was also afforded the 
opportunity to participate in the Connecticut Pre-Engineering summer 
Program (CPEP). Upon leaving middle school, my parents wanted me to 
attend a school that could accommodate my growing interest in math and 
science. My pursuit for knowledge in the fields of science and 
mathematics was met when I enrolled at the University High School of 
Science and Engineering.
    I am currently a sophomore at University High School, a high school 
affiliated with the University of Hartford. My experience at the High 
School for Science and Engineering has afforded me extensive exposure 
in the fields of science, math and engineering. Since being accepted to 
the school almost 2 years ago, I have gained an extraordinary amount of 
knowledge, and can say that I have participated in classes that the 
typical high school sophomore does not get the opportunity to 
experience. Some of the opportunities that were made available to me 
include: course work in Physics and Engineering as a freshman; and 
Advanced Placement Biology as a sophomore--which is a course designated 
for juniors and seniors in high school. The class schedule is designed 
to be similar to that of a college student. We take all honors courses, 
and are offered four possible math based courses as freshmen (Algebra 
or Geometry, Algebra 2, Integrated Math, as well as physics and 
engineering).
    Another benefit of being enrolled as a student in this 
extraordinary learning environment is being surrounded by teachers who 
have a tremendous amount of insight, experience, and knowledge about 
what they teach. Students are challenged to think analytically and 
pursue learning vigorously. To quote one of my fellow students, ``The 
University High School is a place where all students feel free to be 
smart and share with others their passion for math and science.''
    My journey over the last 2 years has allowed me to travel an 
incredible road that has offered me greater knowledge and experience. 
The most recent benefit of my magnet school experience was an 
independent study summer internship at Trinity College--a non-
curriculum experience facilitated by my Principal, Dr. Betty Colli. 
This incredible experience was birthed in a most unusual manner. Almost 
every week, students are exposed to career professionals in the areas 
of science, mathematics, technology and engineering. It was through one 
of these weekly presentations last school year, that I learned of a 
summer research program, on the campus of Connecticut's Trinity 
College, which was open to high school students. After expressing a 
strong interest in participating in this program, my principal, Dr. 
Betty Colli made arrangements for me to be interviewed by the program 
coordinator, and then finalized the arrangements for me to participate 
in the internship. This gave me the opportunity to work in a college 
styled laboratory as an intern, among college students who were in 
their Junior and Senior years.
    In the summer of 2005, my fellow researchers and I studied an area 
of the brain called the hippocampus--the area which is responsible for 
learning and memory. I walked into this program having very little 
knowledge of how the brain worked. As a result of participating in this 
internship, I gained an extensive amount of knowledge on how the brain 
functions. I learned how the brain sends signals, how those signals are 
received, and how the signal makes a person perform an activity. I 
learned that the brain is composed of cells called neurons--that 
neurons consist of structures such as a nucleus--the control center or 
brain of the cell, an axon--which sends information to other neurons, 
and a dendrite, which receives information from surrounding neurons. I 
learned that all neurons are not the same--that on the brain--there are 
different groups of neurons, each specializing in a different task, 
such as processing language or helping to coordinate movement. I 
learned that neurons communicate by a process called synapses, where 
there is space between the cells to communicate. I learned that in 
synapses, there are four phases, Pre-Synapses, Synapses, Post Synapses, 
and Post-Post Synapses. I learned that in pre-synapses, the message, 
sent in the form of what is called a neurotransmitter, travels down the 
axon. I learned that in synapses, the neurotransmitters are sent into 
the fluid between the two neurons, known as the synaptic space. I 
learned that in post synapses, the neurotransmitters are sent to a 
specific area on the receiving neuron, releasing the message in the 
form of sodium and potassium. I learned that in Post-Post Synapses, the 
neurotransmitters are either destroyed by cleanup cells known as glial 
cells, as well as enzymes, or they are recycled by the axon. This is 
just a small sampling of some of the knowledge that I acquired during 
my summer internship experience. If your head is giddy from all that 
detail, my head is giddy at the thought of learning more of it.
    In addition to gaining extensive knowledge about the brain, I 
became very familiar with the research environment on a college campus, 
thanks to the tremendous influence of my research colleagues and our 
professor. From these individuals, I learned that before you enter 
college, you must establish a good work ethic. I learned that such a 
work ethic entails acquiring effective time management skills, showing 
up for whatever you are doing on time or even earlier, and that you 
must prove to be dependable in a fashion that benefits all of your 
fellow colleagues. The college students and the professor that I worked 
with always took time out to help me whenever I had a question about 
the brain, or our research, no matter how busy they were. In fact, they 
always encouraged me to come to them with questions.
    This summer experience made a tremendous impact upon my life. Not 
only did I learn about the brain and the proper work ethic, but I also 
gained first hand experience on what could possibly become my future 
career interest. As a direct consequence of my magnet school 
experience, I am currently considering career interests in the fields 
of Bio-Medical Engineering, Neurosurgery or Cardiology. I have always 
had a strong interest in studies of the human body, and after taking 
part in this internship, my appetite for a career in a medical field 
has increased significantly. Having been shaped by my summer 
experience, I am interested in pursuing this course of study when I get 
to college.
    I strongly believe that if there are more schools like the 
University High School of Science and Engineering, our country will see 
an increase in the number of students who will go on to pursue careers 
in science and mathematics. One of the things that I have learned since 
attending this school is how mathematics and all three areas of 
Science--Physics, Chemistry, and Biology--are related, and play an 
important role in our everyday lives. Having this experience has been 
one of my motivations to working towards obtaining a career in the 
fields of science and Engineering. My increased exposure to mathematics 
and science has motivated me to help make my community and my country a 
better place to live in for future generations. It is important to 
instill this within the minds of every student across the Nation. It is 
important that every boy and girl across the Nation know of the 
benefits of math and science. The University High School has been 
aiding that cause since it was established 2 years ago. Currently, of 
the 200 students, 64 percent of them are boys, while 36 percent are 
girls.
    Two hundred students at University High School in Hartford is a 
start, not a final destination. I believe that if more high school 
students are exposed to this kind of unique learning experience as a 
routine part of their high school careers--as I was in my freshman 
year--we could help to shape a Nation of young adults who will gain an 
interest in careers involving math and science. In this new millennium, 
the future of our Country depends on it. Thanks for your attention--and 
again, it has been my honor.

    Senator Alexander. Thank you, Joshua, and thank you, Chris, 
for inviting Joshua, and I wish you the very best. None of us 
doubts your success. The only competition I can think of will 
be everybody competing to attract you to their college.
    Senator Dodd. I am just glad he does not have an interest 
in political science, that is all I can say.
    [Laughter.]
    Senator Alexander. We have four votes at noon, so I am 
going to try to keep my questions brief, so Senators Dodd and 
Burr, if they have questions, will have a chance to ask them, 
and we will make as much as we can of the next 20 minutes.
    Mr. Rudin, you mentioned you know 8,000 more students in 
Tennessee who could take the AP test. How do you know who they 
are?
    Mr. Rudin. We have tested 10th and 11th graders in 
Tennessee with the PSAT, the Preliminary Scholastic Aptitude 
Test, that about 3 million kids take across the country.
    Senator Alexander. Is that in the 8th grade or in the 10th 
grade?
    Mr. Rudin. In the 10th and 11th grade.
    Senator Alexander. They take the PSAT.
    Mr. Rudin. Take the PSAT. We have done a correlation study 
that shows, depending on your performance on the PSAT in math 
how likely you are to score a 3, 4 or 5 on the AP exam.
    Senator Alexander. Tennessee would be usually about 2 
percent of the country, so it might be 60,000 Tennessee----
    Mr. Rudin. Roughly that many, right.
    Senator Alexander. And 8 of the 60,000, you would predict 
would score a 3?
    Mr. Rudin. With a strong likelihood of success, 3, 4 or 5 
on the AP calculus test. Only 1,100 kids passed the AP calculus 
test last year, but we project that an additional 8,000 could 
pass the AP calculus course and exam if they simply were 
offered it or took it. The problem is it is either not offered 
in their high school, or more likely, it may be offered but the 
students are not encouraged to take it, and, frankly, some may 
be discouraged from taking it.
    Senator Alexander. Mr. O'Donnell, last week I was with a 
professor from the University of Texas, Uri Treisman, who gave 
a paper. He is at Austin. He pointed out something I just did 
not know, and Senators Dodd and Burr I think will be interested 
in this. He pointed out that 13 States--the point of this 
comment is that our students can do well, that 13 States, in 
1999, treated themselves as a country, and submitted themselves 
for the 8th grade Third International Math and Science Study, 
which is the best, most respected math and science 
international comparison I know about, and that Texas, whose 
sample contained more than 50 percent African-American and 
Hispanic students, performed at the significantly higher level 
than most European countries. Texas 8th graders in math and 
science in 1999 performed at a significantly higher level than 
most European countries.
    You have been at this for a while. We just heard that at 
the present level of instruction there are 60,000 students in 
Tennessee, who take the PSAT, and 8,000 of those 60,000 could 
make an AP score of 3, 4 or 5. What are the chances of 
increasing the percentage of students who can succeed on an AP 
test to the level of 3, 4 or 5?
    Mr. O'Donnell. Our view is the teacher. The student, of 
course, has to go to a school that offers the exams, the 
courses, but the key is the teacher. A poor teacher cannot get 
those kids to pass AP, which is a college-level course, and an 
excellent teacher almost demands that they do.
    We have a science and engineering magnet in the Dallas 
School System that produced, for 3 years in a row, more 
African-American and Hispanic passing grades in the calculus AP 
and BC than any other school in America. So they can learn, but 
it has to do with an outstanding teacher. That is what we look 
for. We try to motivate, and we try to give them the incentives 
and recognition that they deserve.
    Senator Alexander. Joshua, have you taken any AP exams yet?
    Mr. Tagore. No, but I think that my first AP exam is 
scheduled in May.
    Senator Alexander. Are they typically given to sophomores 
and freshmen? Do many sophomores and freshmen take the AP 
exams?
    Mr. Rudin. Most are given to juniors and seniors, but when 
you have an exceptional sophomore, they will take them as well.
    Senator Alexander. Joshua, what is your guess--you have 
obviously gotten yourself very well qualified in math and 
science. How many of your fellow students could do that if they 
tried?
    Mr. Tagore. I think all of them, all of them, because it is 
a matter of putting your mind to it.
    Senator Alexander. And, Mr. O'Donnell said he thought the 
teacher was the critical component in that. What is your 
opinion?
    Mr. Tagore. I think to some extent it is part of the 
teacher's role to encourage the students and to motivate them 
to be successful, and then it is the students' part to feel 
that they can be successful and do what is right.
    Senator Alexander. Mr. Bement, as you look at the 
recommendations of the PACE Commission, do you see proposals 
that the National Science Foundation already is doing, and that 
ought to be modified or expanded, rather than adopt the 
proposals of the PACE Commission?
    Mr. Bement. Yes, Senator. There are two programs that are 
in the PACE bill that closely parallel what we are currently 
doing. One is in Section 132, Recruiting and Training New 
Mathematics and Science Teachers, that closely follows our 
Noyce scholarship program, where we encourage undergraduate 
students in science and engineering to go on for a degree in 
education. We provide scholarships for that. In terms of years 
of service required after the degree is granted, they are very 
similar. I will not go into the details. We can provide that 
for the record.
    The second program is section 191, the National Science 
Foundation Early Career Research Grants. We currently have an 
early career program. We call it career, but it focuses both on 
research and education because research and education are two 
sides of the same coin, as far as the Foundation is concerned. 
Again, there are some differences in qualifications, and on the 
use of the funds, but fundamentally, section 191 proposes no 
less than 65 grants. We already satisfy that. We are providing 
375 career grants annually. The amount of funding is very 
similar. Section 191 proposes the grants be 5 years of duration 
and $100,000 a year, and that closely parallels what we are 
currently providing. As a matter of fact, a third of our awards 
actually exceed that minimum.
    Senator Alexander. Thank you. I am going the ask our 
subcommittee staff to work with you and make sure that our 
proposals are the most practical proposals. In other words, if 
what we should be doing is amending and enlarging existing 
programs rather than starting a new program, we ought to 
consider that.
    Senator Dodd.
    Senator Dodd. Thanks very much, Mr. Chairman.
    Let me go back to the first question the chairman asks. 
Actually, we were chatting here during your testimony. I am 
wondering if we cannot do a better job of identifying the 
Joshuas before junior and senior year. I am worried that we are 
letting kids slip. I mean we are not picking up earlier in the 
educational process the students who are capable of doing what 
Joshua is doing. I am going to ask you, even though, what you 
do is dealing more at the high school level. It worries me that 
we go K-8 and I am told over and over again that by the time a 
child is in the 3rd grade, that if they are slipping behind in 
reading and so forth, they are more likely to drop out. And 
yet, we know that many of these young people have more than the 
capabilities to perform, and yet we do not really determine who 
is capable until they get to that junior year in high school or 
senior year in high school.
    It seems to me there just have to be thousands of kids out 
there, not millions of them, that could be performing at an AP 
level, and by the time we test them it is just too late, they 
have slipped out of the system, maybe they are dropping out or 
going to drop out, and they become kids we have to worry about 
because they are going to live in a global economy where the 
skill level they have is just going to not give them much more 
of an opportunity than performing very menial tasks and jobs.
    Maybe this is a question too for you, Mr. Johnson, at the 
Department of Education. I am looking at the budget numbers. If 
you have not heard from others on this committee, I presume you 
will at some point or another. We are talking all about this 
commitment to education, and I have to tell you--you are the 
one sitting here it is terribly disappointing to see the 
numbers in this budget. Hopefully, this committee and others 
will do a better job at getting some of these resource levels 
back up. But you heard Governor Hunt, you heard everybody else, 
this cannot be done on the cheap. What we are talking about 
here in this program, the PACE bill, is going to cost a lot. 
Yet I am dismayed when I look at what has happened to title I, 
what has happened to special education.
    Here we are, it is the 21st century, and I do not know of 
anybody that pays any attention to this subject matter who 
believes that if this Nation ever portends it is going to be 
successful in this century and commit itself at the levels we 
are talking about here, education, we are just not going to 
make it. The Joshuas will, a couple of more will here, but the 
bulk of students sitting out there are not going to get that 
help if we do not do a better job at this thing. So tell me why 
we are not doing a better job, and how can we do a better job 
of identifying children earlier in this process than waiting 
until their sophomore or junior year to discover that they 
might be an AP student. How do we do that? Why can we not do 
that? Anyway, the question is open. Go ahead, Peter.
    Mr. Johnson. Let me comment on that. You raised a couple of 
issues, the first dealing with why we are not doing a better 
job with students at the elementary level. This may sound 
counter-intuitive, but I think Josh put his finger right on it. 
The research suggests that even students who have not been 
terribly successful, when exposed to a rigorous curriculum 
experience, learn more, fail less. One thing that we have to 
do--and no child is clearly directed toward that--is to make 
sure that every single student has a rigorous curriculum 
experience throughout school, taught by the excellent teachers.
    Senator Dodd. You undercut No Child Left Behind by $15.4 
billion, the No Child Left Behind Act. I voted for it. I think 
it was a good idea, but how can you possibly talk about it and 
then not fund the program?
    Mr. Johnson. Well, we are doing several things. The actual 
expenditure on education over the past 5 years has increased, 
and the President and the Secretary have proposed a budget that 
actually targets what we think is the next stage of school 
improvement. The first round of money went to help States build 
assessment systems. I was State chief in Mississippi. 
Mississippi already had an assessment system grades 2 through 8 
in reading and mathematics, and high school end-of-course 
tests. We took No Child dollars and built and offered to the 
schools of the State a diagnostic assessment program on demand. 
The teacher could call up an assessment for the class and get 
an analysis of strengths and weaknesses of that class, or an 
individual child, and suggestions as to what to do to teach to 
the strengths and remediate the weaknesses. No Child was a big 
help to us in Mississippi.
    That also leads to one other thing I want to say. 
Accompanying a more rigorous curriculum experience has got to 
be a comprehensive assessment program, both formative and 
substantive. We have got to have information that helps kids.
    Senator Dodd. I hear you, but you know what I am saying to 
you too.
    Mr. Johnson. Yes, I understand.
    Senator Dodd. We have 30 some odd percent of teachers in a 
lot of our elementary schools who are not certified to teach 
what they are teaching in urban schools, not true necessarily 
in suburban schools. We are cutting back program after program 
because the State and local budgets are strapped trying to meet 
needs. We are talking about math and science here today, but we 
also understand the importance of other things that would be 
part of a curriculum of a child growing up things like music 
that can make a huge difference in mathematical development, by 
the way. We are falling behind in our national commitments, in 
my view, in this area, and I am just worried that we are 
missing the kids.
    We are missing 8,000 in Tennessee alone that could have 
been AP students. You start multiplying that fact around the 
country, it seems to me we have a lot of work to do to close 
that gap.
    Mr. Johnson. Correct.
    Senator Dodd. Peter, you wanted to make a comment.
    Mr. O'Donnell. I do. Laying the foundation program that we 
have developed starts in the 6th grade, and it will have the 
same diagnostic test and end-of-course assessment so that you 
will know how each of those students are doing, and you are 
moving them along a path toward AP.
    Senator Dodd. You are picking up a lot earlier in the 
process.
    Mr. O'Donnell. We are picking them up at 6th grade, not 
waiting until it is too late.
    Senator Dodd. Who else is doing this? Do you know of other 
States around the country that are doing anything like that 
besides you?
    Mr. O'Donnell. I do not know. We have the only one that I 
know of.
    Senator Dodd. Mr. Bement, do you want to comment on this?
    Mr. Bement. I think one of the critical factors has to be 
setting expectations, and it has to be expectations set not by 
the teacher, not by the school, but by the community. You have 
to get the community engaged, and that is where the business 
sector does come in, because our experience indicates that when 
you get the business sector involved, when you get the 
professional societies involved, and they all aim at the same 
expectation, things really do improve.
    Senator Dodd. Let me ask you a quick question. We listened 
to Jim Hunt recommend that maybe the National Academy of 
Science ought to set some American standards and then 
incentivize our States in the math and science area. As part of 
the National Science Foundation, how do you feel about that and 
would the National Science Foundation be inclined to want to 
participate in something like that?
    Mr. Bement. Let me say, Senator that over the years, both 
the National Science Foundation and the Department of Education 
together have sponsored most of the studies that have been 
conducted by the National Academies, and we clearly would want 
more of these types of studies to be conducted.
    Senator Dodd. Do you like the idea of having some American 
standards in math and science, or is that going too far in your 
view?
    Mr. Bement. No, I do not believe it is going too far.
    Senator Dodd. Joshua, last with you, you answered the 
question, you said almost every other student. You are talking 
about the students in your present magnet school, the 
University of Hartford High School. What about students that 
you have known when you were in other schools and so forth? 
What is your impression about the number of other classmates 
you have had that may not be in the program you are in or would 
not get into it today, but could have if earlier identification 
of their abilities had been identified and someone had worked 
with them?
    Mr. Tagore. I think that a lot of students can do anything 
that they put their minds to, and I think that a lot of talent 
is wasted sometimes, but I think that if you encourage a 
student, then you can bring out the best in them.
    Senator Dodd. You said something to me when we were in 
Hartford the other day that I have not forgotten. You said to 
me one of the reasons you like being where you are in school 
today is because it is okay where you are to be smart. Remember 
saying that to me?
    Mr. Tagore. Yes.
    Senator Dodd. Tell me about what that means. Was it not 
okay to be smart in some of these other schools you were in?
    Mr. Tagore. Sometimes, yes. Sometimes you are----
    Senator Dodd. Why does that happen? What happens?
    Mr. Tagore. You are looked down upon as strange in some 
sense because you like to--because your passion is in the work, 
and you want to get insight from the teachers. I guess in other 
schools it is not accepted that much. But when you go to a 
school such as University High School, there are teachers with 
so much insight that you have to tap into, and it just helps 
you become a better student.
    Senator Dodd. And it is okay to be smart.
    Mr. Tagore. It is.
    Senator Dodd. I should have said at the outset, by the way, 
with my colleague from New Mexico and Pete Domenici, I thank 
you, Jeff. If it had not been for this Senator and Senator 
Alexander, we would not have had the study done and so forth, 
so we are talking about a subject matter today because two 
United States Senators decided to make a difference, and a guy 
from Tennessee decided it was worth putting in bill form, so, 
Jeff, I thank you very, very much.
    Thanks, Mr. Chairman.
    Senator Alexander. Thank you.
    Senator Burr.
    Senator Burr. Mr. Chairman, I will be quick.
    Secretary, it is great to have you here.
    Mr. Johnson. Thank you.
    Senator Burr. It's always good to have somebody from North 
Carolina on every panel.
    [Laughter.]
    I thank you for letting us put the Governor in front for a 
second, but you and I are used to having that happen.
    Mr. Johnson. Absolutely.
    [Laughter.]
    Senator Burr. Mr. O'Donnell, thank you for your work.
    Joshua, your insight has been incredibly helpful, and your 
understanding of how a brain works, I would love to spend some 
time with you because I am still trying to figure out some of 
the people I serve with up here, and how their brain works.
    [Laughter.]
    Senator Dodd. You are making an assumption they have one.
    [Laughter.]
    Senator Burr. Just one question. I have heard every 
questioner ask the same question, and I have heard most of you 
respond, so I will throw it out there for anybody who would 
like to tackle it.
    In Tennessee, 8,000 opportunities missed. But to 
legitimately say we missed it, we have to believe that there 
were a sufficient number of teachers with degrees to teach AP 
classes to 8,000 students in Tennessee alone. I do not believe 
that is the case, and if there were, there would not be any AP 
teachers left in the 49 other States, so it would be a study of 
what we had missed somewhere else. I think we are in agreement 
on that.
    My question is can we use distance education to teach AP, 
and can we, at least in the short term, leverage the limited 
pool that we have of people who have that expertise to expand 
the opportunity, maybe not in the most preferred way, but 
certainly in a temporary way while we get there?
    I will let all of you answer, but I want to make this 
comment. We here, and I think those of us in education, do not 
put enough credibility behind technology because we grew up at 
a different time. He does things with technology that we never 
dreamed about, we will never understand, and therefore, we 
assume that if designed, those on the other end will not 
utilize it to its capabilities, and I would tell you that it 
gets back to that expectation thing that I talked to Jim Hunt 
about. And he just confirmed it. Give them an opportunity. We 
cannot make them absorb it, but not providing them the 
opportunity is the only mistake we can make.
    Mr. Rudin. Senator, I think you have hit the nail right on 
the head. It is the teacher that is the issue, and getting a 
high-quality teacher trained. Let me just clarify one thing. 
When I talk about 8,000 students who can succeed, that is just 
AP calculus. In Tennessee alone you have another 4,000 students 
who could have passed AP physics, 10,000 in AP chemistry, 
11,000 AP history. I can go through the whole thing. There are 
millions of students in this country who can succeed in AP 
courses if they are given the chance, if the course is offered, 
and if we can get a quality teacher in the classroom to teach 
it. So you are exactly right.
    In terms of distance learning, we at the College Board, we 
are not in the business of actually running courses. We sponsor 
the AP program, but we know there are private companies, we 
know there are colleges and universities who are offering AP 
courses online with some degree of success, and we encourage 
that.
    One thing we do is we have an electronic professional 
development program for AP teachers, and about 300,000 
teachers--which means a lot more than just AP teachers--are 
involved in this electronic discussion group so that they can 
exchange lesson plans, share ideas, exchange labs, and offer 
professional development online. I think you are exactly right, 
if we are really serious about ramping up AP access, and IB and 
other rigorous courses, we have to use technology much more 
effectively.
    Mr. O'Donnell. On the number of teachers, part of the 
National Academy report involves--part of that report, we are 
going to ramp up. We are not going to get all those AP teachers 
or pre-AP teachers in a year. It calls for a 4- to 5-year 
period to train the teachers that we will need in those 
disciplines.
    The second thing is, our experience, and the person that 
runs our foundation in Texas, Greg Fleischer--he is here--used 
to use a distance learning, but it was really as a supplement. 
It was once a week, and they would go into those schools, and 
the teacher would have their students, and they would address 
aspects of problems they were dealing with in the course that 
week. So it was effective, but nothing will take the place of a 
good live-wire teacher, well prepared, in the classroom, but as 
a supplement, yes, and as best practices among teachers, yes. 
But I think it will not anytime soon take the place of a well-
prepared teacher in a subject.
    Senator Alexander. Senator, we are about to vote, and I 
want to make sure Senator Bingaman has a chance.
    Senator Dodd. Mr. Chairman, the Secretary wants to respond.
    Senator Alexander. Excuse me.
    Mr. Johnson. Just briefly, in the Competitiveness 
initiative there is a proposal to train AP and IB teachers and 
expand it, so it gets at that same issue.
    Mr. Bement. May I make a brief comment?
    Senator Alexander. Dr. Bement.
    Mr. Bement. Some of the results of our research indicates 
that AP programs are exceptionally important, but even in the 
earlier grades, it is turning out that students who excel in 
mathematics, also excel in science, also excel in reading, so 
there is an interrelationship or there is a coupling in the 
learning process.
    Senator Dodd. Music too.
    Mr. Bement. That is broadly beneficial. Music as well. I am 
a music buff, so I agree with you.
    Senator Alexander. Senator Bingaman has really been the 
leader, along with Senator Hutchison, on advanced placement 
legislation. We will let him have the last word.
    Senator Bingaman. Thank you very much. Let me thank all of 
you, and particularly commend Peter O'Donnell for his 
leadership on this, and I have admired his initiative in Texas 
for many years. As he knows, he briefed a group of us from New 
Mexico about what they are doing, and I very much appreciated 
that. I commend him. He is a good share of the reason why this 
is part of the President's initiative here, and we want to see 
it happen.
    Let me just ask Secretary Johnson, I asked our Secretary of 
Education Spellings the other day--I stated my concern about 
how there seemed to be a proposal by the administration to 
train 70,000 AP teachers, but I did not see any commitment to 
train pre-AP teachers such as the effort that is being made 
there in Texas with laying the foundation. She said, ``No, no, 
that is part of it. We are going to train pre-AP teachers, as 
well as AP teachers.'' Do you know, is there anything concrete 
that the Department has done to sort of indicate how this would 
go about? I am just unclear as to what concrete steps the 
Department would anticipate taking to gear up the training of 
pre-AP teachers.
    Mr. Johnson. We are in the process of putting all that 
together, but one of the things that clearly has to happen is 
the State level capacity for improving schools, if the dollars 
for that come through, that has a strong staff development 
component. The High School Initiative that is part of the 
President's proposal will give formula money to States, and 
they in turn could do competitive grants with local school 
systems, all targeted toward improving the high school 
experience and the middle school experience for after that. 
Then we have the Math Now for both middle school and 
elementary, both of which have professional development 
components.
    Senator Bingaman. I guess what I am not clear on, also is 
it the plan of the administration to contract with nonprofits 
or with the College Board or with someone to do this training, 
or do you intend that the States gear up to do it? How does 
this happen?
    Mr. Johnson. well, certainly working with the College 
Board, but other entities to also do the professional 
development for teachers, but certainly working with college 
boards is one of the things we do.
    Senator Bingaman. As quick as you are able to sort of flush 
out how this would happen, I would sure be anxious to get some 
of the detail of it, because I would like to know the impact in 
my State and other States, and what kind of an opportunity this 
will result in for people. I think that is important.
    One other issue Senator Burr asked. How do you get the 
maximum benefit from the pool of qualified teachers we now 
have? I remember in the briefing, Mr. O'Donnell, that you gave 
us there in your offices, you had circuit riders for some of 
the small school districts. That would be a tremendous help in 
my State. Could you describe that very briefly?
    Mr. O'Donnell. Yes. We have pilot programs with our small 
school districts. They cannot afford to hire or get the talent 
for an AP teacher, so we came up with a plan to have an AP 
calculus teacher and an AP English teacher, and we call them 
circuit riders because they will do four schools. They will go 
to each of those schools and teach the AP class. Now we are 
going to push that down to the pre-AP, but the circuit rider 
thing has been well received.
    Senator Bingaman. It seems to me, Mr. Chairman, that is 
something which unfortunately, the walls that are built up 
around each school board and each school district sort of get 
in the way of that. But in my State, we have a lot of rural 
school districts, and if we could figure out a way to fund the 
salary of these circuit riders----
    Mr. O'Donnell. Well, the four districts were splitting the 
cost, and it makes it affordable.
    Senator Bingaman. That is part of the solution to getting 
some of these courses taught even before we get the full 
complement of teachers that we need to do it.
    Let me ask Dr. Bement, I am concerned that the budget 
proposes pretty drastic cuts in some of your programs, 
particularly this MSP program, Math and Science Partnership 
Program. You have one. The Department of Education has a Math 
and Science Partnership Program in addition. But yours has been 
going down in budget very substantially, and according to what 
I have here, it went from 104 million in 2004 to what is 
proposed for next year is 46 million. That does not look to me 
like a ringing endorsement by the rest of the administration of 
what you folks are doing. How do you explain this? Is this 
something you are trying to get out of this business?
    Mr. Bement. No. The role of the Science Foundation is to 
really do the research and to evaluate the research through 
intervention, to understand what works. We work closely with 
the Department of Education in trying to make what works work 
more broadly through implementation. So there is the research 
and discovery role, there is also the implementation role. In 
order to get more impact across this whole area of education, 
we have to work together. We have to establish a partnership.
    The funding in the Math and Science Partnership within the 
foundation still carries resources that will allow us to 
continue to collect data, to evaluate the data, to synthesize 
it and also to disseminate it, and to share it with the 
Department of Education. That cooperation transcends what goes 
on in Washington, because over two-thirds of our grantees in 
Math and Science Partnership are also partnering with the 
coordinators of Math and Science Partnership at the States, 
supported by the Department of Education.
    What we are really trying to do is to get more 
dissemination. We are trying to build a brush fire. We are 
trying to broaden the lessons that we have learned, and the 
best practices that we have learned through the research and 
the interventions that we have carried on over the last 4 
years, since 2002.
    Senator Bingaman. Mr. Chairman, let me just indicate to you 
and Senator Dodd that I hope when the budget process begins 
around here, we can go ahead and add some money. I hate to see 
the National Science Foundation funding for education 
initiatives cut in the way it is proposed to be cut in this 
budget, so I hope we can correct that.
    Thank you again for having this hearing, and thank you all 
for being here.
    Senator Alexander. Let me thank the witnesses and the staff 
and the large number of Senators who came by today. We have 
completed 2 days of hearings now on eight provisions from the 
National Academy of Science's recommendations for how we keep 
our advantage in science and technology. We heard good 
suggestions. We have gained some understanding. We have talked 
to Dr. Bement to make sure that we do not duplicate programs, 
and wherever we can, we strengthen and broaden programs. We 
have heard from Governor Hunt that he enthusiastically supports 
all of the provisions of the act. And, Joshua, we especially 
appreciate your coming down, and we ought to have a hearing 
once a year just to watch your progress. I think we would all 
enjoy that.
    Senator Dodd. Here is his dad right over here.
    Senator Alexander. I am sure his father has had a lot to do 
with his success thus far.
    Where we hope to go now is to make our recommendations from 
this subcommittee to the full HELP Committee. Senator Dodd and 
I will work together on doing that. Then we hope that our full 
committee will look not only at these provisions from the last 
2 days, but the other provisions from the PACE Act that have 
been referred to this committee, get them to the floor.
    I know the Energy Committee is planning to do that with 
eight provisions that were referred to it. Then whatever we do 
in our full committee will go to the Commerce Committee for 30 
days. The Finance Committee has three provisions from the PACE 
report, and we are counting on the leadership, when all this is 
spread out, to pull it back together and give us a chance to 
approach this as we started, which was the question: how does 
our country maintain its advantage in science and technology 
over the next 10 years so we can keep our jobs from going 
overseas, so we can have the brain power we need to win the war 
on terror, and to have energy independence and all the other 
things we hope to do as a country.
    Each of you have made a tremendous contribution to that. If 
you have other comments you would like to make, we would like 
to have them within the next week so we can include them in our 
work.
    Thank you, Senator Dodd. Do you have any further comments?
    Senator Dodd. No, just to thank you and to thank our 
panelists as well. This is one of the reasons I like serving 
with Lamar Alexander, is he likes big ideas, and too often we 
spend too much time on marginal issue. This is the heart of it. 
Again, I point to that language in the summary, the abruptness 
of change that can occur if we allow this to slip. We may not 
get it back. The world is such today that with the click of a 
mouse, you can be in touch with anybody anywhere in the world 
to provide whatever data or information we need. And we had 
better be a part of that. We want when those mouses get clicked 
around the world, we want to be tying into a Web site that is 
located in the United States with people like Josh and others 
who are answering the questions and doing the work.
    That is not going to happen. It does not happen 
miraculously. It never has. It was a Congress in 1860, during 
the Civil War, that passed legislation that created the Morrill 
Act, the land grant colleges. It was a Congress before the end 
of World War II that established the GI Bill. It was a Congress 
before they did anything else in 1789, it was the Northwest 
Ordinance, which set aside public lands for education. There 
has been a 218 year commitment in this country to the 
excellence of education. Thomas Jefferson said it better than 
anybody I have ever heard, at the beginning of the 19th 
century, any Nation that ever expects to be ignorant and free, 
expects what never was and never possibly can be. And if that 
was true in 1804, believe me, it is true in 2006.
    So this is an issue we cannot waste any time on, and I am 
thrilled to be a part of this effort with Lamar Alexander, and 
Jeff Bingaman, and Pete Domenici, and many others who care 
about it, and your participation has helped us today.
    Senator Alexander. Thank you. The hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

     Response to Questions of Senator Enzi by Peter O'Donnell, Jr.
    Question 1. What role does philanthropy play in strengthening math 
and science education throughout the K-12 system? How can States and 
districts take advantage of the resources available to them through 
philanthropic organizations?
    Answer 1. Philanthropy can support significant improvements in 
teaching and learning. Many donors want to improve public education. 
Businesses know that the strength of their future workforce depends on 
the quality of public schools. But they do not know where to place 
their bets in public education.
    The education enterprise must become more accountable to receive 
more private support. Donors respond to data. They will support K-12 
programs that have a proven track record. The academic outcomes must be 
measurable and documented; and the programs must be pegged to high 
standards and expectations.
    An example of how philanthropy works to improve math and science in 
public schools is Advanced Placement Strategies, Inc. (APS), a 
nonprofit organization that operates in Texas. It is run by master 
teachers and supported by private funds. APS was established in 2000 to 
train the teachers and manage the Advanced Placement Incentive Program 
in 10 high schools in Dallas. At that time, it had only two donors--a 
private foundation to underwrite its operating budget and the Texas 
Instruments Foundation to underwrite AP incentive programs in the 
schools. Today, APS has 52 private partners who support AP and pre-AP 
programs in 69 school districts in Texas. These districts enroll 42 
percent of total public school enrollment in Texas. APS is currently 
training 800 AP teachers of math, science and English and 7000 pre-AP 
teachers in grades 6-11 in math, science and English.
    APS operates by 3-way contracts between the donor, the school 
district and APS. This not only shares the financial burden, it also 
lets the school know that the local community supports its AP program. 
The contract requires the district to report data to APS which analyzes 
it and reports results to the donors on a regular basis. Donors are 
asked to make 5 year commitments so the program will take hold in a 
school and grow. Incentives are funded by the private sector. Business 
knows well the value of incentives to reward performance and responds 
to incentive programs to reward academic performance. Paying incentives 
with private funds also has avoided any problems with teachers' unions 
in Texas.
    As schools evaluate the success of their incentive programs, more 
school funds are being allocated to support AP teachers, as well as to 
pay the full cost of training pre-AP teachers and purchasing the 
materials and laboratory supplies they need.
    The Texas experience demonstrates that a nonprofit organization, 
governed by a small board of philanthropic citizens and managed by 
outstanding, very experienced teachers, can bring together schools and 
private donors in pursuit of common goals. It is an implementation 
vehicle that will put philanthropic resources to work to improve 
academic performance in our schools. It allows a State to scale up 
quickly, while maintaining quality.

    Question 2. How does increasing the number of advanced placement 
courses in a school impact the achievement of all students within that 
school?
    Answer 2. In most schools, AP teachers teach AP students half the 
time and regular classes the rest of the time. Principals tell us that 
AP changes the academic climate of the entire school. AP teachers bring 
a culture of high standards and high expectations to their schools that 
positively influences other teachers so that all students begin to 
benefit from better teaching of content and higher expectations.
    The impact is even greater in schools that offer pre-AP courses 
beginning in the 6th grade. Getting students into the AP pipeline early 
gives them confidence that they can master advanced math and science 
courses in high school and puts a focus on the important goal of 
graduating both from high school and from college.
    An investment today to train one AP teacher or one pre-AP teacher, 
when coupled with incentives based on academic performance, keeps on 
providing returns for that school and its students for many years to 
come.

    Question 3. Finding highly qualified science and math teachers is 
often a problem for urban and rural schools. What can be done to retain 
teachers trained in the advanced placement program in difficult to 
staff schools?
    Answer 3. The short-term solution to recruiting and retaining 
teachers in difficult-to-staff schools is financial incentives--
incentives to attend quality training institutes, incentives for extra 
work outside regular school hours (tutoring and prep sessions), and 
incentives based on their students' performance on AP exams.
    AP teachers tend to have high job satisfaction. Even though 
teaching AP requires hard work and long hours, teachers in low-
performing schools feel rewarded by seeing their students learn 
advanced material and go on to win scholarships and acceptance to 
universities.
    The Dallas AP incentive program offer examples of the long-term 
benefits of incentives to retain good teachers in inner city schools. 
Dallas is the 12th largest urban district in the country. It has 93 
percent minority enrollment and 82 percent of its students are 
economically disadvantaged. Many of its 28 high schools are considered 
to be ``low-performing.'' However, teachers who were eligible to retire 
have not retired because their AP incentive payments, which are added 
to their regular salary, also serve to increase their retirement 
benefits. Even more important, several Dallas AP incentive schools are 
beginning to hire their former students as AP teachers. These newly-
degreed teachers are eager to return to their old high school to teach, 
knowing they will be enthusiastically supported by their former AP 
teachers. When I testified before the Subcommittee on Education on 
March 1st, I distributed a series of charts showing results of the AP 
incentive program in Dallas. I have attached a copy for your 
information.
    Our country's long-term solution is contained in the first 
recommendation of the National Academy ``Gathering Storm'' report, 
namely to vastly improve the teacher corps by attracting at least 
10,000 of our best college graduates to the teaching profession each 
year. The foundation for a scientifically literate workforce begins 
with developing outstanding K-12 teachers in science and mathematics in 
numbers sufficient to serve all our schools.
   Response to Questions of Senator Jeffords by Peter O'Donnell, Jr.
    Question 1. Both national and international tests continually show 
that U.S. students do well through the 4th grade and then a decline 
begins. The decline becomes worse between grades 8 through 12. What are 
your recommendations as to how we can specifically improve grades 5 
through 8 in regard to math and science instruction?
    Answer 1. The reason for the decline is that after the 4th grade in 
the United States the number of new science and math concepts 
introduced is very low. Students in middle school continue to add, 
subtract, multiply, divide and tackle word problems. Concepts of 
algebra, geometry and functions are ignored until the students reach 
8th and 9th grades. It is not that algebra is so difficult, but without 
early preparation students can be overwhelmed by large numbers of new 
concepts being introduced. We know that elementary students can handle 
linear equations, basic geometric concepts and chemical reactions. But 
teachers are not prepared to teach the content. Textbooks spend too 
much time on repetitive drill. And expectations for our middle school 
students are disturbingly low.
    The solution is pre-AP classes in grades 6-11 with an integrated 
curriculum taught by highly trained teachers. Better training of 
teachers already in the classroom is essential. In Texas, master AP and 
pre-AP teachers developed a program called, ``Laying the Foundation.'' 
Since there are no pre-AP textbooks in math and science, Laying the 
Foundation provides the curriculum, benchmarks, assessments and 
training to teach the content and analytical skills to begin preparing 
students in the 6th grade to master advanced courses in the 11th and 
12th grades. Each lesson is aligned to the National Science standards 
and to AP topics in science and math. When fully deployed in the 
country's middle and high schools, pre-AP will provide an enormous 
boost for all students by giving them an early start on learning 
essential math and science concepts at increasingly difficult levels as 
they progress through each grade.

    Question 2. The New England Association of Schools and Colleges has 
found that one of the primary reasons this Nation's students appear to 
do poorly after 4th grade in math and science on international tests is 
that the United States sets up math and science curriculum completely 
different than most other Nations. For example, in the United States 
calculus is usually taught in 12th grade and in other countries, it is 
taught in earlier grades. Thus, the international tests could be 
comparing apples to oranges. What are your thoughts on this?
    Answer 2. While I am not qualified to offer as expert an opinion on 
this matter as would an organization such as ACHIEVE, we do know that 
the U.S. curriculum, taught by well trained teachers, should introduce 
critical science and mathematics concepts as early as possible. Perhaps 
another question is whether expectations of parents and educators are 
driving earlier success in other countries.
    At the Science and Engineering Magnet School in Dallas, 36 
sophomore students, including 20 minority students, took the AP 
calculus exam. This exam covers the first semester of freshman calculus 
in college. All 36 students passed and 50 percent scored a ``5'', the 
highest possible grade on an AP exam. When outstanding teachers have 
high expectations, students rise to the challenge, even as early as the 
10th grade.
    I am aware of one research report which shows that Advanced 
Placement enables U.S. students to successfully compete internationally 
in math and science. According to a study at Boston College, AP 
calculus students scored higher than students in every other country on 
the TIMSS math problems, compared to the U.S. as a whole which was 
second from the bottom. Our students who passed an AP physics exam 
scored above all but one country, whereas the U.S. scored at the very 
bottom.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    I hope this information is helpful to you. Please let me know if 
you would like clarification of any of my comments or have further 
questions.
 Response to Questions of Senators Enzi and Jeffords by Arden Bement, 
                                  Jr.
                   parental involvement in education
    Question 1. Parents play an important role in their children's 
education. If they don't see a crisis over science and math, it may be 
difficult to garner support for improving science and math education 
throughout the country. Do you see a problem with parental engagement? 
How could the National Science Foundation address the issue?
    Answer 1. The importance of parents is reflected in nearly all NSF/
EHR programs focusing on formal K-12 and informal science education. 
However, we are aware that while parents can be powerful allies for 
science and mathematics programs in schools, recent studies show that 
they are generally satisfied with the quality of education received by 
their own children, thinking that well-documented national problems 
must be elsewhere. In addition, parental involvement in schooling 
differs significantly by demographic group.
    A growing number of projects are shedding light on issues 
surrounding parental involvement and developing strategies for engaging 
parents. Examples:

    <bullet> Learning to Work with the Public in the Context of Local 
Systemic Change (ESI-9980602). The project developed strategies for 
teaching parents how to recognize quality mathematics programs; 
experience mathematics in meaningful ways; engage in ongoing 
discussions in mathematics education; and better understand the urgent 
need to implement high-quality mathematics programs.
    <bullet> Community Ambassadors in Science Exploration (CASE) (ESI-
O337266) encourages appreciation and understanding of science among 
underserved families. Research indicates that the family learning 
approach is uniquely capable of not only developing support for science 
learning in schools, but also in creating a context that reinforces 
science learning in out-of-school settings.
    <bullet> In general, informal science education projects, including 
television shows such as ZOOM and PEEP, IMAX films, and community 
science projects, are designed not only to motivate and educate 
children about science and technology, but also to involve parents in 
shared education activities and to raise their awareness of the 
importance of science education.
    <bullet> All comprehensive, multi-year curricula as well as some of 
the instructional modules developed with NSF support now require 
development of companion materials designed to help parents, among 
others, understand the philosophy and instructional strategies.

    NSF will continue to pursue a multi-pronged strategy to engage 
parents through its formal and informal education programming, 
including development and evaluation of effective strategies as well as 
research around factors critical to their success in diverse settings. 
NSF intends to strengthen and expand its efforts to disseminate these 
successful strategies to broad audiences.
                nsf/department of education coordination
    Question 2. How is the NSF coordinating with the Department of 
Education to align the goals of Math & Science Partnerships with the No 
Child Left Behind Act?
    Answer 2. The Math and Science Partnership (MSP) program at NSF is 
a research and development effort that supports innovative partnerships 
between higher education--especially disciplinary faculty in 
mathematics. The sciences and engineering--and local school districts 
to improve K-12 student achievement in mathematics and science--MSP 
projects are expected to both raise the achievement levels of all 
students and significantly reduce achievement gaps in the mathematics 
and science performance of diverse student populations. Through these 
goals and such other key features as teacher quality, the MSP program 
at NSF directly supports the work of the Department of Education (ED) 
and the No Chid Let Behind Act (NCLB).
    Coordination with ED in aligning the goals of MSP with NCLB occurs 
at multiple levels: at the agency level, at the program level, and at 
the project level. At the agency level, Dr. Arden Bement (Director of 
NSF) works to coordinate with ED and has met personally with ED 
Secretary Margaret Spellings to discuss NSF and ED's shared sense of 
mission to identify and implement high quality programs that will 
result in improvements in student performance. In addition, a cross-
agency ``Tiger Team'' meets for discussion of and coordination of our 
common efforts, including the MSP. The members of the ``Tiger Team'' 
include Dr. Donald Thompson (Acting Assistant Director, EHR, NSF) and 
Dr. Henry Johnson (Assistant Secretary for Elementary and Secondary 
Education ED), as well as their peers from other Federal Agencies with 
an interest in mathematics and science education. In addition to the 
``Tiger Team,'' the MSP program staffs at NSF and ED meet regularly to 
plan and coordinate common MSP efforts across the two agencies.
    Coordination with ED in aligning the goals of MSP with NCLB occurs 
at both the project and program levels. As MSP work has progressed and 
deepened, coordination has grown at the project level between projects/
partners funded by NSF and those connected with the various State 
Departments of Education and with State MSP efforts. State Departments 
of Education, for example, are partners in many NSF-funded 
Partnerships:


------------------------------------------------------------------------
                                                 State Department of
       NSF Grantee/Lead Organization                  Education
------------------------------------------------------------------------
University of North Carolina General        North Carolina Department of
 Administration.                             Public Instruction
University of Kentucky....................  Kentucky Department of
                                             Education
Duke University...........................  North Carolina Department of
                                             Public Instruction
The Vermont Institutes....................  Vermont Department of
                                             Education
Hofstra University........................  New York State Education
                                             Department
University of Puerto Rico-Rio Piedras.....  Puerto Rico Department of
                                             Education
University System of Georgia..............  Georgia Department of
                                             Education
------------------------------------------------------------------------

    Almost two-thirds of NSF's funded Partnerships report direct 
collaboration in the field with State MSPs. This collaboration takes 
many forms, from full inclusion of new districts supported by ED/State 
MSP dollars into the work of an existing NSF/MSP, to an NSF/MSP 
project's intellectual input that guides specific aspects of the work 
of a State MSP site.
    At the program level, NSF's MSP-RETA (Research, Evaluation and 
Technical Assistance) component supports the development of tools and 
other deliverables that inform and assist both NSF's and ED's 
Partnerships. These include, for example, tools to assess teacher's 
knowledge of mathematics content and how this content is used in 
teaching mathematics, with particular focus on upper elementary and 
middle school algebra and geometry. Tools of this type have not 
previously existed and are being used in both NSF's and ED's MSPs to 
inform and assess their work.
    Other tools that address the needs of both NSF's and ED's MSP sites 
are being developed in the NSF-funded Partnerships themselves, an 
example is the collaboration in the Appalachian Mathematics and Science 
Partnership with the Kentucky Department of Education to develop an 
innovative system that helps school principals identify the 
instructional methods teachers use, spot instructional problems and 
make decisions that inform teacher development, towards a goal of 
improved student achievement.
    The work of the MSP-funded projects at NSF is being widely 
disseminated to ED and to its MSPs in the States through NSF's MSPnet 
and NSF project Web sites, and in face-to-face meetings. Recent 
examples include:

    <bullet> At the October 2005 meeting of ED's State MSP 
Coordinators, NSF hosted ED's MSP Coordinators from 46 States and 
shared with them the work, tools and instruments from 13 of NSF's MSP-
funded Partnerships and RETA projects.
    .<bullet> NSF has provided the State MSP Coordinators access to and 
dedicated space on NSF's MSPnet, the NSF-funded electronic community 
for sharing resources, research and events among MSPs.
    <bullet> At annual meetings of the NSF MSP Learning Network 
Conference [MSP Principal Investigators and project leaders], selected 
sessions are always jointly developed with and led by ED and/or their 
State MSPs.
    <bullet> NSF's MSP program staff and funded Partnerships/RETAs are 
participating in and disseminating their work at each of ED's three 
regional MSP meetings in spring 2006 (in Orlando, Seattle and Boston).
               math and science instruction in grades 5-8
    Question 3. Both national and international tests continually show 
that U.S. students do well through the 4th grade and then a decline 
begins. The decline becomes worse between grades 8th through 12th. What 
are your recommendations as to how we can specifically improve grades 5 
through 8 in regard to math and science instruction?
    Answer 3. NSF recognizes that the middle grades are critical. In 
2000, responding to the insights from the Third International 
Mathematics and Science Study (TIMSS, 1995) and contemporary research, 
NSF issued a special middle-school program solicitation (NSF 00-80) 
that called for curriculum that embodied a strategic vision of what 
students should know and be able to do; science instruction that 
expected students to study more demanding science content and increase 
the breadth and scope of subsequent study; and a focus on instruction 
related to complex concepts delivered with emphasis on deeper 
understanding of fundamental ideas. The 4 multi-year, comprehensive 
curricula being supported will have major long-term pay-off for the 
country. Examples:
    <bullet> Investigating and Questioning our World through Science 
and Technology (IQWST) (ESI-0439352). IQWST, a curriculum for grades 6-
8, is currently being developed and field-tested. These materials are 
organized around driving questions that provide a context to motivate 
students as they use their knowledge and skills in scientific practices 
(e.g., modeling, designing investigations, explanation and 
argumentation, data gathering, analysis and interpretation), While the 
materials are relatively new, preliminary results from their use in 
pilot classrooms have been very promising with increases in both basic 
concept knowledge and increased ability for students to construct 
scientific explanations.
    <bullet> A revised Connected Mathematics (CMP) curriculum released 
in 2005 (ESI-9986372) is helping students, grades 6-8, develop 
understanding of important concepts, skills, procedures, and ways of 
thinking and reasoning in number, geometry, measurement, algebra, 
probability, and statistics. Early indications are that it has a 25 
percent market share. Evaluation results highlight two main points:
    <bullet> CMP students do as well as, or better than, non-CMP 
students on tests of basic mathematics skills. And, CMP students 
outperform non-CMP students on tests of problem solving ability, 
conceptual understanding, and proportional reasoning.
    <bullet> Examples of student work demonstrate that CMP students can 
use basic skills to solve important mathematical problems and are able 
to communicate their reasoning and understanding.
    Another critical issue for the country is the preparation of 
teachers. Given that many middle grades mathematics and science 
teachers tend not to have strong content preparation in their teaching 
area, it is important that preparation programs in both disciplines be 
strengthened and that current teachers be assisted in gaining new 
knowledge and skills. For the past 3 years, under the Teacher 
Professional Continuum (TPC) program, NSF has funded several research 
studies that are increasing our understanding of issues related to the 
education, retention, and development of highly trained middle grades 
science teachers.
    Out of school activities are also important for middle grades 
students. Information Technology Experiences for Students and Teachers 
(ITEST), grades 7-12, and the soon-to-be-released NSF Academies for 
Young Scientists (NSFAYS), grades K-8, will develop demonstration 
models of how in-school and out-of-school science and mathematics 
experiences can work hand-in-hand to excite and prepare students, 
especially those at the middle grades level. Opportunities provided by 
supported projects should improve student performance in rigorous high 
school courses and potentially lead to advanced study and potential 
careers in scientific disciplines.
            u.s. student performance on international tests
    Question 4. The New England Association of Schools and Colleges has 
found that one of the primary reasons this Nation's students appear to 
do poorly after 4th grade math and science on international tests is 
that the U.S. sets up math and science curriculum completely different 
than most other Nations. For example, in the U.S., calculus is usually 
taught in the 12th grade and in other countries, it is taught in 
earlier grades. Thus, the international tests could be comparing apples 
to oranges. What are your thoughts on this?
    Answer 4. Comparing student achievement at the end of secondary 
school is more complex than comparing elementary students because the 
mathematics content may differ between countries and also because the 
percentage of students still in school may differ by age 18. For that 
reason, only 2 international comparisons of mathematics have been 
attempted (in 1982 and 1995). The 1995 TIMSS 12th grade study made an 
extensive effort to make the comparisons of populations as similar as 
possible. Yet, the achievement of U.S. students compared with the 16 
countries that agreed to participate in the study was very low.
    The 12th grade study was intended to be a study of mathematics 
literacy at the end of secondary school and thus all students were 
tested at a level of mathematics that was appropriate for high school 
students. If the results are disaggregated and the 14 percent of U.S. 
students who took advanced mathematics are compared to similar students 
in other countries, the U.S. student ranking is as low as it is for all 
students in the study (see Mathematics and Science Achievement in the 
Final Year of Secondary School, Table 6.1 (attached) and available at 
http://isc.bc.edu/timss1995/TIMSSPDF/C.admath.pdf (page 146 (20 of 
57)). However, for the U.S. students who took AP calculus, the 
performance rating was 513 or just above the international average of 
500. This finding calls into question the argument that the comparisons 
are not fair.
    The TIMSS study group published A Study of U.S. 12th Grade 
Mathematics and Science Achievement in an International Context in 
1998. The authors noted that the average age of students in many high 
performing countries (Denmark, New Zealand, Norway and Sweden) was 
higher than in the United States and that it might account for some of 
the achievement differences.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Response to Question of Senator Enzi by Assistant Secretary Johnson
    Question 1. The President's American Competitiveness Initiative 
proposes new Federal support to improve the quality of math, science, 
and technology education in our K-12 schools. The initiative includes a 
number of new and expanded programs including Math Now for elementary 
and middle school students. What specific plans are being made to 
address improving science education at the elementary and middle school 
levels?
    Answer 1. Math skills are the foundation for learning science, so 
strengthening math instruction is fundamental to improving science 
education. After we lay the foundation with math, we hope to build on 
that success with a science panel.
    Also, the Academic Competitiveness Council, established by the 
Deficit Reduction Act of 2005, will improve the quality of evaluations 
of all Federal Science, Technology, Engineering, and Mathematics (STEM) 
programs, with a focus on examining whether they are consistent with 
the principles of No Child Left Behind.
    And the Adjunct Teacher Corps will create opportunities for 
qualified professionals from outside the K-12 educational system to 
teach secondary-school courses in the core academic subjects, with an 
emphasis on mathematics and the sciences.
    Response to Questions of Senators Enzi and Jeffords by Tom Rudin
    Question 1. What role does philanthropy play in strengthening math 
and science education throughout the K-12 system? How can States and 
districts take advantage of the resources available to them through 
philanthropic organizations?
    Answer 1. Philanthropy can and does play an important role in the 
process of strengthening math and science education, and some States 
and districts are taking advantage of these private funding 
opportunities. Much more can be done, however, to attract philanthropic 
dollars to mathematics and science education reform.
    The College Board, for example, has secured grants to support the 
development and implementation of SpringBoard, its Pre-AP program in 
mathematics, from the following foundations: GE Foundation, Toyota 
Motor Company Foundation, National Science Foundation, and Ford Motor 
Company. Indeed, at this moment, the GE Foundation and Ford Motor 
Company are supporting Pre-AP and AP expansion initiatives in Erie, 
Pennsylvania, and Lansing, Michigan, respectively.
    The Bill and Melinda Gates Foundation has also funded a major 
College Board Initiative called College Board Schools. We are pursuing 
the development of schools comprising grades 6-12 that have as their 
goal every student's successful completion of two or more AP courses. 
Five College Board Schools are operating now in New York City, and at 
least 12 more will open in the New York area within the next 2 years. 
At least 10, and possibly more than 100, additional Gates-sponsored 
schools could open in States and districts across the Nation over the 
next 5 years. These schools can be a model for other public schools 
across the country.
    The Dell Foundation has recently funded an initiative of the 
National Governors Association in which the NGA has awarded grants of 
$500,000 to six States for AP expansion, with States required to 
provide a match of equal dollars. These six States--Wisconsin, Nevada, 
Alabama, Kentucky, Georgia, and Maine--are all pursuing major AP 
initiatives that focus on reaching traditionally underrepresented 
student populations. Actually, the approach NGA has taken--requiring a 
$1 match from the State for each $1 dollar awarded through the grant, 
and requiring States to submit a comprehensive plan for statewide AP 
expansion--maybe a model that you could consider for the structure and 
operation of the AP math and science provisions of PACE. We would be 
happy to talk further with you about how NGA developed the model, and 
the College Board is an integral partner in the operation of that 
program.
    Other foundation and corporate entities, including Intel and other 
high-tech firms, have recognized that the future workforce needs better 
training and education, especially in the STEM (science, technology, 
engineering, and mathematics) fields. Those foundations typically 
invest in programs at the school or district level, but could possibly 
be encouraged to make investments in States or across consortia of 
States.
    States and districts can take advantage of these philanthropic 
opportunities in several ways:
    <bullet> Pursue State funding directly with foundations and 
corporate entities, with the aim of securing matching funds (to State 
and Federal investments) that are directed toward improving mathematics 
and science teacher quality--and that can be used to support incentive 
payments to teachers and schools that are committed to expanding 
student participation and performance in AP courses.
    <bullet> Establish partnerships with national organizations (such 
as the NGA, the College Board, and others) and jointly pursue 
foundation funding to support a specific STEM initiative--such as the 
NGA-Dell model cited above.
    <bullet> Develop State collaboratives in which States and 
philanthropic organizations (both foundations and corporations) 
establish a pool or ``bank'' of resources from which to draw to create 
national math-science initiatives such as AP and Pre-AP professional 
development programs, teacher internships, and so forth.
    <bullet> Use non-traditional corporate support--for example, 
current and retired scientists and engineers who become ``scholars in 
residence'' in high schools with few or no advanced teachers of science 
and mathematics, and who teach two or three advanced-level courses.

    Question 2. How does increasing the number of Advanced Placement 
courses in a school impact the achievement of all students within that 
school?
    Answer 2. School superintendents and principals increasingly 
recognize the value of AP as leverage to increase achievement for all 
students--to serve as the tide that lifts all boats. They have 
discovered that the more AP teachers there are in a school, the more 
rigorous and challenging the curriculum becomes in AP and non-AP 
classes alike. Further, because most AP teachers only teach one or two 
AP classes, and three or four non-AP classes, many non-AP students 
benefit from the enhanced training that AP teachers receive.
    The influence of AP courses throughout a school, and the growing 
recognition of the power of vertical teaming, was illustrated in a 
recent survey of AP Biology teachers. More than half the teachers (59 
percent) surveyed said that they are encouraged to coordinate the 
content of their courses with other teachers in their department.\1\
---------------------------------------------------------------------------
    \1\ Pamela Paek, Eva Ponte, Irv Sigel, Henry Braun, and Donald E. 
Powers (2005), A Portrait of Advanced Placement Teachers' Practices. 
New York: The College Board.
---------------------------------------------------------------------------
    A new study from the National Center for Educational Accountability 
suggests that one of the important values of AP can be the drive to 
improve the academic preparation of all students prior to their 
enrollment in AP courses:
    To improve their college readiness outcomes for [low-income] 
students, school districts need to approach ``Advanced Placement'' not 
as a special set of courses for their already well-prepared students, 
but as a comprehensive program to prepare large numbers of students, 
starting in the early grades and including disadvantaged students, to 
be able to do college-level work before they leave high school.\2\
---------------------------------------------------------------------------
    \2\ Chrys Dougherty, Lynn Mellor, and Shuling Jian (2006), The 
Relationship Between Advanced Placement and College Graduation, p. 14. 
Austin, TX: National Center for Educational Accountability.
---------------------------------------------------------------------------
    Evidence from the State of Florida and Charlotte-Mecklenburg (North 
Carolina) Public Schools illustrates the connection between an expanded 
AP Program and enhanced student achievement throughout a State and 
school district. Through a partnership with the College Board, Florida 
has undertaken a number of initiatives aimed at increasing the college 
readiness of its student population--including a major AP expansion 
drive. The results of Florida's efforts since the inception of this 
initiative in 2000 include the following:

    <bullet> AP participation increased by 125 percent from 2000 to 
2005.
    <bullet> Minority AP participation increased by 128 percent from 
2000 to 2005.
    <bullet> Minority SAT participation increased by 65 percent from 
2000 to 2005.
    <bullet> Minority SAT verbal scores rose by 1 percent, even as 65 
percent more students were taking the test.
    <bullet> SAT participation by African-American students increased 
by 47 percent from 2000 to 2005.
    <bullet> The average SAT math score for African-American students 
increased by 2 percent.
    <bullet> SAT participation by Hispanic students increased by 84 
percent from 2000 to 2005.

    Approximately 7 years ago, the Charlotte-Mecklenburg Schools (CMS) 
launched a major commitment to increasing academic rigor and improving 
the rate of college-going among its students, and AP expansion was a 
major part of that effort. Among the program components implemented by 
the district were the following:

    <bullet> AP Potential (testing students with the PSAT/NMSQT to 
identify strong candidates for AP success).
    <bullet> Pre-AP teacher professional development program 
implemented and required.
    <bullet> Strong teacher AP professional development program 
implemented.

    The results of the CMS initiative include the following:

    <bullet> Minority participation in AP has risen by 56 percent since 
2000.
    <bullet> The percentage of minority students scoring 3 or higher on 
AP exams has increased by 5 percent.
    <bullet> The number of African-American students receiving a score 
of ``at or above expectations'' (3 or 4) on the State algebra end-of-
course assessment has risen by 6.4 percent. For the first time, over 
half of African-American students (55.4 percent) passed the exam.
    <bullet> The number of African-American students receiving a 
passing score (3 or 4) on the State English I end-of-course assessment 
has risen by 7 percent.
    <bullet> Average SAT scores have increased by 1.5 percent over the 
past 10 years, even as the number of students taking the SAT increased 
by 42 percent and the number of minority students taking the SAT 
increased by 88 percent.

    In both the State of Florida and the Charlotte-Mecklenburg Public 
Schools, the data support the notion that a major commitment to AP 
expansion, especially when supported with other reform initiatives, 
raises overall student achievement, not just that of students who take 
AP courses.

    Question 3. Finding highly qualified science and math teachers is 
often a problem for urban and rural schools. What can be done to retain 
teachers trained in Advanced Placement programs in difficult-to-staff 
schools?
    Answer 3. Retaining teachers trained in AP in difficult-to-staff 
schools ultimately boils down to the issue of incentives. What 
incentives drive teacher decisions to remain at or to move from a 
school? What factors make a school a difficult-to-staff school? When 
teachers at urban or rural schools achieve a high level of competency 
in AP, they are noticed by other educators and are recruited with 
incentives such as greater salary, better teaching schedule (fewer 
preps and/or fewer periods), more stable class sizes in AP than would 
be the case in a rural setting, and a more stable learning environment 
than would be the case in an urban setting.
    We have learned anecdotally that many AP teachers are more likely 
to persist in the profession because of the fact that they are AP 
teachers. That is, they find the challenges and rewards of AP teaching 
appealing, and many who would have otherwise left the profession remain 
teachers because of the opportunity to teach AP.
    To retain high-quality teachers, the issue of incentives must be 
addressed. Incentives include the following:

    <bullet> More competitive compensation, including salary and 
benefits;
    <bullet> More planning periods;
    <bullet> Fewer preparation periods;
    <bullet> Opportunities to have mentors early in their careers--and 
to mentor other teachers later in their careers;
    <bullet> Opportunities to collaborate with other teachers and with 
other faculty (e.g., college professors) on content-based projects, 
such as science labs and internships;
    <bullet> Increased professional development opportunities--with 
compensation.

    Question 4. Both national and international tests continually show 
that U.S. students do well through the 4th grade and then a decline 
begins. The decline becomes worse between grades 8 through 12. What are 
your recommendations as to how we can specifically improve grades 5 
through 8 in regard to math and science instruction?
    Answer 4. We agree that grades 5-8 are the critical grades most 
responsible for this decline. The majority of mathematics teachers at 
these grades, for example, hold an elementary (K-8) certificate and, 
thus, have far less than even a minor in undergraduate mathematics 
content. (The usual requirement for elementary majors at most colleges 
and universities is one general education math course plus one or two 
math methods courses related to teaching content exclusively focused on 
the mathematics taught in grades K-5 rather than grades 6-8.)
    Our recommendation is that States explore some form of middle 
school certification in mathematics and science, with two possible 
requirements:

    (1) Middle school teacher candidates have at least a minor in 
mathematics or science, and preferably a major in mathematics or 
science if they intend to teach in those fields.
    (2) Middle school teacher candidates have methods coursework that 
is focused on training them in the skill of applying formative 
assessment strategies to diagnose what students know, and how they know 
it, and be able to apply this diagnosis to increasing student 
understanding, that is, in directing their mathematics or science 
content coursework to the task of teaching students.

    We note that the College Board is conducting NSF-sponsored research 
on mathematics teacher professional development that is focused on 
three guiding principles of effective teaching in mathematics: (1) 
content--conceptual understanding is the key to deep and long-lasting 
content learning; (2) pedagogy--student thinking about mathematics is 
the key to getting students to learn mathematics; and (3) assessment--
formative assessment strategies that discover what students know and 
how they know it are the keys to increasing student learning. We 
believe that these three guiding principles should be the basis of 
educating future teachers of mathematics and science.
    AP can drive improved teaching and learning of science and 
mathematics in the middle grades. AP sets a standard for all students 
and teachers with its capstone learning standards. Through vertical 
teaming and other professional development experiences that bring 
middle grade and high school teachers together, and through district 
``back-mapping'' of the curriculum that sets standards and required 
knowledge across grades 6-11 in a way that prepares students for AP 
success, AP can raise the bar and raise standards and expectations at 
all grade levels.

    Question 5. The New England Association of Schools and Colleges has 
found that one of the primary reasons this Nation's students appear to 
do poorly after 4th grade in math and science on international tests is 
that the U.S. sets up math and science curriculum completely different 
than most other Nations. For example, in the U.S., calculus is usually 
taught in 12th grade and in other countries, it is taught in earlier 
grades. Thus, the international tests could be comparing apples to 
oranges. What are your thoughts on this?
    Answer 5. Our initial reaction to the New England Association of 
Schools and Colleges' conclusion is that it is a red herring. If the 
problems on the international tests were explicit problems from 
calculus, then we could agree with the New England Association of 
Schools and Colleges' conclusion. However, looking at the TIMSS grade 8 
items, we find these items to be seemingly consistent with the 
mathematics content that U.S. grade 8 students are being taught. The 
fact that the results are poor reflects that U.S. students are not 
learning this material very well. This relates more to the lack of 
preparation of middle school teachers in math content knowledge and 
their ability to help their students understand this content.
    Is the implication here to move calculus down to earlier grades in 
the United States? We believe not. We have acknowledged the inability 
of U.S. schools to teach students middle school math and science 
content to a satisfactory degree. Moving calculus down would only make 
this problem worse, and it would raise new issues of what, then, should 
be taught in the higher grades to students who have taken calculus 
earlier, and whether teachers will be prepared to teach this new 
content well.

    [Whereupon, at 12:15 p.m, the subcommittee was adjourned.]

                                    

      

</pre></body></html>
